<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2002</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



                      ENERGY AND WATER DEVELOPMENT

                        APPROPRIATIONS FOR 2002

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS
                              FIRST SESSION
                                ________
              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT
                         SONNY CALLAHAN, Alabama
 HAROLD ROGERS, Kentucky             PETER J. VISCLOSKY, Indiana
 RODNEY P. FRELINGHUYSEN, New Jersey CHET EDWARDS, Texas
 TOM LATHAM, Iowa                    ED PASTOR, Arizona
 ROGER F. WICKER, Mississippi        JAMES E. CLYBURN, South Carolina
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 JO ANN EMERSON, Missouri
 JOHN T. DOOLITTLE, California      
                         
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
  Robert Schmidt, Jeanne L. Wilson, and Kevin V. Cook, Staff Assistants
                                ________
                                 PART 6
                          DEPARTMENT OF ENERGY
                                                                   Page
 Atomic Energy Defense Activities.................................    1
 Defense Nuclear Facilities Safety Board..........................  761
 Environmental Management and Commercial Waste Management.........  869
 Nuclear Waste Technical Review Board............................. 1227

                              <snowflake>

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 73-724                     WASHINGTON : 2001





                       COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky             NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama             NANCY PELOSI, California
 JAMES T. WALSH, New York            PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina   NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio               JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma     ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan           JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                 ED PASTOR, Arizona
 JACK KINGSTON, Georgia              CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi        CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 RANDY ``DUKE'' CUNNINGHAM,          PATRICK J. KENNEDY, Rhode Island
California                           JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                 MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                    SAM FARR, California
 ANNE M. NORTHUP, Kentucky           JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama         CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri            ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire       CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                  STEVEN R. ROTHMAN, New Jersey    
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
   
 VIRGIL H. GOODE, Jr., Virginia     
   
                 James W. Dyer, Clerk and Staff Director

                                  (ii)

 
          ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2002

                              ----------                              

                                             Thursday, May 3, 2001.

                          DEPARTMENT OF ENERGY

                NATIONAL NUCLEAR SECURITY ADMINISTRATION

                               WITNESSES

GENERAL JOHN A. GORDON, UNDER SECRETARY FOR NUCLEAR SECURITY AND 
    ADMINISTRATOR, NATIONAL NUCLEAR SECURITY ADMINISTRATION
ADMIRAL FRANK L. BOWMAN, DIRECTOR, NAVAL NUCLEAR PROPULSION PROGRAM, 
    NATIONAL NUCLEAR SECURITY ADMINISTRATION
BRIGADIER GENERAL THOMAS F. GIOCONDA, DEPUTY ADMINISTRATOR FOR DEFENSE 
    PROGRAMS (ACTING), NATIONAL NUCLEAR SECURITY ADMINISTRATION
KENNETH BAKER, DEPUTY ADMINISTRATOR FOR DEFENSE NUCLEAR PROLIFERATION 
    (ACTING), NATIONAL NUCLEAR SECURITY ADMINISTRATION
    Mr. Callahan. Good morning.
    Pursuant to the vote of this committee on April 25, today's 
hearing on DOE's atomic energy defense activities will be held 
in executive session. General Gordon, can you verify that 
everyone in the room has the appropriate security clearance?
    General Gordon. Mr. Chairman, we have checked and everyone 
that is in the room is appropriately cleared for the levels of 
discussion we are planning on today.
    Mr. Callahan. To the members of the subcommittee, I would 
like to remind you that some of the information discussed today 
will be classified and should not be discussed outside this 
room.
    One last reminder. I would like that all cell phones, two-
way pagers and unauthorized recording devices be turned off 
during the hearing.
    I don't have an opening statement this morning. Pete, do 
you have an opening statement?
    Mr. Visclosky. Mr. Chairman, I do not.
    Mr. Callahan. Thank you.
    Well, with that, General Gordon, we will give you the 
floor.
    General Gordon. Thank you, Mr. Chairman. I am joined today 
by Admiral Bowman and the Acting Directors for Defense Programs 
and Nonproliferation, Brigadier General Gioconda and Mr. Baker. 
With your permission, I would like to proceed with an oral 
statement, and then I have a rather lengthy statement that we 
have submitted for the record.

                           Opening Statement

    Mr. Chairman, I thank you and thank the members of the 
subcommittee for the opportunity to appear here before you 
today to discuss the 2002 budget for the National Nuclear 
Security Administration. I want to thank the members for their 
support of our mission, for the support of the 37,000 people 
that work hard every day to carry it out; Federal employees, 
contractors, in the field and Washington, a good solid group of 
people trying every day to strengthen our security.
    What I would like to do, Mr. Chairman, is speak for a few 
minutes about NNSA broadly, since this is one of the first 
times we have really talked in session, and then a little bit 
on the budget details and then go wherever you would like to 
take us, of course.


                           NNSA ORGANIZATION


    What I would tell you, sir, is that we are making a steady, 
albeit rather slow progress towards the goals that we all share 
of achieving an effective and streamlined organization to lead 
and manage the national nuclear security enterprise that has 
been entrusted to us. I am not satisfied with where we are and 
what we have been able to do to establish NNSA as an all-up 
organization, with the unique identity and the clear lines of 
authority that we all seek. But we are moving forward and I 
believe we have made remarkable progress when measured against 
the barriers and the bureaucracy that we often confront. Even 
though it has been difficult to move dramatically on some of 
the organization issues, we have gotten well beyond some of the 
issues that confronted us at the beginning, such as dual-
hatting. We have begun to set up a new framework and management 
for the NNSA itself. We have brought on board critical staff 
for a number of the vital issues that we face such as: 
counterintelligence, security, contracting, and we have made 
real progress in those areas. We have the Director of 
Congressional Affairs, we have two senior advisors on board of 
immense capacity, one for Science and one for Policy. We have 
an ES&H, Environment, Safety and Health, advisor with great 
professional experience who comes to us from Naval Reactors; a 
senior military assistant, a strong chief of staff who knows 
the system in detail. We have established an Office of Policy 
and Planning that will help us work better into the interagency 
community and reach out and make sure we are communicating and 
working better with the policy communities in Washington.


                          NNSA MISSION ISSUES


    Mr. Chairman, when I started, I elected to spend a large 
percentage of my time on the very critical mission-related 
issues that were squarely on my desk when we took over.
    Mr. Callahan. Let me just interrupt you for just a second 
and say that that is a Journal approval vote. That may be one 
reason a lot of the panel members are not here, I mean the 
committee members, are not here today. Maybe it would be best 
if we would go ahead and vote and get back and then to keep you 
from having to repeat everything you say, when the other 
members join us. Maybe in the interest of time, we will just go 
ahead and recess for this few minutes, go vote, and hopefully 
the other members will join us, and then we will begin the 
process.
    General Gordon. Of course, Mr. Chairman.
    [Recess.]
    Mr. Callahan. Well, we have some good news and some bad 
news. That was not a Journal vote, it was an adjournment vote. 
The bad news is that it didn't pass. The other bad news is 
obviously there is some discontent in the House, which is very 
unusual, but that is an indication that we may be interrupted 
often with these frivolous motions. Someone is not satisfied. 
But, General, I am sorry to have interrupted you a while ago, 
but we will proceed on until the next frivolous motion is 
called, so go ahead, sir.
    General Gordon. Thank you, Mr. Chairman. As we broke I was 
saying that in the early days I had decided to spend a large 
amount of my time on the very critical mission problems that 
were squarely on my desk when I took over this job and, 
therefore, I spent a little less time on the organization 
itself. But from my perspective and, in part, because of the 
time I spent on it, there has been some real progress in the 
areas of mission and I would like to report on at least a 
couple of those.


                                 MORALE


    The first I would tell you is that morale at the labs and 
the plants is really significantly different than it was 
several months ago. I would not go so far as to say we have 
corrected the problems, or that it is not very fragile yet, or 
there are other shoes that could drop, but it is really 
significantly different now, in how it feels when one visits 
the labs, how people talk about their future and the work that 
they have. It is in part because there is a clear mission. They 
are starting to see a clear mission, they are starting to see 
advocacy back in Washington for that, and there is hope for 
stability in budgets and all we are trying to do. In no small 
part, I think we are off the front page, and that helps a 
little bit as well.


                                SECURITY


    We made some good strides in security. We have the Hamre 
Commission up and running to help us make sure we think about 
science and security properly. Some people fell into the habit 
of talking about the balance between security and science, and 
I am really trying to not consider it a balance. I need to do 
both. I need to be able to do good science in a secure 
environment, and if we have--if we actually believe that the 
culture of the laboratories and the culture of the scientists 
who design these weapons and test these weapons and understand 
these weapons don't understand or accept the idea of security, 
we have a very different kind of a problem on our hands if it 
is a cultural issue. But the Hamre Commission is trying to make 
sure it helps us think about that right.
    We have established a moratorium on some new policies so 
that we can make a good review of where we are and what we have 
going now. We have a program called Integrated Safeguards and 
Security Management. We are trying to bring security down to 
the individual workers, make it part of their decision process, 
part of their everyday work, rather than just decisions that 
come from Washington on how to run on a day-to-day basis.
    We have had success in the counterintelligence business. We 
have a better balance on the foreign visitor programs. We have 
the National Academy of Sciences doing a review for us of 
polygraphs as used as screening tools, and I hope to be able to 
ask Congress for some perfections in the existing legislation 
on polygraphs, while maintaining the very highest standards of 
security.


                        NUCLEAR WEAPONS COUNCIL


    We have been able to change significantly the relationship 
we have with the Department of Defense and our military 
partners. The Nuclear Weapons Council has been revitalized and 
we meet regularly and we discuss and we make decisions and we 
set schedules. We are working requirements together trying to 
balance the Nuclear Mission Management Plan of the military 
with our green book, with our plans to try to work those in a 
very good way.
    [Deleted.] We feel pretty good about how we have restored 
some of that relationship and those interactions.


                            FIVE-YEAR BUDGET


    We have developed a plan on how we would budget and how we 
would propose to spend money in this business, and it is an 
important management tool. What we have been able to do 
internally is far from perfect and far from complete, but it is 
a great first start and we know where we are trying to go on 
that, and it has given us the beginnings of an ability to look 
ahead beyond the one year, which we have done for so long.


                       NATIONAL IGNITION FACILITY


    Over the last year or so we have rebaselined the National 
Ignition Facility. We have a clear way ahead on that. We have a 
new management team in place, and I can report that when we go 
visit the lab now and when we go visit the National Ignition 
Facility, the briefings, the perspective is totally different 
now. Now when I go there, instead of there being a discussion 
about isn't that going to be wonderful science when we get it 
done, the program manager is saying, here is what I did last 
week, here is what I am going to do next week, here is how I am 
spending the money. Here is where I am short, here is where I 
am long. Here is what my relationships are, here is what my 
problems are. It is now very much a management approach rather 
than a pure science approach. It is being run as a project, Mr. 
Chairman.


                       INFRASTRUCTURE INITIATIVE


    We developed a major infrastructure initiative to correct 
the problems at some of the facilities that are now reaching 
crisis proportion. We have put in place a series of new 
contracts with stronger provisions and better management from 
our end. We have a new contract with the University of 
California for Los Alamos and Livermore Laboratories. We have 
new contracts and new contractors in both the Y-12 and the 
Pantex production plants. We have extended and revised the 
contract with the Kansas City plant. All of these are going 
extremely well. We see real measurable improvements in each.
    We have been equally successful over the last year in the 
areas of nonproliferation. We have worked hard on detection R&D 
to provide a full range of capabilities for first responders 
for the Nation, everywhere from multi-spectral satellites to 
the smallest hand-held detectors.
    MPCA, Material Protection Control and Accountability, 
programs in Russia have strengthened the security in several 
thousand Russian naval warheads and 220 metric tons of uranium 
and plutonium. We have worked hard with the second line of 
defense. We have helped the Russians put sensors up at some of 
their sensitive border crossings, and the nuclear cities 
initiatives and the initiatives for proliferation prevention 
are providing opportunities for nuclear scientists to turn away 
from their work in the work of the business to commercial 
activities and providing opportunities to read us the entire 
footprint of the nuclear weapons enterprise.
    On the highly enriched uranium purchase from Russia, we 
have successfully now monitored the conversion of about 110 
tons of that material to lower grade reactor fuel. We have 
participated in the strengthening and safety of the operations 
of Russian-designed reactors. We are looking to convert 
unneeded material here and in Russia, and we have completed the 
canning and the safeguarding of some 8,000 plutonium-bearing 
fuel rods in North Korea.
    Mr. Chairman, I won't in my briefing say a whole lot about 
Naval Reactors today, but I would give you a few points. In 
particular, my friend, Admiral Skip Bowman, is absolutely doing 
a superb job by every measure. His organization actually 
operates 102 naval reactor plants, a number within one or two 
of the number of commercial plants that are operating in this 
country today. They safely and effectively and efficiently 
provide power to some 40 percent of the naval warships of our 
country. They are developing the next generation of reactors 
for the Virginia class submarines and the next generation of 
reactors for the CVNX aircraft carriers. These are all included 
in the requested budget.
    Importantly, I would say Naval Reactors continues to make 
real progress in improving their business practices and 
operating at the highest environmental standards. Mr. Chairman, 
I try to go to school on what Skip is doing and I ask my staff 
to go to school on how they are doing their business.


                        STRATEGIC DEFENSE REVIEW


    Mr. Chairman, the budget request for NNSA is $6.8 billion, 
$5.3 billion for stockpile stewardship, $774 million for 
defense nonproliferation, and $688 million for Naval Reactors.
    Mr. Chairman, it is very likely that the numbers for 
nonproliferation and for defense programs are not final. 
President Bush has asked the Secretary of Defense, in 
coordination with the Secretary of Energy, to conduct several 
reviews to create a new vision for the role of the Nation's 
military in the 21st century and particularly to look at 
nuclear deterrence in the post-Cold War environment. NNSA is a 
participant in this review and its outcome will have a major 
impact on the workload that we would expect to face in the 
years ahead. Separate and additional reviews examining U.S. 
nonproliferation programs, particularly with Russia, and 
towards this end, I hope we will have a new strategy for our 
threat reduction activities with Russia and again, NNSA is a 
participant in those reviews. The Administration will finalize 
its 2002 outyear funding request for defense and national 
security activities when these reviews are complete.
    Notwithstanding some uncertainty in the details of these 
strategic reviews, I would like to try to look ahead, talk a 
little about our request and a little bit about the 
opportunities that are in front of us. Mr. Chairman, our formal 
submission defines the details of how we would recommend 
allocating the requested funds. I will stay at a fairly broad 
level for the moment, especially since there is a strong 
probability that we will propose adjustments following the 
Administration reviews.


                         FY 2002 BUDGET REQUEST


    I would say that the requested budget goes a long way to 
support Defense Programs, and the stockpile stewardship 
program, and it actually includes a 4.6 percent increase from 
last year. So $5.3 billion is a significant amount of money and 
is, I believe, the only real increase that is being seen in the 
DOE budget. It will support most of our major campaigns and the 
technology building blocks for stockpile stewardship. The 
national assets, the security transportation assets, the 
national incident response assets will remain high priority and 
funded. Weapons safeguards and security are a separate budget 
category and it should meet all known requirements and includes 
more emphasis on cyber security. At the requested level we will 
be able to handle the ongoing work for the W87 warhead and 
begin much needed refurbishment of the B61 bomb, with its first 
production in the 2004 time frame. We will not under the 
current allocations, though, be able to support the full plans 
for the W76 warhead or the W80 warhead, although we would begin 
preliminary engineering development. At the requested level we 
will be able to continue our pit manufacturing program and keep 
that on track, but I don't think I would be able to certify the 
W88 pit on a date certain at the requested level, at least not 
without significantly unbalancing the program as a whole. At 
the requested level, we would not be able to aggressively 
attack the infrastructure problems that I mentioned earlier. 
Other programs would be affected as well, but again, this may 
change as a result of some of the reviews.
    Mr. Chairman, the underlying approach for developing our 
budget was to keep the programs, all the campaigns in balance, 
while correcting some of the problems of the past: NIF, pit 
certification and pit manufacturing. We have proposed to begin 
to fund the needed refurbishments for those particular weapons 
I mentioned and to begin to correct the crisis in our 
facilities infrastructure. So we await the outcome of the 
reviews to be able to finalize the numbers toward these ends.
    Mr. Chairman, the Administration's request for 
nonproliferation programs is $101 million less than last year's 
appropriation. At that level, it should be obvious that we 
would have to curtail efforts in several areas and lose 
momentum in others. Again, however, the administration is 
conducting a review of each program and we await the outcome of 
that review.
    From my perspective, we manage a series of programs, and I 
have highlighted most of them for you that, taken together, 
really contribute measurably to the very important goal of 
reducing the threat of proliferation of weapons of mass 
destruction. NNSA has some real successes in this area because 
we have been able to integrate the technology and the research, 
the expertise from the NNSA labs, along with that from some of 
the DOE labs and from other agencies of the government. We 
quite literally provide the technical base for so much of what 
the government does in proliferation detection and the 
expertise base to work effectively in Russia and elsewhere, 
attempting to secure materials and weapons and support the 
international agreements and to reduce the threats we face. Mr. 
Chairman, it is appropriate that the administration review our 
programs and come to their own conclusions about the merits.
    For me, I would hope that the result of these reviews would 
lead to a more comprehensive approach, a more integrated 
approach to nonproliferation and to the threat reductions. The 
individual programs can be seen and more carefully measured in 
their own merit and also they can operate together more 
synergistically. The threefold threat of unsecured materials, 
available technology and under-employed expertise argues for a 
strong and effective program. Even so, we remain mindful of how 
difficult it is to operate in this environment, this Russian 
environment, and the ongoing reviews and policy development 
activities must specifically deal with Russian attitudes, their 
relationships with proliferance, issues of access and issues of 
sustainability.
    Mr. Chairman, in the National Nuclear Security 
Administration I believe we are making progress. We are making 
progress on our mission, we are making progress on the 
organization and, with the very strongly demonstrated support 
of the new Secretary of Energy, Secretary Abraham, I expect 
that progress to accelerate. He has been a very strong 
supporter of our work, activities and mission. He is very much 
in the camp of what we are trying to do. I, Mr. Chairman, 
remain excited about our mission and its great importance. We 
can't be daunted by the magnitude of the problems we face and 
we need to attack each one of them every day with energy and 
with commitment. We need to correct the shortfalls of the past 
but really we need to get ready for the future. This requires 
that we attract and retain the very best people, give them 
clear leadership and an important mission, adequate resources 
to do their job, and a safe, efficient work environment. I 
remain very much impressed by those in the NNSA who are 
committed and who work so hard, often under very difficult 
conditions, and I gain great energy from them when I get to go 
out and visit them and watch them do their mission on an 
everyday mission. You can, Mr. Chairman, and you should, be 
very proud of them.
    Mr. Chairman, that concludes my oral statement. As I said, 
I have a longer statement that we submitted for the record, and 
I would be glad to proceed as you like.
    [The statement of General Gordon follows:]
    [GRAPHIC] [TIFF OMITTED] T3724A.001
    
    [GRAPHIC] [TIFF OMITTED] T3724A.002
    
    [GRAPHIC] [TIFF OMITTED] T3724A.003
    
    [GRAPHIC] [TIFF OMITTED] T3724A.004
    
    [GRAPHIC] [TIFF OMITTED] T3724A.005
    
    [GRAPHIC] [TIFF OMITTED] T3724A.006
    
    [GRAPHIC] [TIFF OMITTED] T3724A.007
    
    [GRAPHIC] [TIFF OMITTED] T3724A.008
    
    [GRAPHIC] [TIFF OMITTED] T3724A.009
    
    [GRAPHIC] [TIFF OMITTED] T3724A.010
    
    [GRAPHIC] [TIFF OMITTED] T3724A.011
    
    [GRAPHIC] [TIFF OMITTED] T3724A.012
    
    [GRAPHIC] [TIFF OMITTED] T3724A.013
    
    [GRAPHIC] [TIFF OMITTED] T3724A.014
    
    [GRAPHIC] [TIFF OMITTED] T3724A.015
    
    [GRAPHIC] [TIFF OMITTED] T3724A.016
    
    [GRAPHIC] [TIFF OMITTED] T3724A.017
    
    [GRAPHIC] [TIFF OMITTED] T3724A.018
    
    [GRAPHIC] [TIFF OMITTED] T3724A.019
    
    [GRAPHIC] [TIFF OMITTED] T3724A.020
    
    [GRAPHIC] [TIFF OMITTED] T3724A.021
    
    [GRAPHIC] [TIFF OMITTED] T3724A.022
    
    [GRAPHIC] [TIFF OMITTED] T3724A.023
    
    [GRAPHIC] [TIFF OMITTED] T3724A.024
    
    [GRAPHIC] [TIFF OMITTED] T3724A.025
    
    [GRAPHIC] [TIFF OMITTED] T3724A.026
    
    [GRAPHIC] [TIFF OMITTED] T3724A.027
    
    [GRAPHIC] [TIFF OMITTED] T3724A.028
    
    [GRAPHIC] [TIFF OMITTED] T3724A.029
    
    [GRAPHIC] [TIFF OMITTED] T3724A.030
    
    [GRAPHIC] [TIFF OMITTED] T3724A.031
    
    [GRAPHIC] [TIFF OMITTED] T3724A.032
    
    [GRAPHIC] [TIFF OMITTED] T3724A.033
    
    [GRAPHIC] [TIFF OMITTED] T3724A.034
    
    [GRAPHIC] [TIFF OMITTED] T3724A.035
    
    [GRAPHIC] [TIFF OMITTED] T3724A.036
    
    [GRAPHIC] [TIFF OMITTED] T3724A.037
    
    [GRAPHIC] [TIFF OMITTED] T3724A.038
    
    [GRAPHIC] [TIFF OMITTED] T3724A.039
    
    [GRAPHIC] [TIFF OMITTED] T3724A.040
    
    [GRAPHIC] [TIFF OMITTED] T3724A.041
    
    [GRAPHIC] [TIFF OMITTED] T3724A.042
    
    [GRAPHIC] [TIFF OMITTED] T3724A.043
    
    [GRAPHIC] [TIFF OMITTED] T3724A.044
    
    [GRAPHIC] [TIFF OMITTED] T3724A.045
    
    [GRAPHIC] [TIFF OMITTED] T3724A.046
    
                    Admiral Bowman's Opening Remarks

    Admiral Bowman. Mr. Chairman and distinguished committee 
members, thank you for the opportunity to testify today.
    Mr. Chairman, as we discussed in your office just a few 
weeks ago, Admiral Hyman Rickover organized the Naval Reactors 
program in the late 1940s. His visionary concept was cradle-to-
grave responsibility for all aspects of maintaining and 
operating the Navy's nuclear-powered fleet, managed centrally 
by a single purpose and central purpose organization with clear 
lines of authority, responsibility and accountability, and 
also, a clear statement of the mission that General Gordon 
correctly said is so important to these organizations. Naval 
Reactors' basic structures, policies and practices were 
preserved in an Executive Order signed into place by President 
Reagan upon Admiral Rickover's retirement in 1982. The key to 
Naval Reactors' operational excellence and unsurpassed record 
of safety has been adherence to the tenets of this Executive 
Order. Congress has fully supported this concept by writing the 
Executive Order into law in two defense authorization acts. As 
a result, I believe our country has benefited.
    In so doing, Congress has placed faith in this program and 
protected the core values that have been the hallmark of our 
success for more than 50 years and the enabler for continued 
success into the future. I appreciate that faith. The core 
values of Naval Reactors must be preserved. I am committed to 
operational excellence and an unsurpassable record of 
innovation and safety. We must continue to design and develop 
and deliver the world's finest warships for our Navy and for 
our country. I do not take lightly my responsibility to 
continually revalidate the faith that the Congress has placed 
in us.
    We all recognize that the threats to our country today are 
not the ones we faced yesterday. How to protect our Nation's 
interests, and what forces are needed for our defense, and how 
we respond to those threats are among the most pressing and 
important issues faced by the leaders of this country today. 
Just as the Nation's defense environment and requirements have 
evolved, Naval Reactors has evolved to deliver what is demanded 
of it.


                         FY2002 BUDGET REQUEST


    Let me quickly recount some facts about our program and 
about the fiscal year 2002 DOE budget request.
    This year's budget request, DOE budget request, remains 
flat at $688 million from fiscal year 2001 to fiscal year 2002. 
Therefore, in real dollars, it is decreasing by about $18 
million due to inflation. To put my budget in perspective, it 
is less than 4 percent of the DOE budget and less than 1 
percent of this country's defense budget. I think that the 
returns over time have said that this is a very solid 
investment.
    Today, the Naval Reactors program supports 102 reactors in 
55 attack submarines, 18 ballistic missile submarines, 9 
nuclear-powered aircraft carriers, and 4 training and prototype 
platforms, along with a deep submergence vehicle. We have one 
fewer attack submarine today then we had just a year ago, and 
the force number could drop even lower if we don't take action 
quickly.


                         NAVAL REACTORS MISSION


    Our number one priority in the Naval Reactors program is 
supporting the nuclear-powered fleet and ensuring its safe and 
effective operation. The average age of my ships today is 16 
years. The average age will be over 22 years by the end of this 
decade. As these ships age, they place a greater and greater 
demand on Naval Reactors' DOE budgets.
    The nuclear Navy is being employed at an unparalleled and 
unprecedented and unrelenting pace today. For example, the 
national level intelligence/surveillance/reconnaissance mission 
requirements for our attack submarines have nearly doubled over 
the past decade, while the number of those submarines to 
accomplish that mission have been cut nearly in half. Our 
carriers are likewise stretched to their limits, attempting to 
meet all of the power projection requirements and forward-
presence requirements around the world placed on them. Every 
one of our last 11 carrier battle groups to deploy engaged in 
actual combat.
    To meet just the top priority requirements being placed on 
the submarine fleet, I feel we must refuel the 5 remaining Los 
Angeles class submarines scheduled for early inactivation and 
seriously consider converting Trident submarines that are 
coming out of the strategic inventory to Tomahawk shooting 
SSGNs. These ships could carry as many Tomahawk missiles as an 
entire battle group does today. We must also increase the build 
rate of the Virginia class submarines. But even doing all of 
this, we are still short of attack submarines and very short of 
the requirement that has been specified.
    Fortunately, our technological superiority is allowing us 
to stretch the assets we have to fill some of this gap. For 
example, we have extended the life of selected submarines and 
we are looking to extend the life of some others still. 
However, pushing these limits comes at a cost. Life extension 
exacerbates the aging fleet problem, and as the fleet ages, it 
does take more resources to watch over it.
    Navy is also forward-basing 3 submarines in Guam to get 
them closer to their operational areas, eliminating the long 
transit from the West Coast to the Pacific Rim and greatly 
increasing the mission days on station available from these 3 
ships.
    We are designing better, more cost-effective ships for the 
future. When the navy's new Virginia attack class submarine is 
delivered in 2004, it will provide needed capability for the 
21st century at an affordable price. The reactor plant design, 
which will be about 96 percent complete by the end of this 
fiscal year, will use advanced component and systems 
technology, including a life-of-the-ship reactor core, which 
will make future refuelings unnecessary.


                            NEW CVNX DESIGN


    The nuclear propulsion plant design of the new CVNX, or the 
carrier of the 21 century, is well under way. That CVNX reactor 
plant will provide 25 percent more energy than today's Nimitz 
class aircraft carriers and will have more than triple the 
electric power available to the skipper, on demand, but will 
require just half the number of sailors to operate the reactor 
plant. We are designing and developing the CVNX nuclear 
propulsion plant without an increase in our DOE budget request.
    We are focused on designing and delivering warships to the 
fleet that are more capable, more adaptable to technology 
insertion, more enduring, and more affordable. To do so, my 
program will continue to need the highly qualified and skilled 
professionals that we have enjoyed to date. To that end, I was 
particularly pleased with Senate bill S. 242 that supports 
nuclear programs in our Nation's universities. This bill 
encourages investment in our universities that promote 
education and training in the nuclear field. Our laboratories 
and vendor bases draw to some extent upon this shrinking pool 
of uniquely skilled individuals.
    Where science leaves off, we are employing smart business 
strategies to get more out of every dollar, as General Gordon 
said. Multiyear contracts, block-buys, advance appropriations, 
shipyard teaming, are just a few of the examples of what we are 
studying. I strongly advocate these types of initiatives, 
because they use the taxpayers' dollars more efficiently.
    The nuclear Navy is a true crown jewel in our Nation's 
defense arsenal. No other Nation has our level of capability. 
This is due, in large part, to the wisdom of Congress and this 
committee in particular. You have consistently supported the 
program and its endeavors. Naval Reactors' record is strong, 
the work is important, and the funding request is modest. I 
offer you my thanks and gratitude.
    Mr. Chairman, with your permission, I will submit a longer 
written statement for the record that contains the DOE budget 
request and details, along with the program's annual 
environmental and occupational exposure reports.
    [The statement of Admiral Bowman follows:]
    [GRAPHIC] [TIFF OMITTED] T3724A.047
    
    [GRAPHIC] [TIFF OMITTED] T3724A.048
    
    [GRAPHIC] [TIFF OMITTED] T3724A.049
    
    [GRAPHIC] [TIFF OMITTED] T3724A.050
    
    [GRAPHIC] [TIFF OMITTED] T3724A.051
    
    [GRAPHIC] [TIFF OMITTED] T3724A.052
    
    [GRAPHIC] [TIFF OMITTED] T3724A.053
    
    [GRAPHIC] [TIFF OMITTED] T3724A.054
    
    [GRAPHIC] [TIFF OMITTED] T3724A.055
    
                          CONCERNS ABOUT NNSA


    Mr. Callahan. Thank you very much.
    Let me just make some observations here to all of you. I am 
totally disadvantaged because of your knowledge of these issues 
and of your professionalism. My staff is very familiar, based 
upon what they expressed to me, but I will almost have to 
apologize for knowing technically little about what you do. I 
have tried to review it over the past couple of months and met 
with you, and I am impressed with what I have seen, Admiral, 
with your operation.
    General, with respect to NNSA, you know I am hearing some 
things that it is fairly difficult for me to comprehend about 
the efficiency of your operation. Certainly the exposure to the 
press that the Los Alamos incident created in the past year or 
so has caused all of us to have some reservations about 
security. The renewal of the contract by Secretary Richardson 
with the University of California, to us novices it appeared 
that that was a mistake, that we should have looked at it in a 
little bit more depth rather than just to have a lame duck 
administration extend such a costly contract to the taxpayers 
of the United States. Maybe it is all absolutely needed. Maybe 
none of the money is wasted. But frankly, we haven't had any 
answers to the Los Alamos thing, other than what we have read 
in the paper. We don't know what was on the tapes or how they 
were able to be removed, if they were removed. We don't know 
anything but the press' observation of what is going on.
    Yet, you come to us with a request for billions of dollars. 
I know you are backed up by Senator Domenici, who has an in-
depth knowledge, a technical knowledge of what you all do and 
how you do it. I know he knows where you do it because of his 
interest in New Mexico. But I just have to almost apologize to 
you for not having had the time or the capacity to totally 
understand what you do. It is my understanding that you have 
informed some that the, I guess, $5.3 billion is insufficient 
and that you need more. That is a lot of money.
    I have had the opportunity, Admiral, to be aboard the 
Nimitz and to see the capacity of a nuclear aircraft carrier 
and the professionalism that the Navy uses in keeping those 
ships going, but technically I don't know how long the usage 
capacity of the reactor core could last. I was told when I was 
there that it would last 40 years on the Nimitz. I don't know 
if that is right or wrong, but if it needs to be replaced, it 
needs to be replaced, and if the new methodologies will 
eliminate the necessity to refuel it any time during its life-
span, that would be great.
    But your numbers are astonishingly high. Maybe they are 
astonishingly low. I just don't know. I can't fathom how you 
can at any facility spend the balances of dollars you are 
spending in an efficient manner. But then again, I have not 
visited a single operation of yours, and so I am disadvantaged. 
Maybe it is absolutely necessary. I know that the mission is 
absolutely necessary, and I am totally supportive of it. And if 
it costs $10 billion, then I would be supportive of it, if that 
is what it would take. However, I have no way of knowing, 
absolutely no way of knowing whether or not your requests are 
justified, whether or not the money is being spent wisely. I 
just have no way to comprehend whether or not it is factual or 
not. It is a lot of money. There have been a lot of indications 
given to me that the programs have not necessarily been 
successful. Maybe that is not your fault, maybe that is the 
fault of the system. But it is a complicated issue that I am 
disadvantaged by.
    So I apologize to you--I know what your mission is, but I 
am talking about for the fiscal year 2002 and for the monies 
that are requesting as to whether or not they are justified. I 
have no idea, except based upon what you tell me. I am sure 
that during the next 6 months or so, we will have the 
opportunity to look further into it. But frankly, your image is 
somewhat tarnished because of the Los Alamos situation, further 
tarnished, in my mind, because of Secretary Richardson's 
insistence that that contract with the University of California 
be renewed without being competed. Maybe that is absolutely 
necessary. Maybe he did the right thing. I don't know.
    In any event, I am sure that my colleagues, who have paid 
attention to this committee in the past, and who have some 
interests, such as Congressman Wamp, because he has activities 
under your jurisdiction in his district, and we will work with 
you. We are going to ask some questions as we go through this 
process, and we are going to try to determine some degree of 
accountability other than just an opening statement saying you 
are doing a good job and that you need more money, and that 
increases that you have indicated are really insufficient to 
keep the program in full competition, and then we get to 
another question: what is competition?
    I know that the Russians don't have this type of money to 
continue their program. I don't know what Russia is spending on 
their nuclear programs. I don't know how many nuclear 
submarines the Russians have. I don't know what their capacity 
is. I don't know what their reserves are. But I am sure as we 
go through the process, I will learn more. I support your 
mission, but at the same time we have a responsibility and we 
can't, just because you say you need it and just because you 
say that problems that have surfaced have been corrected or 
missions are underway to correct them.
    So some time in the next 2 or 3 months, maybe I will have 
the opportunity to delve further into what you are doing and to 
learn more about what you are doing. But at this point, I want 
to apologize. I don't know of any individual that could just 
walk into a situation like this and say, well, I read a book 
last night and therefore, I understand what you are doing. But 
in any event, we are blessed that we have good, talented staff, 
and we are blessed that we have good, talented Democrats and 
Republicans on this committee.
    So at this time I will yield to my ranking Democrat so he 
can impress you with his knowledge.
    General Gordon. Mr. Chairman, may I respond momentarily, 
briefly to your comments?
    Mr. Callahan. Certainly.
    General Gordon. Mr. Chairman, I would first off like to 
tell you that we will spend whatever time that you would like 
and go into any of these issues in any detail that is 
appropriate. That should be a given. We will operate that way 
consistently and entirely. To the extent you have some time, I 
would be delighted if you could visit one or more of these 
facilities and see some of the people that are trying to do the 
work and make some judgments for yourself about what we are 
talking about here.


                             INFRASTRUCTURE


    With respect to the funding issues, let me just tell you 
that we inherited a system that had been operated for 8 or 10 
years at some degree of underfunding and certainly, some degree 
of inefficiency, no doubt about that. The result of that, 
though, is a system that had not been well run, not well 
managed and had not been well-resourced. The second thing is, 
we had gone through a period of time where the country didn't 
really know what it was trying to do with respect to some of 
these weapons. I would tell you we have only begun to turn the 
corner on some of those points. But we began the program, the 
previous administration began the program aggressively trying 
to do things in science that have never been done before at the 
scientific level. They invested somewhat limited resources in 
that area. And, in doing so, they failed to have the resources 
available to go into the infrastructure. That is probably the 
biggest single increase in some of the funds we are talking 
about. Somewhere along the line we have to reverse this course 
of facilities that are falling down and are dangerous to 
operate in, and there have been enough years of neglect that 
that is no longer a small business.
    Secondly, again, where the money was spent and where the 
priorities were placed and in concert with the Defense 
Department was in developing the science side of it, not in 
supporting weapon rebuild or reconstruction. That was delayed 
simply because we didn't know what needed to be done. The 
weapons are now 17 years old. And we are now, through the 
science-based programs, finding the number of problems that 
need to be corrected in the stockpile. Those kinds of dollars 
for that work were not in the original request. That is the 
basis of, at the very highest level of why we are suggesting 
some increases are warranted. But having said that, Mr. 
Chairman, we would be glad to go into any of those programs 
into detail.
    Mr. Callahan. I appreciate that.
    Admiral Bowman. Mr. Chairman, would you take one other 
note, please?
    Mr. Callahan. Yes, sir.


                             NAVAL REACTORS


    Admiral Bowman. One of the dangers in having three separate 
organizations represented under one umbrella organization, the 
NNSA, is that we sometimes get confused with the budget request 
and the various programs. Sir, again, my program, the Naval 
Reactors program, as we discussed in your office, has been a 
semi-autonomous agency since really 1982, and even before that 
under Admiral Rickover, but by Executive Order and then by law 
since 1984. The Naval Reactors program budget request is down 
$18 million in real terms from last year, and more importantly, 
is down 30 percent over the course of this decade, during a 
time that most people familiar with the naval nuclear 
propulsion warship aspect of the NNSA would expect the budget 
request to have risen, because the ships are aging, as I 
indicated in my statement. So one would expect the requirements 
to go up because it is harder to keep safe this unforgiving 
nuclear reactor technology on 102 nuclear reactors.
    As General Gordon said, if you contrast this program to the 
Nuclear Regulatory Commission's oversight of 103 commercial 
reactors, I think you will find that our request is a bargain 
and our program is run fairly leanly. So I just wanted to make 
clear that our request is down 30 percent over the decade, it 
is flat from last year's numbers.
    Mr. Callahan. I think, Admiral, I expressed and echoed what 
General Gordon indicated about the operation of your segment of 
this.
    Admiral Bowman. Yes, sir.
    Mr. Callahan. And yours is easier to understand than all of 
the research. The research aspect of NNSA is very difficult to 
comprehend. But you all are military people. You have a very 
clear indication of where you want to go and why you want to be 
there and where you are now.
    Admiral Bowman. Yes, sir.
    Mr. Callahan. So yours is a little bit easier to 
comprehend. But when you get into the research, and you have 
universities spending billions and billions of dollars of 
taypayers' monies, and then when they are seriously questioned, 
you redo the contract for 5 years, and I know that this is not 
something that you all did, but Secretary Richardson did it, 
there is room for question there.
    So I am not questioning NNSA, I am not questioning anybody. 
Yours is easier to understand from a novice's point of view, 
because you have clear missions and clear physical results and 
operations that we can comprehend.
    But comprehending this other side, and when you get into 
nuclear warheads, into the manufacture of this and the 
transition of uranium and plutonium, and then all of the 
computerized testing that now you are doing, that to someone 
not schooled in physics, as you all obviously are, it is very 
difficult to comprehend.
    Mr. Visclosky.


                           INACTIVE WARHEADS


    Mr. Visclosky. Thank you, Mr. Chairman.
    General Gordon, the Department of Energy provided us with a 
breakdown of the number of active and inactive warheads and the 
document is dated February 5 of 2001.
    [Deleted.] Then in your statement, you mention the 
disassembly of the W79 artillery fired atomic projectile and 
that will be completed by 2003, and the disassembly of the W56 
Minuteman II warhead, and that will be completed by 2005.
    Neither of those warheads, if I am correct, show up on this 
chart. Is there a reason for that?
    General Gordon. That is correct, Mr. Visclosky. What we are 
showing on the chart are active and inactive, and at least in 
principle, the inactive could be brought back into service if 
required. The W79 and the W56 have been committed for 
dismantlement, so they are not maintained on that chart.
    Mr. Visclosky. Would there be any other warheads that are 
committed to disassembly that would not be listed or are not 
mentioned in your testimony?
    General Gioconda. B53. We took that out of the inventory 
when we brought the B61 Mod II version, you will see it on your 
chart there, we brought that into the inventory.
    Mr. Visclosky. That is B as in ``boy'' 53?
    General Gioconda. Yes, sir.
    Mr. Visclosky. That would be the third and that would be 
the only other one not represented on the chart.
    General Gioconda. Yes, sir. There is no instruction to 
retire, to start the dismantlement of that weapon at this time.
    Mr. Visclosky. General, in your comments just now, you said 
in principle the inactive could be brought back into service. 
Do you think that that is likely?
    [Deleted.]
    I guess my fundamental question, and I could go down each 
one of these, is at some point as the decision has been made to 
dismantle these other three warheads, are considerations under 
strategic review being made as to the dismantling of some of 
these inactives?
    General Gordon. I think that will clearly be part of the 
review that is under way now, of how to proceed and how big and 
what the status is of the inactive force--at what level the 
inactive force should be maintained.
    Mr. Visclosky. Do you know if it is part of the review?
    General Gordon. It is part of the review.
    Mr. Visclosky. It is part of the review.
    [Deleted.]
    General Gordon. The marginal cost is on the order of $20 
million to $40 million a year.
    Mr. Visclosky. Total?
    General Gordon. Yes, sir.
    [Deleted.] We don't do significant maintenance on those.
    Mr. Visclosky. [Deleted.]
    General Gordon. There is additional expense in terms of 
surveillance that we do on those weapons that falls into that 
dollar cost. We will give you for the record a more full 
breakdown on that.
    Mr. Visclosky. I appreciate that.
    General Gordon. But the point is, sir, the marginal cost of 
maintaining that stockpile is on the order of $20 million to 
$40 million on an annual basis.
    Mr. Visclosky. Out of your budget?
    General Gordon. Yes, sir.
    Mr. Visclosky. Okay. Because I am on the DOD subcommittee 
as well.
    General Gordon. And then there is whatever the storage cost 
might be at the other end.
    Mr. Visclosky. You have refurbishment programs that have 
been proposed for the cruisers, the bombers and the Tridents. 
Is that upgrade, would that be applicable to the inactive 
warheads as well?
    General Gordon. I think in the initial plans we would not 
do that for the inactive warheads.
    [Deleted.]
    Mr. Visclosky. [Deleted.]
    General Gioconda. [Deleted.]
    General Gordon. Sorry. Nine.
    Mr. Visclosky. Okay.
    General Gioconda. Sir, we have agreement, since there are 
so few on the W87, we are going to do them all. The other 
weapons in the inactive, we have not committed to them because 
what we have developed is a block concept where we are moving 
forward in blocks in hopes that either arms control or 
strategic review will determine the status and what we are 
going to keep in the inactive. So we are studying what level of 
readiness, if you will, that we are going to maintain the 
inactive or move some of those inactives to the retirement 
rolls.
    Mr. Visclosky. So my understanding is that as of today, 
under the strategic review, consideration is given as to what 
the disposition or retention should be of the inactives, and 
that as far as your plans on the refurbishment programs, the 
only inactives that would be refurbished would be the W87s?


                            STRATEGIC REVIEW


    General Gioconda. Sir, we also not only did a strategic 
review, that is kind of a broader concept, it will also be 
considered in the Nuclear Posture Review that is also supposed 
to continue later this year and go into the exact detail of 
that. A strategic review of the concept and then the nuclear 
posture review will work the actual details and numbers of 
specifics that you are addressing. So when you say strategic 
review, we mean all the strategic reviews that are going on, to 
include the nuclear.
    Mr. Visclosky. [Deleted.]
    [Deleted.] We are never going to use these warheads, are we 
better off dismantling or disassembling them?
    I might also ask, and it will be for the record, what the 
cost of disassembly would be.


                         INACTIVE WARHEAD COSTS


    General Gordon. I would like to add just a general comment 
to that, sir, and that is the associated cost both dollar and 
opportunity costs as these systems go through fundamentally the 
same process that the systems go through when built. They will 
require the infrastructure for dismantlements. It has to fit 
into the overall structure and when you dismantle something, 
you are obviously not building or refurbishing something else.


                           LOW YIELD WEAPONS


    Mr. Visclosky. Mr. Chairman, if I could pursue one or more 
line of questioning. There are press reports that the 
administration is studying whether to develop a new low-yield 
nuclear weapon that would have earth-penetrating capability. 
Are any monies included in your budget for that type of 
research or development?
    General Gordon. Nothing is included explicitly with that in 
mind. We have done work, as you well know, in developing the 
B61 Mod II which is in the inventory, which has some 
capabilities in that area, and we are awaiting the strategic 
reviews to see if we will be requested to look at any other 
additional capabilities.
    Mr. Visclosky. You said they are not implicitly included in 
the budget. What do you mean by that?
    General Gordon. What did I say?
    Mr. Visclosky. You said they are not implicitly included, I 
heard the word ``included,'' as modified.
    General Gordon. I worry a lot about the capability of our 
people to be able to design anything new that they are asked to 
do. We are doing very little of that right now, virtually none 
of that right now. Our designers are working almost 
exclusively, if not exclusively, on the programs that lead up 
to the refurbishments and the surveillance programs that we are 
doing as part of stewardship. There are obviously discussions 
under way with DOD and individuals within the Department and 
within the laboratories who provide information on how that 
would come out, but there is no work that you would call an 
organized design program or funds allocated to it.
    Mr. Visclosky. I guess my concern at this point from a 
budgetary standpoint is that it is fine to determine a new 
capability that someone would want, but then to balance that 
off as far as what the budget constraints are that we have, and 
also the possibility of use. You know, you had the problem with 
the Aegis ship and you also had the problem of the bombing of 
the Chinese embassy, and I am wondering what the probability is 
that a nuclear projectile would be used in anger by this 
country to have deep penetration, because we haven't used such 
a weapon, to my knowledge, in 57 years.
    General Gordon. I don't think I am the one that is 
qualified to answer that, with all due respect. I think it is a 
DOD issue about how something might be used and would or might 
be thought about being used. Our job would be primarily to 
respond to requirements that were developed by the Department 
of Defense in that regard. I am not sure I understand the 
relationship to the Aegis or to----
    Mr. Visclosky. I am just saying accidents happen as far as 
the use of weaponry. If you are going to use a nuclear weapon 
and you have a big accident, you have a horrific problem on 
your hands.
    Would the development of such a weapon require live fire 
testing?
    General Gordon. Live fire meaning?
    Mr. Visclosky. Would you have to test it as opposed to 
using simulation?
    General Gordon. Let me just give you a broad answer on any 
new weapon. There is a series of approaches that can be made. 
If it is a modification to an existing design, a simple 
modification to an existing design, it would not be likely to 
require testing.
    [Deleted.] If it is an existing weapon, that could be done 
without nuclear testing.
    There are some designs that are off the shelf that were 
tested well enough when testing was permitted, that one could, 
with significant confidence, design a weapon that did not 
require testing.
    If it were a totally new design with new features and new 
physics and new ideas, it would be very difficult, much more 
difficult to consider being able to do that without a nuclear 
test.
    Mr. Visclosky. Let me just say that if monies begin to be 
used expressly for the development of such a weapon, if you 
could notify the committee, I would appreciate that very much.
    General Gordon. Yes, sir. The way that it would always work 
is that it would go through the process of a Nuclear Weapons 
Council, that if there was anything that moved into the area of 
development would be an explicitly agreed to decision by DOE 
and DOD, and we would make that available well in advance.
    Mr. Visclosky. Thank you.
    Thank you, Mr. Chairman.
    Mr. Callahan. Thank you. Also, all of our members will have 
at least a day or so to submit questions to you all. I have 70 
questions of my own. I am not going to ask them all today, but 
this is part of my educational process that hopefully will 
allow me to at least begin to understand the complexity of your 
operations.
    Mr. Wamp was here first, Mr. Frelinghuysen, and since he 
has a facility in his district, we will let him go first.


                             INFRASTRUCTURE


    Mr. Wamp. Thank you, Mr. Chairman.
    I welcome you all. I have worked with you all. Admiral 
Bowman, however, is from my hometown, so I especially welcome 
you. Good to see you, sir.
    Mr. Chairman, I too have been amazed in the last 10 years, 
as I have studied these issues, the influence that political 
seniority and clout has, not just on bridges and roads and 
highways in this country, but even nuclear facilities. So also 
knowing your penchant for good humor, Mr. Chairman, I will tell 
you a story which is folklore in Tennessee, but there is a lot 
of truth to the story. The story is from the early 1940s when 
President Roosevelt literally called in the chairman of the 
Senate Appropriations Committee, Senator McKellar of Tennessee 
and said, Mr. Chairman, we have to hide a significant sum of 
money in the appropriations bill to pay for a facility to make 
nuclear weapons, because we have now a real crisis in the Pearl 
Harbor era. We have to be able to hide this money through the 
appropriations process, and I just want to know if you can do 
that for us. And Senator McKellar said to the President, ``Of 
course we can, Mr. President, where in Tennessee would you like 
this built?'' And that gave rise to Oak Ridge being a part of 
the Manhattan Project, and we still have one very instrumental 
piece of the whole weapons production activities at the Y-12 
plant in Oak Ridge. The Y-12 plant, General Gordon has called 
it the poster child for deterioration of the weapons complex 
and Senator Domenici even, from New Mexico, said that it is 
clearly the worst example of aging infrastructure.
    All I want to say is NNSA was formed in a bipartisan way 
here really in the House as a solution to the mismanagement by 
the Department of Energy of this critical national mission of 
nuclear weapons. It is still in its formative stage, so the 
jury is out. However, these men that sit before us here today 
certainly have answered the call of duty since they were asked 
to step in and officially handle this area. I have more 
confidence in this as a DOE subagency today than I have over 
the last 6 years, no question about it. NNSA is a step in the 
right direction, but we face significant challenges.
    I believe that Secretary Rumsfeld's review of our entire 
national preparedness for national defense systems at every 
level will include a significant direction for how much of a 
priority is the weapons stockpile and stewardship; are we going 
to maintain this level of nuclear preparedness and if so, why, 
and what is necessary in order to keep that and maintain that 
in an adequate capacity.
    Nuclear weapons are like the genie in the bottle. The genie 
in the bottle, you get it out of the bottle, and you can't get 
it back in. Once you have nuclear weapons and they are on the 
world stage, you really can't retreat from that, because it is 
a permanent thing. So we are going to have to maintain a 
stockpile and be prepared, and there are rogue nations with 
nuclear weapons and capabilities.
    So here we are today struggling through a time of peace and 
prosperity, trying to identify exactly what is the commitment, 
plus there is a legacy associated with it. Last year we had to 
find money to compensate workers that had become sick from 
their exposure to the materials making the nuclear weapons. So 
there are, in any conflict, even a Cold War conflict, there are 
casualties, personally and physically, and we now have 
casualties because these facilities are over 50 years old, many 
of them.
    When Secretary Abraham came yesterday and talked about his 
environmental budget not being as much as last year's request, 
one of the big dilemmas here is how do you take these 
antiquated facilities and decide which ones go to environmental 
cleanup and try to clean them up, dispose of them, and then how 
do you get the money to turn the old buildings into a more 
state of the art, modern facility, and we are in that 
transition right now. In the post Cold War era, we have to 
decide how much and why and then what are we willing to invest 
to take a new model.


                        STRATEGIC DEFENSE REVIEW


    That is why I believe Rumsfeld is absolutely right in 
saying that right now, we have to stop, reevaluate this, come 
up with a new road map for the next 40 years, like General 
Eisenhower did when he was President. We have not done a top-
to-bottom review with the Pentagon and our national military 
and what the goals are since Eisenhower was President. This 
Rumsfeld report is the first one since then.
    So I believe it is going to lead us to some direction as to 
what it is in NNSA to do and how much money is it going to 
require. This is the piece of DOE's activities that now there 
is kind of military leadership over, because it was either take 
this from DOE and give it to the military or come up with an 
agency that had the national security as its primary focus and 
our weapons stewardship.
    So I want to ask you gentlemen to comment on what can we 
expect from Rumsfeld's report? How is it going to be integrated 
into your program--particularly on the modernization? You know, 
the weapons activity I expect to be maintained at about the 
same level of stewardship that we currently have, you know, 
plus or minus, but then how will his report possibly lead us 
into a modernization proposal over the next several years from 
your perspective today that would allow these facilities to be 
modified, maybe downsized? We don't need as much as we had, but 
we need a new model so it is not so blasted expensive, and 
literally in Oak Ridge some of the buildings, their material is 
falling in, literally falling in. Now, granted, a lot of those 
buildings need to be torn down, but that is an expensive 
proposition too, especially if they ever had a process in those 
buildings that was radioactive. Then you have all of these 
incredible costs associated with turning them over from DP, 
Defense Programs, over to EM, which is Environmental 
Management. Therein lies our dilemma.
    Generals?


                             STOCKPILE SIZE


    General Gordon. We are working closely with Secretary 
Rumsfeld's people that are doing his studies and we would 
expect, within weeks, a fairly clear definition of the 
stockpile that they would expect to have both in the active and 
in the inactive perspectives, which would then be able to let 
us go back and recalibrate exactly what we would need to be 
able to maintain the force structure at the quality that it is 
today, or better, and just be able to go from that point on.
    What we need to know is how many weapons and roughly what 
type, and what cycle. We would then provide back into that, 
here is the status of the weapons, here is the quality, the 
aging that we are seeing now, what do we have to do to do that 
on a schedule. We have a pretty good idea about that now, but 
it will get some tweaking as these reviews come out and it will 
allow us to adjust our fund requests to meet that. We are 
involved in that. We meet with the people that are doing that 
on a regular basis and we will turn this analysis back.


                             INFRASTRUCTURE


    You are exactly right in the concept that we have a lot 
more floor space than we need in many, many places of the 
facility. In the post-Cold War environment we have already done 
quite a bit. We have gotten rid of entire plant facilities in 
this business, and we are no longer in places called Mound and 
Pinellas and Hanford and Rocky Flats. Places like Kansas City 
have something like, half the floor space that they had during 
the peak of all of this and 3,000 versus 8,000 employees. It 
escapes me at the moment the numbers at Y-12, but I think they 
are more dramatic than that. At Y-12 and Oak Ridge, perhaps as 
many as half of the buildings are unneeded in any format. And 
one of the things we are doing as we go through on the 
refurbishment programs of the buildings and the reengineering 
of the buildings is anything we build new, we are trying to 
take out at least as much floor space, if not twice as much 
floor space every time we do that.
    What we want to get out of that is a comprehensive 
facilities program that matches a comprehensive rebuild program 
to meet the stockpile that the Department of Defense will 
recommend and want, and that is a pretty straightforward 
process when we know what that is. It is not straightforward to 
get there. Again, we have let the facilities deteriorate to the 
point where it is going to be a struggle and there will be risk 
in all of our programs to meet the details because we have let 
the infrastructure get to its current state.


                      SUPPLEMENTAL BUDGET REQUEST


    Mr. Wamp. If General Gioconda doesn't have anything to add, 
I have just one other question. Do you anticipate following 
Rumsfeld's recommendations of any request from NNSA in a 
potential supplemental that may move for national security 
later this year?
    General Gordon. The Secretary's staff has included funding 
in the 050 account that would be focused in this area that 
would jump start the, primarily the facilities work and a 
little bit on the stockpile life extension program.
    Mr. Wamp. But your 2002 request is adequate, based on what 
you know today to meet the needs throughout the complex?
    General Gordon. The President's 2002 request, as I said in 
my opening statement, Mr. Wamp, the 2002 request in the 
President's budget will allow us to do a goodly number of 
things, including the refurbishment of two of the four systems 
that we have put on schedule. Until the requirements are 
resolved by the defense review, there is not adequate funding 
in the request to do all four of those, systems that we had 
otherwise planned. There is not adequate funds to begin the 
infrastructure program as we had suggested before the reviews 
began. So again, it is very much dependent upon the outcome of 
the reviews and how the requirements would develop from those 
reviews.
    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Callahan. Mr. Edwards.


                        NUCLEAR NONPROLIFERATION


    Mr. Edwards. Thank you, Mr. Chairman.
    Thank you all for your service to our country. I have a 
special appreciation for public servants who, if they do their 
jobs successfully, will not end up in the newspaper, because 
there will not be tragedies.
    We are all here because we like to make a positive 
difference for our districts and our country, and as I think 
about that, I don't think anything would haunt me more 10 or 20 
or 30 years from now after I have left public office than the 
thought that I might have missed an opportunity to make a small 
difference in the area of dealing with the nonproliferation of 
nuclear grade materials in Russia and didn't do it; [deleted].
    [Deleted.] So I take the issue--I share the chairman's 
humility in terms of the level of knowledge and the difficulty 
of trying to get a handle on these very complicated issues. But 
I would like to pursue the nonprofileration issue in several 
ways.
    First, if it is possible to give a yes or no answer, and in 
trying to respect the time limitations here, I would like to 
establish several facts to just see if I am in the ballpark in 
understanding the facts of the threat of nonproliferation.
    First, fact one, and I am using as a basis for this the 
Baker-Cutler report on Department of Energy's nonproliferation 
programs dealing with Russia.
    [Deleted.] Is that correct, or approximately correct, to 
your knowledge?
    General Gordon. I don't know the exact numbers, but modest 
amounts of uranium or plutonium could make a bomb of several 
kilotons which would have a devastating effect.
    Mr. Edwards. Okay.
    [Deleted.]
    General Gordon. At least in the ballpark.


                          BAKER-CUTLER REPORT


    Mr. Edwards. [Deleted.]
    The observation I would like to apply then to those first 
two facts is the statement from the 9-month report that was a 
bipartisan report chaired by former Senator Howard Baker, it 
says, ``Russia today wrestles''--and I would like to ask you if 
you disagree in general with anything in these statements. 
``Russia today wrestles with a weakened ability to protect and 
secure its Cold War legacy. A number of factors have come 
together to present an immediate risk, an immediate risk of 
theft of potential weapons of mass destruction. Delays and 
payments to guards at nuclear facilities, breakdown in command 
structures, including units to control weapons or guard weapons 
usable material and inadequate budgets for protection of 
stockpiles.'' They go on to say, ``Many of the Russian nuclear 
sites remain vulnerable to insiders determined to steal enough 
existing material to make several nuclear weapons and to 
transport these materials to Iran, Iraq or Afghanistan. The 
task force was advised that buyers from Iraq, Iran and other 
countries have actively sought nuclear weapons usable material 
from Russian sites.''
    Anything in that statement from this report that you would 
strongly disagree with, or would you generally concur with the 
observations or conclusions I just read?
    General Gordon. I may not have said it as dramatically as 
that, but the thrust of the issue is there. There is 
significant material and there is risk that the materials and 
the weapons are not as secure as they are in this country.
    Mr. Edwards. Okay. Thank you. I would then go on to point 
out that the task force says that it compliments DOE for its 
work, saying that given the resources you had, you have done 
excellent work, and I commend you for that. But this also says 
the task force believes that the existing scope and management 
of the U.S. programs addressing this threat leave an 
unacceptable risk of failure and potential for catastrophic 
consequences. They then go to suggest that we spend $30 billion 
over the next 10 years, [deleted].
    My question to you would be this: before OMB sent a 
directive to the Department of Energy recently saying that we 
want to have reductions in spending for nonproliferation 
programs, did either--General Gordon or Mr. Baker--of you two 
initiate any suggestion that we should cut programs to the 
magnitude of $100 million or more?
    General Gordon. Based on the work we had done and were 
looking to do, we had recommended a number greater than we had 
had before. The result of that is, though, that the 
administration is now conducting a full review of these 
programs.
    Mr. Edwards. So you actually recommended, before getting 
the OMB directives, you had recommended that we spend increased 
dollars in the nonproliferation programs; is that correct?
    General Gordon. Based on the requirements that were levied 
upon us before the reviews began.


                           EMPLOYMENT IMPACTS


    Mr. Edwards. Okay. Final question, if I could ask, if you 
could say quickly orally and if you could add to that in 
writing, I would appreciate it. I understand that part of the 
justification for this reduction--I think we all know what 
happened. We all have in the real world. Democrats had to deal 
with this, with cuts we didn't like in the previous 
administration. But OMB sends over a directive, you have to 
respond to it. But all of a sudden, we hear this rationale that 
we want to do a review and that is why we are recommending 
cuts. But I understand that just in the nonproliferation R&D 
budget, if we don't add to the administration request, there 
will be 151 employees laid off or reassigned out of that 
important area that this bipartisan task force said needs far 
more resources, not less.
    Could you please send to the chairman a list based on the 
proposed budget of how many people in the other areas of your 
nonproliferation budgets would be laid off, people that we may 
not be able to get back, expertise that we may not be able to 
find again, or bring back, if we don't do something to increase 
the proposed budget?
    General Gordon. It is not obvious that they would all be 
laid off, because we could provide other jobs for the interim 
period of time.
    Mr. Edwards. They could be laid off or reassigned outside 
the nonproliferation areas.
    General Gordon. We will provide that information.
    Mr. Edwards. I hope we do at the end of the day work 
together on a bipartisan basis to perhaps find increases in 
what I think is this vital area. Thank you, Mr. Chairman.
    Mr. Callahan. Mr. Doolittle.
    Mr. Doolittle. No questions, Mr. Chairman.
    Mr. Callahan. Mr. Frelinghuysen.


                     SECURITY AT THE NATIONAL LABS


    Mr. Frelinghuysen. Thank you, Mr. Doolittle. Thank you, Mr. 
Chairman.
    I guess the questions are to Mr. Gordon or any of his 
colleagues. Apologies, Mr. Chairman, for being late. I was 
across the street in another hearing.
    At last report, many of my constituents are of the same 
opinion that some of our national labs continue to be 
vulnerable to spying and to various leaks. I know you are 
implementing, according to your testimony, the integrated 
safeguards and security management program, and you said in 
your testimony that while we are making steady progress, and I 
quote, ``The NNSA still has work to do to get security right. 
Our people must see that there is a value added in new and 
additional security requirements,'' et cetera, et cetera.
    We have stressed a concept of science and security, rather 
than science or security, and then it goes on to say, our 
scientists, engineers, technicians, our security and 
counterintelligence personnel must see themselves on the same 
team.
    My basic question is, do they? I mean I get the feeling 
that we are moving in the right direction. My point is, for 
most of our constituents, reading whatever papers they read, 
either on the East Coast or the West Coast, they might read 
their columnists, The New York Times, the L.A. Times, the last 
thing they knew about this is that there were some serious 
problems. They read of your appointment, but there still seem 
to be some unanswered questions out there.
    Is everybody aboard here, or are you still finding 
roadblocks? Are you still finding a culture that makes it 
difficult for you to accomplish your mission? We thank you for 
what you are doing, but I just wonder if you could give your 
honest appraisal.
    General Gordon. I think we are on the right track, and I 
think you suggested that in your comments. We are dealing with 
entrenched ideas and entrenched ways of doing business. We are 
dealing with some decisions that had been made earlier on how 
we thought about security, and we probably aggravated the 
problem in some ways by thinking we could solve it all from 
Washington with very specific rules about how one might change 
their safe combination or how often they should do it, and we 
took away some of the individuals' responsibility as we did 
that. The sort of corrective actions we initially applied 
pulled away some of the individual responsibility that we 
really need to put back into the system.
    So I think we are making good strides in that area. We have 
brought in--my head of security comes from Skip's organization, 
Rand Security, and Naval Reactors is working with the folks 
that are there. We are turning attitudes, and we are trying to 
get, again, the individual to take that responsibility for his 
actions, and convince them that this has to be done. It is in 
their interest and in the national interest, it is part of 
their job, it is not an augmentation of the job.
    What we need to do in the scientific culture though, is 
actually show them that there is value added to what we do and 
it is not an arbitrary rule that comes out of Washington and 
makes no difference.
    Mr. Frelinghuysen. Is this done on a regular basis?
    General Gordon. Continuing basis, in both security and 
counterintelligence. And every day, we try to take another 
step, every day we try to make it a bit better. I think it is 
better. I will never tell you in any place that I sit, no 
matter how good we are able to strengthen security, that there 
is no possibility of anything getting out. There is always a 
risk when we have this many people doing this many things. But 
we try to give them the right technology to do their job, the 
right picture on how to think about their job, the right tools 
to do the job, and to make it in a way that makes sense to them 
so that it is part of their business, it is part of how they do 
business, it is not something that they add on at the last 
minute, but that they really live it.


                             CYBER SECURITY


    Mr. Frelinghuysen. Two questions I suppose under the rubric 
of cyber security. Is it possible for employees at the national 
labs to transfer nuclear secrets from classified to 
unclassified computer networks and, secondly, what was the 
outcome of the investigation on the missing hard drives at Los 
Alamos?
    General Gordon. To the best of my knowledge, and I will 
give you a more considered answer for the record, the only way 
one could take classified information and put it on a 
classified system is to physically do it. It will not happen 
electronically. To physically make it happen, you would have to 
print it off and type it in or take it off some other media and 
physically move it as an insider threat might do.
    With respect to the hard drives, the missing hard drives at 
Los Alamos, there is a FBI report on it and I would encourage 
you to check with the FBI on the fundamental details of it.
    But the short answer is that they were not--they reported 
that to the best of their knowledge, no one outside of Los 
Alamos had access to or was involved in the issue, which is 
saying there is no espionage in anything that they were able to 
interpret in their investigations. The tape was lost, the tape 
was recovered, and they have no indications, despite a huge 
effort over many, many months of being able to find any 
indications that that tape or the data on it went outside of 
the environs of Los Alamos or the Los Alamos people. They were 
not able to assign culpability to any individual.
    Mr. Frelinghuysen. I just think the public's perception is 
important in this business, and I must say that there are a lot 
of constituents vigorously questioning me and perhaps some of 
my colleagues as to, you know, certainly what we have learned, 
but in reality, what was the final outcome relative to that 
issue. We come to these hearings hoping we get a greater level 
of confidence that we have got a lot of these issues under 
control. I know you are a no-nonsense person, so I suspect we 
do. But there is a huge, you know, work force out here of 
extremely talented and bright men and women, all of whom are 
excited about their work, want to share their work and things 
of that nature, and I just worry that at times we don't have it 
totally nailed down.


                         LOS ALAMOS HARD DRIVES


    General Gordon. This one is a bit troubling, because 
despite a huge investigative effort, they were not able to ever 
come to a final conclusion on it, other than the conclusion 
that it did not involve anyone outside of Los Alamos, which 
would then suggest the next step, that there is no espionage 
involved or otherwise loss of it outside. We can't bring it to 
final closure and tell you exactly what happened. They have 
been unable to tell you that despite lengthy and expensive 
investigation.
    I would comment, though, that we have learned from that and 
we are learning better how to handle the procedures. We have 
more and more people who understand that this is a really huge 
issue here, we handle the material differently, we account for 
it differently. It is stored differently. The access procedures 
to the area where the individuals are doing the work is 
significantly different.
    That is an example, sir, of how, though, we can do some 
things that don't make sense if we do it from Washington and 
don't bring the individual involved in. We ruled, we didn't 
legislate, we required that they make certain changes in their 
habits and how they proceeded. When we got down to the 
environment of where the hard drives were, it absolutely didn't 
make sense and, in some ways, may make security worse because 
we didn't use a systems approach to what we were trying to do 
and I think some of the steps we made actually made it worse. 
We showed individuals who had the custody of the material and 
the responsibility of the material that we didn't know what we 
were talking about either and we had to sit down and involve 
them to make things make sense. We were telling them they had 
to lock up their materials, their safes, their rooms and turn 
their computers off when they left their little cubby hole to 
talk to someone that they were mentoring, but it would take 20 
minutes to restore the material.
    There are other ways to do it. It is like making sure 
people who are not cleared are not on the floor. There are 
smarter ways to do that. We actually went down for a little bit 
and now we are bringing that back up.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Callahan. Mr. Latham.


                       RUSSIAN WEAPONS SCIENTISTS


    Mr. Latham. Thank you, Mr. Chairman.
    I would associate myself with Mr. Frelinghuysen's comments, 
and I guess I am still concerned about the culture within the 
Department and at the labs. I don't know how you can actually 
get through to people that there is--who are trained in the 
science part of it and are very involved with that, but to also 
make sure that they are as aware of the security portion. I 
still think that is a real concern. I think you covered it 
quite well.
    My only question would be on--everyone talks about uranium 
and everything being moved out of Russia. My concern would be 
having to do with the scientists themselves and with the 
economy in Russia the way it is and how well we are doing as 
far as maintaining that--keeping a lid, I guess, on that 
expertise from moving into rogue countries. Are we being 
successful, or is there still a drain going to other countries?
    General Gordon. There is both. We don't have a lot of 
evidence of the drain, but we worry a lot about the drain.
    [Deleted.] which put some formal charge to it as well. The 
programs that have been under way and were alluded to and 
discussed by Mr. Edwards were designed with that purpose in 
mind, was to offer to the--to many of the scientists other 
opportunities that are commercial to apply at least some of 
their scientific expertise in that area and to move out of that 
system to the, what we call the IPP program, to find creative 
business opportunities for these individuals, and the programs 
to actually try to reduce the footprint of the nuclear 
enterprise.
    I would associate myself with the Baker-Cutler report in 
that regard, that those programs were reasonably successful as 
far as they went, but there is probably more to do out there.
    Mr. Latham. Thank you, Mr. Chairman.


                         STOCKPILE STEWARDSHIP


    Mr. Callahan. General, my background in the real world has 
been in corporate America, not the government, and having had 
the opportunity to serve on some rather substantial-sized 
boards and as CEO of one of those companies, I would have hated 
to had to explain this program to my stockholders. The failures 
that are so apparent with my limited background into your arena 
are astonishing to me, when you look at the billions of dollars 
we have spent on programs that have not succeeded, and yet we 
continue to spend billions of dollars and just prolong the 
agony, prolong the completion date of these projects, is just 
astonishing to the outside world. But I realize, we are not 
dealing with the outside world. We are not in the private 
sector. We are in a situation that involves our national 
defense, our national security. We are in a situation that 
involves our national defense, our national security. We are in 
a worldwide race to maintain superiority militarily, to protect 
the world against tyrants, and I support all of that. But it is 
so far from what people can comprehend when you have the 
massive failures that you have.
    I don't mean that this is your fault, General. It didn't 
happen under your watch, most of it. But when you look at the 
stockpile stewardship program, costs continue to escalate. 
There has really not been any evidence or any evidence has not 
been submitted to me of hardly any success at all, and yet we 
are still--we come from an original 10-year program with an 
annual cost of $4 billion to an annual cost now you indicate of 
about $6 billion. Five years since the program was initiated, 
and it is still promoting the same program, the same projects 
and same facilities and project delays. There have been no new 
approaches identified, no modifications to facilities proposed 
10 years ago. Are we on the right track there, or is it time 
for this board of directors, with you, the management, in the 
real world to reassess our position on the stockpile 
stewardship program? I mean what should we do? Continue to pump 
money in there, or should we stop and start all over again to 
accomplish our mission?


                       NATIONAL IGNITION FACILITY


    General Gordon. Mr. Chairman, I have to, with all respect, 
I have to take some exception to say that there has been no 
successes in this area. I would argue that the stockpile 
stewardship program with the scientific basis has been 
successful in many areas and many of the goals have been met or 
many of the challenges have been attacked in a very forthright 
manner. There are two issues that are very important. One is, I 
will not argue with you at all, that the management of the 
program in the past could have been done significantly better, 
and for a Secretary to go up and go public one day and argue 
that he has a program that is on schedule, on cost, and 2 or 3 
weeks later find out there is a $1 billion overrun, that is a 
pretty tough situation to put anybody in.
    What we have done is take each of those situations and 
tried to turn them around by bringing new management in and 
restoring the management to those areas. The particular issue I 
am talking about of course is the National Ignition Facility. 
It was a rocky start, to put it mildly. But what has been done 
over the last period of time is to put that back on a 
management footing where we know somebody is in charge with the 
authority to do the work and trying to use the funds that are 
balanced out in that area. We have been leading the world in 
the computer business and all the requirements that have been 
levied and looking at how big the computers ought to be, how 
fast they ought to be, continue to be proven on a regular 
basis, it is being applied ever day in the stockpile 
stewardship program.


                    BUDGET FOR STOCKPILE STEWARDSHIP


    The stockpile program as a whole would, when we talked 
about the $4.0, $4.5 billion early on, didn't conceive at that 
budget level the price that it would cost to actually fix the 
weapons when you found problems. We have taken these weapons 
apart, we have surveilled them, we used many of the new tools 
that have been developed. With that we now know what the 
problems with these old weapons are, found problems of aging, 
found problems of birth defects, if you will, of problems that 
have been there all along that probably would not have been 
found had we not developed some of these tools or had we not 
been as aggressive as we have been in the stockpile program.
    [Deleted.] That has not been in anybody's budget before. 
They need to go through facilities that are falling down, 
because nobody has spent any money or effort on the facilities. 
They chose, and I probably would have done that same thing in 
that environment, to take those resources and put them into the 
science side to be able to be in the position we are now. We 
are trying very hard to correct management and inefficiency 
problems, and they were there and some of them clearly remain. 
I can tell you that stockpile stewardship as a program is 
working.
    Now, should we step back? I think we have stepped back in 
many ways in trying to figure out where to go from here. We are 
trying to work with the DOD and from that will give the precise 
choices that we want to make on fixing the infrastructure. It 
is going to be very different on a much smaller scale, as Mr. 
Wamp was talking about, to be able to do that. We have old 
facilities that we are paying for that we don't even use. We 
are trying to do that at every point. We need to keep pointed 
on this, we need to be aggressive, you need to look at us hard 
and convince yourself that we are on the right track or not; 
But we are moving ahead, sir, and I have to tell you that.


                            NUCLEAR TESTING


    Mr. Callahan. Well, and forgive my naiveness, or lack of 
knowledge on the technical aspects of our particular agenda, 
but do you think, General, that we are ever going to be back to 
testing nuclear bombs? Do you think any time in the next 100 
years we are going to be back to testing of nuclear bombs?
    General Gordon. One of the goals of the stockpile 
stewardship program is to assure the safety and reliability of 
the stockpile without nuclear testing. It is incumbent upon us 
to have the integrity to say either we need to test or we don't 
need to test.
    I can't answer your question. I don't know. And I want to 
be an agnostic about it, because if we can't do it without 
testing, I have to have enough gumption to stand up and say, we 
have to do it if you want to maintain that weapon at that state 
of readiness.
    Right now, I would tell you that stockpile stewardship is 
working to the point that we don't need to test. We certify 
that every year and it is in no small measure because of the 
ability of the program to know what needs to be fixed in these 
aging weapons, and that they can be fixed without resorting to 
a nuclear test.
    Mr. Callahan. Well, I realize that is not the corporate 
world or the real world, but nevertheless, we are saying on the 
one hand that we don't really think we will ever get back to 
nuclear testing. On the other hand, we are maintaining a site 
to do nuclear testing. I mean when do we reach a stage to say 
that the agreements that we have made with our worldwide 
friends indicating we are going to stop testing and that they 
are not going to test anymore, when are we going to accept that 
and discontinue spending money preparing a place to test. This 
is like the Palestinians and the Israelis. We want peace and we 
want a signed agreement, and then we want to give them money to 
buy arms to kill each other. I don't quite understand why. If 
we are convinced that we are not going to go back to testing, 
why should we continue to spend millions and millions of 
dollars for a site to test? I mean is there some good reason 
there?
    General Gordon. Mr. Chairman, the task that NNSA has been 
given is to try to do this without testing and, if called upon 
by the President, to be ready and able to test, if we either 
find an issue of such magnitude that we would recommend it 
because of the safety and security of the weapons system, or if 
there were external pressures, either from treaties or other 
things. My job as tasked to me, by the Administration, is to be 
prepared to test if required.
    Mr. Callahan. We have the capacity to know whether any 
other nations are testing, right?
    General Gordon. There is some debate within the 
Intelligence Community that would tell you that there may be 
very low yield tests that could be conducted that we couldn't 
detect. But certainly within the several kiloton range we would 
know if a test was being conducted in most locations.
    Mr. Callahan. And who would be doing those tests?
    General Gordon. Who could do those tests? Russia, China, 
Pakistan, India, perhaps others.
    Mr. Callahan. Do our intelligence sources tell us that it 
is being done in some manner, capacity, some minor type of 
testing?
    General Gordon. I urge you to take a specific briefing on 
the Russian programs from the Intelligence Community. But we 
have seen in the last couple of years tests from India and 
Pakistan, they actually surprised us.
    [Deleted.]
    Mr. Callahan. Yet, we are continuing to assist, Admiral 
Bowman, the Russians in their nuclear submarine capabilities, I 
assume, nuclear-powered submarine capabilities. Is that 
correct? Are we providing them with assistance to keep their 
level of capacity up in Russia?
    Admiral Bowman. Certainly not to my knowledge, and 
certainly not--my organization isn't helping the Russians.
    Mr. Callahan. How are you cooperating with the Russians? 
What are you doing over there with the Russians?
    Admiral Bowman. My organization has no interplay with the 
Russians whatsoever.
    Mr. Callahan. Are they still building new submarines there?
    Admiral Bowman. Yes, sir, they are. But I am not helping 
them.
    Mr. Callahan. What about other countries?
    Admiral Bowman. [Deleted.]
    On the diesel submarine side, on the non-nuclear submarine 
side, there are a number of countries who are involved in 
worldwide marketing of diesel submarines. At last count, the 
number of diesel submarines throughout the world exceeds 400. 
So there is a great deal of submarine technology being pursued 
around the globe.
    In the nonproliferation area, Mr. Baker is more qualified 
to speak on this than I, but my organization again has not been 
involved in any of the direct U.S.-Russian submarines or that 
expended fuel. That has really been in the nonproliferation 
area of DOE and within the Department of Defense.


                           RUSSIAN NAVY MPC&A


    Mr. Baker. Mr. Callahan, what we are doing is [deleted], 
and because, as you know, up in the Romansk area they had a 
sailor kill 7 other sailors, and also down in the Vladivostok 
area they had a killing. So they are worrying about the insider 
threat. That is the threat to us if these warheads get out.
    So what we have done at the 42 sites throughout the Russian 
Navy Complex? We have gone in and done work at 26 of these 
sites to secure these weapons. We have gone in to work what we 
call rapid upgrades. The first thing is to fix things like 
fences, board up windows, put up guard posts, and then they 
give us a vulnerability study of the entire site. In other 
words, we get a lot of information, what the vulnerabilities 
are of that site before we do anything else. Then we go in to 
do what we call comprehensive upgrades after we get this 
vulnerability study, what the vulnerabilities are of that site, 
and vulnerability studies can be used by many people, including 
the Intelligence Community, to figure out what they are doing.
    So we have gotten into what we call the comprehensive 
upgrades. We have done four complete comprehensive upgrades at 
the Russian Navy sites.
    So we are in there. It is a real threat. I have seen it 
myself. In some of these areas there is a guard post you can 
walk around and get right to the warheads.
    Mr. Callahan. Do the Russians know themselves where they 
all are?
    Mr. Baker. I tell you, sir, if you say the Russians, not 
the Russian Navy, I think we, the United States, have a better 
idea of how much they have than they have themselves.
    Mr. Callahan. Some of them are in other countries other 
than Russia, like Ukraine?
    Mr. Baker. They are out of the Ukraine now as far as we 
know, but we have in my opinion, a better estimate than they 
do. When the Cold War was over, they had no idea. They did not 
have an accounting system. So they didn't know how many 
warheads they really had. We found that out. We have built 
accounting systems for them, to track these things.
    Now, are we getting it all? That is a good question. We 
don't know. But we are getting as much as we can. As the GAO 
Report said, we have secured 193 metric tons of the nuclear 
material, [deleted] and that is not counting the Russian Navy 
work. When the Russian Navy asked us to come in, and this was 
Admiral Kuroyedov, the head of the Russian Navy, they were 
scared. They have shown us things that not very many people 
have seen. Why did they do this? Because they were concerned 
about the insider threat, not the outside threat, and that is 
why they asked us to come in. We have seen things that not very 
many Americans have seen.


                       PAKISTANI NUCLEAR TESTING


    Mr. Callahan. Where do the Pakistanisans get their 
knowledge or capacity to have the testing that we suspect? 
Where do they get the technical knowledge of how to build such 
a device? Where do you think they got it from? Russia?
    General Gordon. I would be speculating, Mr. Chairman, and 
again would urge you to check with the agency on that issue. 
There have been reports of Chinese contacts, Korean contacts. 
But I would also just make the point that some of this physics 
is fairly straightforward. American technology developed a bomb 
in the 1940s, a handful of really smart physicists who have 
gained material over a period of time can work their way 
through this. It is much more the ability, the expense, the 
infrastructure of getting the material, and being able to 
machine it, than it is to think how to do the design.
    Mr. Callahan. [Deleted.]


                        US/DPRK AGREED FRAMEWORK


    Mr. Callahan. The KEDO agreement, are you convinced that 
providing North Korea with nuclear electrical capacity is--are 
we providing them with an opportunity that they could utilize 
in the future under the guise of them not expanding their 
nuclear capacities? Are we looking at the world with rose-
colored glasses if we think that is going to work?
    General Gordon. I don't know how to answer that question. 
What we have done through the agreement and through Mr. Baker's 
organizations, we have gone over and really secured for 
international atomic energy safeguards some of the 8,000 
plutonium bearing rods that have come out of the reactor at 
Yongbyong. I don't think I would have an opinion as to how far 
the next steps will go.
    Mr. Baker. The administration right now is going through a 
review of the North Korean situation. Of course, after that 
review is done, myself and General Gordon will be in a better 
position to answer your question.
    However, DOE has secured and I think we can say from this 
agreed framework initially, it has prevented a crisis. We have 
gone in and cleaned up the pool where, as General Gordon said, 
we have canned 8,000 fuel rods. We have tagged them for IAEA 
review. The pond is cleaned up. We have stopped some of the 
capability right now with what DOE has done on the Agreed 
Framework. But again, this policy is under review by the White 
House at the present time and we expect something will come out 
in the near future.


                   UNIVERSITY OF CALIFORNIA CONTRACT


    Mr. Callahan. Shifting gears back to the University of 
California contract, we briefly both touched on it earlier, but 
what was the rationale for extending that contract? I know that 
Secretary Richardson made that decision, but I suppose--what 
was the rationale for extending it without competition, despite 
the serious concerns we had about the performance levels, and 
what contract changes did the Department negotiate for each 
laboratory? I mean what was the real rationale behind that? I 
mean was it political, or did we do it so Mr. Gore can carry 
California? Why was there such a rush to do that?
    General Gordon. I would have no insight at all into the 
political dimensions of this question, Mr. Callahan. But the 
technical reasons, as I understand it at least, the Secretary 
wanted to make some immediate changes to strengthen the 
performance of the laboratories in light of some of the issues 
that had just come up. They wanted to do it very quickly. So 
the question was, how do you go about that? The countervailing 
to that, was we were also faced with a very desperate set of 
morale situations at that time. The balance seemed to be, do we 
try to go off and turn the whole thing topsy-turvy or try to 
fix what we have, and the decision at the time was to try to 
fix what we have. That resulted in what is, by my perspective, 
a much strengthened contract in terms of the corrections that 
were made in the contract in that we got everything we asked 
for. They included some significant performance measurements, 
they included the requirement that they bring in world class 
assistance in both project and construction management and in 
security, and that they put in place a Vice President for 
Laboratory Management who would be very active with respect to 
managing the labs in a business sense that had not been done 
before.
    So whether that was right or wrong from someone's 
perspective, the argument was to correct what was there as 
quickly as possible, and I would tell you that I think we have 
a pretty good contract. The question you need to be asking me 
is how well are we running it, managing it, overseeing the 
changes that have been made. To do that, we have instituted new 
programs of quarterly reviews, that I personally will be 
involved in. To date, it seems like it is on a reasonable 
track.
    Mr. Callahan. How many employees would you think that the 
University of California actually has to oversee or to 
facilitate this contract? How many people, how many people 
would be----
    General Gordon. I would have to give you----
    Mr. Callahan. In the thousands, I would guess. It would be 
in the many thousands.
    General Gordon. That are working it or overseeing it?
    Mr. Callahan. That are working in the program.
    General Gordon. Oh, I mean the laboratories are 6,000 or 
7,000 people apiece, and there are two of them.
    Mr. Callahan. And they handle the payroll for all of the 
laboratories?
    General Gordon. The university contract, the California 
contract that works inside the NNSA boundaries is the work at 
the Los Alamos National Laboratories and Lawrence Livermore 
Laboratories in Livermore, California. It does not include 
Sandia National Laboratories, which is run under separate 
contract.
    Mr. Callahan. I mentioned earlier that I had about 65 
questions. I just want to tell you that that list has now grown 
to 86. To give you an indication, Admiral Bowman, I have seven 
for you. That is a compliment to you, and also your area of 
this is less complicated than the area from over here. It 
doesn't mean that you are that many times better than they are, 
it just simply means that we can comprehend what you are doing 
more readily than we can comprehend what you all are doing in 
an almost quasi-civilian capacity, that that is very 
complicated.
    Mr. Visclosky.
    Mr. Visclosky. Thank you, Mr. Chairman. I would like to 
follow up really along a couple of the chairman's lines, if I 
could.
    Mr. Baker, we had a conversation pursuant to the chairman's 
questioning about the Russian and nuclear Navy warheads. Given 
the problems that you face, I am somewhat struck that the 
budget request you have before us is for $38 million, which is 
nearly a 50 percent reduction from your--I guess it is not 50 
percent, but it is off of $77,551. But do you feel comfortable 
that you can meet the problems you have described to us today 
at a 50 percent cut level and was that your request?


                           RUSSIAN NAVY MPC&A


    Mr. Baker. It was not the request, sir, but we can 
accomplish our mission. Let me tell you what we plan to do.
    There are 42 Russian Navy sites and we have fixed 26 of 
them. What we are doing is going in and doing triage work, 
rapid upgrades. Where NN funding is right now, I will not be 
able to do the comprehensive upgrades at the Russian Navy 
sites. We will have to do it at a slower pace. But the things 
that have to be done right now to make these sites secure can 
be done with a budget that is appropriately directed, but the 
comprehensive upgrades will be slowed down.
    Mr. Visclosky. It doesn't represent your full capability. 
If you had additional money, you could effectively use it?
    Mr. Baker. Yes, sir.


                             TEST READINESS


    Mr. Visclosky. The chairman talked about underground 
testing. Is the administration, General Gordon, considering a 
change in the standby policy for Nevada, which is currently 3 
years. Is there any change coming in that?
    General Gordon. I am certain that it is a discussion topic 
in the review.
    Mr. Visclosky. And again, we would be informed of any 
decision if the standby would be reduced as far as the time 
period or if it would be extended?
    General Gordon. Indeed.
    Mr. Visclosky. If it was extended, that is, instead of say 
5 years, I assume that the expense related to the tests would 
be less? Is it hard to say?
    General Gordon. It is hard to say. They may not be a lot 
less. You sort of have a fixed cost to keep the doors open.


                       NATIONAL IGNITION FACILITY


    Mr. Visclosky. General, you had also in your conversation 
with the chairman, both management generally as well as NIF, 
said that there are still some management problems. I am not 
suggesting that the Department of Defense is always right, but 
when they have a major new technological electronic development 
program such as a new ship radar or airborne laser, DOD uses a 
build-test approach. DOD would not go from 0 to 192 laser 
modules at once as you propose for NIF. Could you indicate if 
you are or others are seeking some changes as far as how NIF is 
being approached, and are we now on time and on budget? I hate 
to use those terms.
    General Gordon. I hate to use those terms, too. What we 
did, sir, was over the last year was really restructure that 
entire program, which put it on a different cost basis and put 
it on a different management basis. At this time I would tell 
you that we are doing very well in the management area. We have 
the right people in place, and they are reporting and managing, 
and the reviews that I have had tell us that the cost goals are 
being met and the schedule goals are being met.
    The question you were getting at is to sort of the pace of 
how you bring this up has been one that has been studied, I 
think to death in the course of the NIF program is, do you stop 
at some level and build up. What the reviews continually show 
is that if you are likely in any way to get to go to the large 
size, there are some fixed costs up front that you ought to 
think about.
    For example, the building is so massive you really couldn't 
build the other half of the building, the other three-quarters 
of the building, for the one point, but secondly, we are 
already there, the building is done. But what we will be 
doing--a couple of other points. The economic buy to buy some 
of the material that goes into it; for example, the laser glass 
of which there are thousands of pieces of very high-quality, 
specially made glass, it is only made a couple of places in the 
world; buying at the slow rate makes little economic sense, if 
there is a possibility that you are going to go to the higher 
end, because actually people may stop making it, so we are 
trying to buy it in economically sensible quantities. When you 
get to build the laser itself, though, it doesn't come on line 
the first day at 192 beams it starts coming on line at 4 and 8 
lasers in a row, it builds up through 48, and there are 
opportunities, and there will be experiments run up through 
that 4- or 5-year time period when the lasers will come up. We 
are not envisioning what you would call, what some might call a 
stop at 48 or 96 or something, to step back and wait a couple 
of years, because other parts of the laser are being added on 
while it is still being run. But we will be running both 
experiments and development pairs over periods of several years 
as the laser comes on line. It doesn't come on line the first 
day at 192 beams. There will be both development work and real 
experiments work at all the levels up to it.


                             PLUTONIUM PITS


    Mr. Visclosky. General, you had mentioned some other 
management problems that exist. Again, I am not looking to 
single anyone out or castigate anyone, but is there an agency 
or a program or two that we should pay special attention to 
that in conjunction with your work we are funding and oversight 
responsibilities could be made better?
    General Gordon. The one that I still worry about the most 
is what we call pit certification, certification of the ability 
to build a new plutonium pit for the W88 or for any other 
weapon.
    To be really straight up, that program was not unlike NIF 
in how it started. I am being fairly brutal, but it was 
underfunded and underdesigned and underplanned and 
underthought-out and underconceived and it may or may not have 
gone to the wrong place in the first instance to try to build 
something like that in a laboratory. The management of the 
whole idea was done a little bit more from the scientific side 
than it was from the project side.
    So what we have been trying to do is basically do what we 
have done with NIF, which is put it on a project basis with 
someone in charge, we know who is in charge, know what the 
schedules are and know what the immediate steps are. That is 
the one that I worry about the most and the trick that I can 
see is to end up doing the same thing you do to NIF, get it on 
a solid, professional project approach, and we are doing that, 
both in General Gioconda's organization by establishing a 
focused office there, we are doing it at the laboratory itself, 
and we are doing it through the university contract.


                       NAVAL REACTOR EXPERIMENTS


    Mr. Visclosky. Sixty more seconds, Mr. Chairman.
    Admiral Bowman, there was an article recently about super 
cavitation and the trade-off between stealth and speed. It left 
me with the impression the Navy is doing research in that area. 
Is any of that research being conducted out of your office?
    Admiral Bowman. We are conducting no super cavitation 
experiments.


                        NUCLEAR MATERIAL THREATS


    Mr. Visclosky. That is all I needed to know.
    The last question I would then have is during our threat 
briefing at DOD in March, it was indicated that obviously you 
have a problem as far as the submarine program and a range of 
others, but fissile material was one that was mentioned as the 
most troubling. For the record, in whatever time I have left on 
the 60 seconds or the chairman's discretion, could you just 
give us your impression of where we are?
    General Gordon. I think it is a real issue, and we just 
need to stay on top of it every way we can. The knowledge, a 
knowledgeable person can build a weapon. The long pole in the 
tent to keeping a rogue nation from getting the bomb is not 
knowledge, it is material. That is the shortest answer I can 
give you.
    Mr. Visclosky. Thank you.
    Mr. Callahan. Ms. Roybal-Allard.
    Ms. Roybal-Allard. Thank you, Mr. Chairman. I apologize, I 
was in an Energy and Water hearing, as was Mr. Latham I guess, 
earlier.
    Mr. Callahan. I thought we were Energy and Water.


                       NATIONAL IGNITION FACILITY


    Ms. Roybal-Allard. I am sorry, Commerce, Justice, State.
    First of all, let me just openly admit that this is a new 
committee for me, and the areas that it covers are also very 
new, so I am in a learning mode right now. So most of my 
questions are really going to be by way of learning and 
understanding, and I beg the committee's indulgence.
    I would like to start with something that is a little bit 
closer to home, and that is the National Ignition Facility at 
Lawrence Livemore National Laboratory in California. If you 
could help to explain the importance of the National Ignition 
Facility to our stockpile stewardship program and how, without 
the NIF, we would be able to accomplish the goals of the 
stockpile stewardship program.


                         STOCKPILE STEWARDSHIP


    General Gordon. The stockpile stewardship program is really 
trying to do things that were never done before, never even 
really thought through in some of the earlier weapons design. 
It comes as a surprise to many, including myself, that we 
really don't understand the moment of ignition of a nuclear 
weapon, those nanoseconds, that time frame that that occurs. We 
don't know what happens.
    The program that we have developed for 50 years of nuclear 
weapons was really built on underground experimentation, sort 
of try it and adjust it, try it an adjust it. Literally, we 
would have built a design and tested it and then tweaked it, 
make it bigger, smaller, lighter, change the shape of it.
    One of the things we are trying to do in the stockpile 
stewardship program on the whole is really understand the 
function of the weapon and the material that is in it in those 
very intense moments when it starts, because that is--little 
tiny changes in the system make huge changes in the output of 
the system. Little instabilities, little inequalities that come 
out. What we are trying to do with that system is really learn 
the gory detailed physics at that time frame. There are other 
aspects of it too, but that is the key part of it. That is one 
part.
    I want to just say that that one of the laboratories, 
Lawrence Livermore Laboratory, believes strongly that that 
approach is how they are going to both be able to certify 
weapons in the outyears, and it is how they will train and test 
the designers of the future, the physicists of the future. Can 
they run the codes, can they do the designs, and then match 
that in that test? So it is designed to give us real data, to 
validate computer codes, designed to validate designers, if you 
will, the physicists themselves, because unless something else 
changes, there won't be a nuclear test in which to prove that 
they can actually do the work that they are asked to do.
    Finally, I would say that it has no small--it is of no 
small import to the retention and the attraction to young 
physicists, young designers to the Lawrence Livermore 
Laboratory.
    Ms. Roybal-Allard. In some of the reading that I had done, 
I understand that there were actually some problems with this 
project in the past, including cost increases and schedule 
slippage. Now that you have had a chance to analyze the NIF and 
submit a revised budget baseline, could you describe what were 
some of the underlying causes of these problems?


                       NATIONAL IGNITION FACILITY


    General Gordon. I think the program just wasn't being run 
as a project, it was being run as a science experiment, to be 
fairly blunt about it. It was a very, very difficult and large-
scale project that the physics are very good on, the physics 
are well understood on, and we are asking a laboratory to do a 
huge engineering and construction program that they perhaps in 
retrospect were not well suited to do.
    What we have done to try to get that back on track, and it 
is back on track, although be it at a significantly higher 
cost, is we forced management changes. We have managers out 
there who we have confidence in, who spend the full time 
managing this project. In my last visit out there I could see a 
real and feel a real change in how the program is being 
approached. The first couple of trips out there, you say, isn't 
this a big building, isn't this really great science. Now you 
go out and they say, here is what happened, here is what we did 
last week, here is what we are doing next week, here is my cost 
line, here is my contingency concerns, here is what I am 
worried about technology, here is how I am making progress on 
this.
    In addition to that, they hired a contractor for the 
physical integration, of the laser in this very huge building, 
but it is going to be very full, and to bring in a construction 
engineering firm to do that integration as opposed to try to do 
it with laboratory scientists.
    So I think from that standpoint it all looks like it is 
back on track in terms of being well run, and managed program, 
and I am pretty happy with how that part of it has gone.


                    LAB AND PRODUCTION PLANT MORALE


    Ms. Roybal-Allard. You are saying it has also had a 
positive impact on personnel and their attitude, these changes?
    General Gordon. You just see a sea change, you really do 
see a sea change in both the people that are there and even in 
the laboratory as a whole. When things go badly, things go 
badly. When I first came to this business, it was difficult--
and Livermore was finding it difficult to get people who want 
to work on NIF because they didn't see its future and they were 
very aware of the problems. Now the lab director has people 
standing in line saying, I want to go to work on that program.
    Ms. Roybal-Allard. So there is an improvement in morale, 
because I had heard it was very poor.
    General Gordon. I think there has been an improvement in 
morale across the board in the weapons complex over the last 
year or so. We have gotten a number of the security problems 
behind us, off the front page. The Congress has been generous 
in supporting some of the concerns that the scientists had. 
They see a way forward. As I suggested earlier this morning, I 
wouldn't try to tell you that it is perfect, that it is fixed, 
but we certainly have stopped the slide and there is a 
different feeling when you go to every one of our labs and 
plants. Because people are looking ahead, they are working on 
real programs. We have laid out for the first time a program to 
really do major stockpile life extension programs on four of 
the weapons and people are planning for it, so they see this 
longer range future. They didn't know where they were going 
before.
    Ms. Roybal-Allard. Also, it is my understanding that you 
have significant partnerships with other agencies and other 
laboratories, as well as the private sector. Could you please 
describe the role that each partner plays?


                      LABS AND THE PRIVATE SECTOR


    General Gordon. I think it is very important that there is 
a huge investment in these laboratories in both facilities and 
people and the training. I was concerned, and others were 
concerned as well, that when NNSA was formed, that that would 
somehow build a barrier to the rest of American science or the 
laboratories and we have actually worked very hard not to do 
that, because we need from the weapons side of the business or 
the technology side of the business, to reach across the 
boundaries and bring material in. I think we have developed 
capabilities that we need to make available outside. So we work 
very hard to keep those relationships open.
    Within the other laboratories that work for the Department 
of Energy and within academia, we depend dramatically on the 
universities to bring people in. We run large, fairly large 
post-doc programs at each of the laboratories that reach out to 
academia and bring people in who are going to work on the 
programs and do the science we need.
    Then there are other programs that allow us to take 
technology that has been developed and offer it out into the 
commercial environment. The latest example is probably the most 
spectacular. It is called extreme ultraviolet lithography, and 
it is a technique where American industry actually put $250 
million into these programs to develop the prototype of what 
will be the next generation of how the world makes silicon 
chips for computers and significantly change it by orders of 
magnitude how much material can be printed on a chip, which 
will allow this thing called Moore's law to continue for 
several more decades. It has been a huge success.
    This is technology that starts in some of the micro 
electronic work that gets done, it flows back into American 
industry at sort of no cost to the taxpayer, and then we will 
find ways to bring that technology back in to apply in our 
specific programs. So we do that with some industry, we do that 
with universities and we have relationships with a number of 
universities. People will come in--the simplest programs are 
people spending their summers doing research at one of our 
laboratories.
    Ms. Roybal-Allard. You more or less answered my last 
question, because now that I am on the Energy and Water 
Committee, I get asked by a lot of my constituents, you know, 
what is the value of these programs, especially since it is 
such a large part of the energy budget, and I think you just 
gave me one example of how society benefits.
    General Gordon. Another example might be the requirements 
that we have developed and pushed a fair amount of money, which 
is key, is the Advanced Strategic Computing Initiative, which 
is really driving American industry to advance the multi-track 
machines, the really high speed computers that are the future, 
and we are now starting to see other elements of government 
starting to invest in these machines, in the weather business 
for example. There are capabilities that don't exist in any 
other environment.
    Ms. Royabal-Allard. Thank you, Mr. Chairman.
    Mr. Callahan. Mr. Edwards.


               CHEMICAL/BIOLOGICAL AGENT NONPROLIFERATION


    Mr. Edwards. I will keep it to 3 minutes or less, Mr. 
Chairman.
    General Gordon, could you tell me, was the Department of 
Energy planning on performing a chemical agent detection test 
in the Washington Metro Area in fiscal year 2002 if it had been 
funded?
    General Gordon. Could you answer that, Ken?
    Mr. Baker. Yes. We have, Mr. Edwards, we have already done 
some tests with the Washington Metro, three of them. We have 
put smoke bombs out at 3 o'clock in the morning and done some 
testing there. We are going to do more testing.
    Mr. Edwards. Is there a test you are having to cancel 
because of the budget cut, or not?
    Mr. Baker. We are looking at that right now, sir, whether 
we have to cancel it or not.
    Mr. Edwards. About 2 minutes left, could I ask you, going 
back to the Russian Navy situation, 42 sites, you said 26 of 
the 42 had initial corrections done.


                           RUSSIAN NAVY MPC&A


    Mr. Baker. Yes, sir.
    Mr. Edwards. Of those 26, you said only four have gone 
through the comprehensive upgrade. Of the other 26, are there 
others in your opinion that need comprehensive upgrades to 
protect our national security interests?
    Mr. Baker. All of them will need comprehensive upgrades. 
Let me say, at least the majority of them will need 
comprehensive upgrades. What we are trying to do first is to 
make sure the warheads are secure. And then under comprehensive 
upgrades, we are going in and building radiation detection 
systems, we are building accounting systems and things like 
that that will need to be done, but the rapid upgrades will 
make them secure, more secure. It takes 2 to 3 years to do 
comprehensive upgrades on these sites. We do the rapid upgrades 
in less than 6 months.
    Mr. Edwards. That particular budget is being proposed at a 
level of cuts of $38 million, is that correct?
    Mr. Baker. The budget will be cut at around $30 million.
    Mr. Edwards. I think it is $39.5 million.
    Mr. Baker. The whole MPC&A program, sir, is $138.8 million.
    Mr. Edwards. Okay. Finally, minute or less, 26 from 42, you 
got 16 sites that there has been neither an initial fix or 
comprehensive fix. Are those sites that pose potential threats 
to our security interests?
    Mr. Baker. We will go ahead and do the rapid upgrades on 
those as quickly as we can.
    Mr. Edwards. Is that determined by the budget, or is that 
determined by cooperation with the Russians? If you had 
additional money, could you carry those out more quickly?
    Mr. Baker. If we had more manpower and maybe more money, we 
could carry some out a little more quickly, but it depends 
somewhat on the Russians. The Russian Navy is letting us see 
things that we have never seen before. However, the Russians 
don't like that, needless to say. They only let a handful of 
people in there right now to do this work. This is because of 
Admiral Kuroyedov, so even if we had more money, we probably 
could not do it much faster, unless they allowed more people to 
get on site.
    Mr. Edwards. Thank you very much Mr. Chairman. Thank you.
    Mr. Callahan. Thanks to you all, to the four of you for 
coming today. We would appreciate your quick response to our 
written questions. I am going to try to visit many of the 
facilities in the next several months, but probably won't have 
time to visit any significant number before we begin writing 
the budget when the allocations are given to us. But I do look 
forward to trying to better understand your area of government 
and this very scientific world that you all are so familiar 
with, that I am unfamiliar with. But thank you all for coming.
    General Gordon. Thank you very much, Mr. Chairman. We look 
forward to hosting you at as many of those as you can find time 
to visit.
    Mr. Callahan. Thank you.
    [The questions and answers for the record follow:]
    [GRAPHIC] [TIFF OMITTED] T3724A.056
    
    [GRAPHIC] [TIFF OMITTED] T3724A.057
    
    [GRAPHIC] [TIFF OMITTED] T3724A.058
    
    [GRAPHIC] [TIFF OMITTED] T3724A.059
    
    [GRAPHIC] [TIFF OMITTED] T3724A.060
    
    [GRAPHIC] [TIFF OMITTED] T3724A.061
    
    [GRAPHIC] [TIFF OMITTED] T3724A.062
    
    [GRAPHIC] [TIFF OMITTED] T3724A.063
    
    [GRAPHIC] [TIFF OMITTED] T3724A.064
    
    [GRAPHIC] [TIFF OMITTED] T3724A.065
    
    [GRAPHIC] [TIFF OMITTED] T3724A.066
    
    [GRAPHIC] [TIFF OMITTED] T3724A.067
    
    [GRAPHIC] [TIFF OMITTED] T3724A.068
    
    [GRAPHIC] [TIFF OMITTED] T3724A.069
    
    [GRAPHIC] [TIFF OMITTED] T3724A.070
    
    [GRAPHIC] [TIFF OMITTED] T3724A.071
    
    [GRAPHIC] [TIFF OMITTED] T3724A.072
    
    [GRAPHIC] [TIFF OMITTED] T3724A.073
    
    [GRAPHIC] [TIFF OMITTED] T3724A.074
    
    [GRAPHIC] [TIFF OMITTED] T3724A.075
    
    [GRAPHIC] [TIFF OMITTED] T3724A.076
    
    [GRAPHIC] [TIFF OMITTED] T3724A.077
    
    [GRAPHIC] [TIFF OMITTED] T3724A.078
    
    [GRAPHIC] [TIFF OMITTED] T3724A.079
    
    [GRAPHIC] [TIFF OMITTED] T3724A.080
    
    [GRAPHIC] [TIFF OMITTED] T3724A.081
    
    [GRAPHIC] [TIFF OMITTED] T3724A.082
    
    [GRAPHIC] [TIFF OMITTED] T3724A.083
    
    [GRAPHIC] [TIFF OMITTED] T3724A.084
    
    [GRAPHIC] [TIFF OMITTED] T3724A.085
    
    [GRAPHIC] [TIFF OMITTED] T3724A.086
    
    [GRAPHIC] [TIFF OMITTED] T3724A.087
    
    [GRAPHIC] [TIFF OMITTED] T3724A.088
    
    [GRAPHIC] [TIFF OMITTED] T3724A.089
    
    [GRAPHIC] [TIFF OMITTED] T3724A.090
    
    [GRAPHIC] [TIFF OMITTED] T3724A.091
    
    [GRAPHIC] [TIFF OMITTED] T3724A.092
    
    [GRAPHIC] [TIFF OMITTED] T3724A.093
    
    [GRAPHIC] [TIFF OMITTED] T3724A.094
    
    [GRAPHIC] [TIFF OMITTED] T3724A.095
    
    [GRAPHIC] [TIFF OMITTED] T3724A.096
    
    [GRAPHIC] [TIFF OMITTED] T3724A.097
    
    [GRAPHIC] [TIFF OMITTED] T3724A.098
    
    [GRAPHIC] [TIFF OMITTED] T3724A.099
    
    [GRAPHIC] [TIFF OMITTED] T3724A.100
    
    [GRAPHIC] [TIFF OMITTED] T3724A.101
    
    [GRAPHIC] [TIFF OMITTED] T3724A.102
    
    [GRAPHIC] [TIFF OMITTED] T3724A.103
    
    [GRAPHIC] [TIFF OMITTED] T3724A.104
    
    [GRAPHIC] [TIFF OMITTED] T3724A.105
    
    [GRAPHIC] [TIFF OMITTED] T3724A.106
    
    [GRAPHIC] [TIFF OMITTED] T3724A.107
    
    [GRAPHIC] [TIFF OMITTED] T3724A.108
    
    [GRAPHIC] [TIFF OMITTED] T3724A.109
    
    [GRAPHIC] [TIFF OMITTED] T3724A.110
    
    [GRAPHIC] [TIFF OMITTED] T3724A.111
    
    [GRAPHIC] [TIFF OMITTED] T3724A.112
    
    [GRAPHIC] [TIFF OMITTED] T3724A.113
    
    [GRAPHIC] [TIFF OMITTED] T3724A.114
    
    [GRAPHIC] [TIFF OMITTED] T3724A.115
    
    [GRAPHIC] [TIFF OMITTED] T3724A.116
    
    [GRAPHIC] [TIFF OMITTED] T3724A.117
    
    [GRAPHIC] [TIFF OMITTED] T3724A.118
    
    [GRAPHIC] [TIFF OMITTED] T3724A.119
    
    [GRAPHIC] [TIFF OMITTED] T3724A.120
    
    [GRAPHIC] [TIFF OMITTED] T3724A.121
    
    [GRAPHIC] [TIFF OMITTED] T3724A.122
    
    [GRAPHIC] [TIFF OMITTED] T3724A.123
    
    [GRAPHIC] [TIFF OMITTED] T3724A.124
    
    [GRAPHIC] [TIFF OMITTED] T3724A.125
    
    [GRAPHIC] [TIFF OMITTED] T3724A.126
    
    [GRAPHIC] [TIFF OMITTED] T3724A.127
    
    [GRAPHIC] [TIFF OMITTED] T3724A.128
    
    [GRAPHIC] [TIFF OMITTED] T3724A.129
    
    [GRAPHIC] [TIFF OMITTED] T3724A.130
    
    [GRAPHIC] [TIFF OMITTED] T3724A.131
    
    [GRAPHIC] [TIFF OMITTED] T3724A.132
    
    [GRAPHIC] [TIFF OMITTED] T3724A.133
    
    [GRAPHIC] [TIFF OMITTED] T3724A.134
    
    [GRAPHIC] [TIFF OMITTED] T3724A.135
    
    [GRAPHIC] [TIFF OMITTED] T3724A.136
    
    [GRAPHIC] [TIFF OMITTED] T3724A.137
    
    [GRAPHIC] [TIFF OMITTED] T3724A.138
    
    [GRAPHIC] [TIFF OMITTED] T3724A.139
    
    [GRAPHIC] [TIFF OMITTED] T3724A.140
    
    [GRAPHIC] [TIFF OMITTED] T3724A.141
    
    [GRAPHIC] [TIFF OMITTED] T3724A.142
    
    [GRAPHIC] [TIFF OMITTED] T3724A.143
    
    [GRAPHIC] [TIFF OMITTED] T3724A.144
    
    [GRAPHIC] [TIFF OMITTED] T3724A.145
    
    [GRAPHIC] [TIFF OMITTED] T3724A.146
    
    [GRAPHIC] [TIFF OMITTED] T3724A.147
    
    [GRAPHIC] [TIFF OMITTED] T3724A.148
    
    [GRAPHIC] [TIFF OMITTED] T3724A.149
    
    [GRAPHIC] [TIFF OMITTED] T3724A.150
    
    [GRAPHIC] [TIFF OMITTED] T3724A.151
    
    [GRAPHIC] [TIFF OMITTED] T3724A.152
    
    [GRAPHIC] [TIFF OMITTED] T3724A.153
    
    [GRAPHIC] [TIFF OMITTED] T3724A.154
    
    [GRAPHIC] [TIFF OMITTED] T3724A.155
    
    [GRAPHIC] [TIFF OMITTED] T3724A.156
    
    [GRAPHIC] [TIFF OMITTED] T3724A.157
    
    [GRAPHIC] [TIFF OMITTED] T3724A.158
    
    [GRAPHIC] [TIFF OMITTED] T3724A.159
    
    [GRAPHIC] [TIFF OMITTED] T3724A.160
    
    [GRAPHIC] [TIFF OMITTED] T3724A.161
    
    [GRAPHIC] [TIFF OMITTED] T3724A.162
    
    [GRAPHIC] [TIFF OMITTED] T3724A.163
    
    [GRAPHIC] [TIFF OMITTED] T3724A.164
    
    [GRAPHIC] [TIFF OMITTED] T3724A.165
    
    [GRAPHIC] [TIFF OMITTED] T3724A.166
    
    [GRAPHIC] [TIFF OMITTED] T3724A.167
    
    [GRAPHIC] [TIFF OMITTED] T3724A.168
    
    [GRAPHIC] [TIFF OMITTED] T3724A.169
    
    [GRAPHIC] [TIFF OMITTED] T3724A.170
    
    [GRAPHIC] [TIFF OMITTED] T3724A.171
    
    [GRAPHIC] [TIFF OMITTED] T3724A.172
    
    [GRAPHIC] [TIFF OMITTED] T3724A.173
    
    [GRAPHIC] [TIFF OMITTED] T3724A.174
    
    [GRAPHIC] [TIFF OMITTED] T3724A.175
    
    [GRAPHIC] [TIFF OMITTED] T3724A.176
    
    [GRAPHIC] [TIFF OMITTED] T3724A.177
    
    [GRAPHIC] [TIFF OMITTED] T3724A.178
    
    [GRAPHIC] [TIFF OMITTED] T3724A.179
    
    [GRAPHIC] [TIFF OMITTED] T3724A.180
    
    [GRAPHIC] [TIFF OMITTED] T3724A.181
    
    [GRAPHIC] [TIFF OMITTED] T3724A.182
    
    [GRAPHIC] [TIFF OMITTED] T3724A.183
    
    [GRAPHIC] [TIFF OMITTED] T3724A.184
    
    [GRAPHIC] [TIFF OMITTED] T3724A.185
    
    [GRAPHIC] [TIFF OMITTED] T3724A.186
    
    [GRAPHIC] [TIFF OMITTED] T3724A.187
    
    [GRAPHIC] [TIFF OMITTED] T3724A.188
    
    [GRAPHIC] [TIFF OMITTED] T3724A.189
    
    [GRAPHIC] [TIFF OMITTED] T3724A.190
    
    [GRAPHIC] [TIFF OMITTED] T3724A.191
    
    [GRAPHIC] [TIFF OMITTED] T3724A.192
    
    [GRAPHIC] [TIFF OMITTED] T3724A.193
    
    [GRAPHIC] [TIFF OMITTED] T3724A.194
    
    [GRAPHIC] [TIFF OMITTED] T3724A.195
    
    [GRAPHIC] [TIFF OMITTED] T3724A.196
    
    [GRAPHIC] [TIFF OMITTED] T3724A.197
    
    [GRAPHIC] [TIFF OMITTED] T3724A.198
    
    [GRAPHIC] [TIFF OMITTED] T3724A.199
    
    [GRAPHIC] [TIFF OMITTED] T3724A.200
    
    [GRAPHIC] [TIFF OMITTED] T3724A.201
    
    [GRAPHIC] [TIFF OMITTED] T3724A.202
    
    [GRAPHIC] [TIFF OMITTED] T3724A.203
    
    [GRAPHIC] [TIFF OMITTED] T3724A.204
    
    [GRAPHIC] [TIFF OMITTED] T3724A.205
    
    [GRAPHIC] [TIFF OMITTED] T3724A.206
    
    [GRAPHIC] [TIFF OMITTED] T3724A.207
    
    [GRAPHIC] [TIFF OMITTED] T3724A.208
    
    [GRAPHIC] [TIFF OMITTED] T3724A.209
    
    [GRAPHIC] [TIFF OMITTED] T3724A.210
    
    [GRAPHIC] [TIFF OMITTED] T3724A.211
    
    [GRAPHIC] [TIFF OMITTED] T3724A.212
    
    [GRAPHIC] [TIFF OMITTED] T3724A.213
    
    [GRAPHIC] [TIFF OMITTED] T3724A.214
    
    [GRAPHIC] [TIFF OMITTED] T3724A.215
    
    [GRAPHIC] [TIFF OMITTED] T3724A.216
    
    [GRAPHIC] [TIFF OMITTED] T3724A.217
    
    [GRAPHIC] [TIFF OMITTED] T3724A.218
    
    [GRAPHIC] [TIFF OMITTED] T3724A.219
    
    [GRAPHIC] [TIFF OMITTED] T3724A.220
    
    [GRAPHIC] [TIFF OMITTED] T3724A.221
    
    [GRAPHIC] [TIFF OMITTED] T3724A.222
    
    [GRAPHIC] [TIFF OMITTED] T3724A.223
    
    [GRAPHIC] [TIFF OMITTED] T3724A.224
    
    [GRAPHIC] [TIFF OMITTED] T3724A.225
    
    [GRAPHIC] [TIFF OMITTED] T3724A.226
    
    [GRAPHIC] [TIFF OMITTED] T3724A.227
    
    [GRAPHIC] [TIFF OMITTED] T3724A.228
    
    [GRAPHIC] [TIFF OMITTED] T3724A.229
    
    [GRAPHIC] [TIFF OMITTED] T3724A.230
    
    [GRAPHIC] [TIFF OMITTED] T3724A.231
    
    [GRAPHIC] [TIFF OMITTED] T3724A.232
    
    [GRAPHIC] [TIFF OMITTED] T3724A.233
    
    [GRAPHIC] [TIFF OMITTED] T3724A.234
    
    [GRAPHIC] [TIFF OMITTED] T3724A.235
    
    [GRAPHIC] [TIFF OMITTED] T3724A.236
    
    [GRAPHIC] [TIFF OMITTED] T3724A.237
    
    [GRAPHIC] [TIFF OMITTED] T3724A.238
    
    [GRAPHIC] [TIFF OMITTED] T3724A.239
    
    [GRAPHIC] [TIFF OMITTED] T3724A.240
    
    [GRAPHIC] [TIFF OMITTED] T3724A.241
    
    [GRAPHIC] [TIFF OMITTED] T3724A.242
    
    [GRAPHIC] [TIFF OMITTED] T3724A.243
    
    [GRAPHIC] [TIFF OMITTED] T3724A.244
    
    [GRAPHIC] [TIFF OMITTED] T3724A.245
    
    [GRAPHIC] [TIFF OMITTED] T3724A.246
    
    [GRAPHIC] [TIFF OMITTED] T3724A.247
    
    [GRAPHIC] [TIFF OMITTED] T3724A.248
    
    [GRAPHIC] [TIFF OMITTED] T3724A.249
    
    [GRAPHIC] [TIFF OMITTED] T3724A.250
    
    [GRAPHIC] [TIFF OMITTED] T3724A.251
    
    [GRAPHIC] [TIFF OMITTED] T3724A.252
    
    [GRAPHIC] [TIFF OMITTED] T3724A.253
    
    [GRAPHIC] [TIFF OMITTED] T3724A.254
    
    [GRAPHIC] [TIFF OMITTED] T3724A.255
    
    [GRAPHIC] [TIFF OMITTED] T3724A.256
    
    [GRAPHIC] [TIFF OMITTED] T3724A.257
    
    [GRAPHIC] [TIFF OMITTED] T3724A.258
    
    [GRAPHIC] [TIFF OMITTED] T3724A.259
    
    [GRAPHIC] [TIFF OMITTED] T3724A.260
    
    [GRAPHIC] [TIFF OMITTED] T3724A.261
    
    [GRAPHIC] [TIFF OMITTED] T3724A.262
    
    [GRAPHIC] [TIFF OMITTED] T3724A.263
    
    [GRAPHIC] [TIFF OMITTED] T3724A.264
    
    [GRAPHIC] [TIFF OMITTED] T3724A.265
    
    [GRAPHIC] [TIFF OMITTED] T3724A.266
    
    [GRAPHIC] [TIFF OMITTED] T3724A.267
    
    [GRAPHIC] [TIFF OMITTED] T3724A.268
    
    [GRAPHIC] [TIFF OMITTED] T3724A.269
    
    [GRAPHIC] [TIFF OMITTED] T3724A.270
    
    [GRAPHIC] [TIFF OMITTED] T3724A.271
    
    [GRAPHIC] [TIFF OMITTED] T3724A.272
    
    [GRAPHIC] [TIFF OMITTED] T3724A.273
    
    [GRAPHIC] [TIFF OMITTED] T3724A.274
    
    [GRAPHIC] [TIFF OMITTED] T3724A.275
    
    [GRAPHIC] [TIFF OMITTED] T3724A.276
    
    [GRAPHIC] [TIFF OMITTED] T3724A.277
    
    [GRAPHIC] [TIFF OMITTED] T3724A.278
    
    [GRAPHIC] [TIFF OMITTED] T3724A.279
    
    [GRAPHIC] [TIFF OMITTED] T3724A.280
    
    [GRAPHIC] [TIFF OMITTED] T3724A.281
    
    [GRAPHIC] [TIFF OMITTED] T3724A.282
    
    [GRAPHIC] [TIFF OMITTED] T3724A.283
    
    [GRAPHIC] [TIFF OMITTED] T3724A.284
    
    [GRAPHIC] [TIFF OMITTED] T3724A.285
    
    [GRAPHIC] [TIFF OMITTED] T3724A.286
    
    [GRAPHIC] [TIFF OMITTED] T3724A.287
    
    [GRAPHIC] [TIFF OMITTED] T3724A.288
    
    [GRAPHIC] [TIFF OMITTED] T3724A.289
    
    [GRAPHIC] [TIFF OMITTED] T3724A.290
    
    [GRAPHIC] [TIFF OMITTED] T3724A.291
    
    [GRAPHIC] [TIFF OMITTED] T3724A.292
    
    [GRAPHIC] [TIFF OMITTED] T3724A.293
    
    [GRAPHIC] [TIFF OMITTED] T3724A.294
    
    [GRAPHIC] [TIFF OMITTED] T3724A.295
    
    [GRAPHIC] [TIFF OMITTED] T3724A.296
    
    [GRAPHIC] [TIFF OMITTED] T3724A.297
    
    [GRAPHIC] [TIFF OMITTED] T3724A.298
    
    [GRAPHIC] [TIFF OMITTED] T3724A.299
    
    [GRAPHIC] [TIFF OMITTED] T3724A.300
    
    [GRAPHIC] [TIFF OMITTED] T3724A.301
    
    [GRAPHIC] [TIFF OMITTED] T3724A.302
    
    [GRAPHIC] [TIFF OMITTED] T3724A.303
    
    [GRAPHIC] [TIFF OMITTED] T3724A.304
    
    [GRAPHIC] [TIFF OMITTED] T3724A.305
    
    [GRAPHIC] [TIFF OMITTED] T3724A.306
    
    [GRAPHIC] [TIFF OMITTED] T3724A.307
    
    [GRAPHIC] [TIFF OMITTED] T3724A.308
    
    [GRAPHIC] [TIFF OMITTED] T3724A.309
    
    [GRAPHIC] [TIFF OMITTED] T3724A.310
    
    [GRAPHIC] [TIFF OMITTED] T3724A.311
    
    [GRAPHIC] [TIFF OMITTED] T3724A.312
    
    [GRAPHIC] [TIFF OMITTED] T3724A.313
    
    [GRAPHIC] [TIFF OMITTED] T3724A.314
    
    [GRAPHIC] [TIFF OMITTED] T3724A.315
    
    [GRAPHIC] [TIFF OMITTED] T3724A.316
    
    [GRAPHIC] [TIFF OMITTED] T3724A.317
    
    [GRAPHIC] [TIFF OMITTED] T3724A.318
    
    [GRAPHIC] [TIFF OMITTED] T3724A.319
    
    [GRAPHIC] [TIFF OMITTED] T3724A.320
    
    [GRAPHIC] [TIFF OMITTED] T3724A.321
    
    [GRAPHIC] [TIFF OMITTED] T3724A.322
    
    [GRAPHIC] [TIFF OMITTED] T3724A.323
    
    [GRAPHIC] [TIFF OMITTED] T3724A.324
    
    [GRAPHIC] [TIFF OMITTED] T3724A.325
    
    [GRAPHIC] [TIFF OMITTED] T3724A.326
    
    [GRAPHIC] [TIFF OMITTED] T3724A.327
    
    [GRAPHIC] [TIFF OMITTED] T3724A.328
    
    [GRAPHIC] [TIFF OMITTED] T3724A.329
    
    [GRAPHIC] [TIFF OMITTED] T3724A.330
    
    [GRAPHIC] [TIFF OMITTED] T3724A.331
    
    [GRAPHIC] [TIFF OMITTED] T3724A.332
    
    [GRAPHIC] [TIFF OMITTED] T3724A.333
    
    [GRAPHIC] [TIFF OMITTED] T3724A.334
    
    [GRAPHIC] [TIFF OMITTED] T3724A.335
    
    [GRAPHIC] [TIFF OMITTED] T3724A.336
    
    [GRAPHIC] [TIFF OMITTED] T3724A.337
    
    [GRAPHIC] [TIFF OMITTED] T3724A.338
    
    [GRAPHIC] [TIFF OMITTED] T3724A.339
    
    [GRAPHIC] [TIFF OMITTED] T3724A.340
    
    [GRAPHIC] [TIFF OMITTED] T3724A.341
    
    [GRAPHIC] [TIFF OMITTED] T3724A.342
    
    [GRAPHIC] [TIFF OMITTED] T3724A.343
    
    [GRAPHIC] [TIFF OMITTED] T3724A.344
    
    [GRAPHIC] [TIFF OMITTED] T3724A.345
    
    [GRAPHIC] [TIFF OMITTED] T3724A.346
    
    [GRAPHIC] [TIFF OMITTED] T3724A.347
    
    [GRAPHIC] [TIFF OMITTED] T3724A.348
    
    [GRAPHIC] [TIFF OMITTED] T3724A.349
    
    [GRAPHIC] [TIFF OMITTED] T3724A.350
    
    [GRAPHIC] [TIFF OMITTED] T3724A.351
    
    [GRAPHIC] [TIFF OMITTED] T3724A.352
    
    [GRAPHIC] [TIFF OMITTED] T3724A.353
    
    [GRAPHIC] [TIFF OMITTED] T3724A.354
    
    [GRAPHIC] [TIFF OMITTED] T3724A.355
    
    [GRAPHIC] [TIFF OMITTED] T3724A.356
    
    [GRAPHIC] [TIFF OMITTED] T3724A.357
    
    [GRAPHIC] [TIFF OMITTED] T3724A.358
    
    [GRAPHIC] [TIFF OMITTED] T3724A.359
    
    [GRAPHIC] [TIFF OMITTED] T3724A.360
    
    [GRAPHIC] [TIFF OMITTED] T3724A.361
    
    [GRAPHIC] [TIFF OMITTED] T3724A.362
    
    [GRAPHIC] [TIFF OMITTED] T3724A.363
    
    [GRAPHIC] [TIFF OMITTED] T3724A.364
    
    [GRAPHIC] [TIFF OMITTED] T3724A.365
    
    [GRAPHIC] [TIFF OMITTED] T3724A.366
    
    [GRAPHIC] [TIFF OMITTED] T3724A.367
    
    [GRAPHIC] [TIFF OMITTED] T3724A.368
    
    [GRAPHIC] [TIFF OMITTED] T3724A.369
    
    [GRAPHIC] [TIFF OMITTED] T3724A.370
    
    [GRAPHIC] [TIFF OMITTED] T3724A.371
    
    [GRAPHIC] [TIFF OMITTED] T3724A.372
    
    [GRAPHIC] [TIFF OMITTED] T3724A.373
    
    [GRAPHIC] [TIFF OMITTED] T3724A.374
    
    [GRAPHIC] [TIFF OMITTED] T3724A.375
    
    [GRAPHIC] [TIFF OMITTED] T3724A.376
    
    [GRAPHIC] [TIFF OMITTED] T3724A.377
    
    [GRAPHIC] [TIFF OMITTED] T3724A.378
    
    [GRAPHIC] [TIFF OMITTED] T3724A.379
    
    [GRAPHIC] [TIFF OMITTED] T3724A.380
    
    [GRAPHIC] [TIFF OMITTED] T3724A.381
    
    [GRAPHIC] [TIFF OMITTED] T3724A.382
    
    [GRAPHIC] [TIFF OMITTED] T3724A.383
    
    [GRAPHIC] [TIFF OMITTED] T3724A.384
    
    [GRAPHIC] [TIFF OMITTED] T3724A.385
    
    [GRAPHIC] [TIFF OMITTED] T3724A.386
    
    [GRAPHIC] [TIFF OMITTED] T3724A.387
    
    [GRAPHIC] [TIFF OMITTED] T3724A.388
    
    [GRAPHIC] [TIFF OMITTED] T3724A.389
    
    [GRAPHIC] [TIFF OMITTED] T3724A.390
    
    [GRAPHIC] [TIFF OMITTED] T3724A.391
    
    [GRAPHIC] [TIFF OMITTED] T3724A.392
    
    [GRAPHIC] [TIFF OMITTED] T3724A.393
    
    [GRAPHIC] [TIFF OMITTED] T3724A.394
    
    [GRAPHIC] [TIFF OMITTED] T3724A.395
    
    [GRAPHIC] [TIFF OMITTED] T3724A.396
    
    [GRAPHIC] [TIFF OMITTED] T3724A.397
    
    [GRAPHIC] [TIFF OMITTED] T3724A.398
    
    [GRAPHIC] [TIFF OMITTED] T3724A.399
    
    [GRAPHIC] [TIFF OMITTED] T3724A.400
    
    [GRAPHIC] [TIFF OMITTED] T3724A.401
    
    [GRAPHIC] [TIFF OMITTED] T3724A.402
    
    [GRAPHIC] [TIFF OMITTED] T3724A.403
    
    [GRAPHIC] [TIFF OMITTED] T3724A.404
    
    [GRAPHIC] [TIFF OMITTED] T3724A.405
    
    [GRAPHIC] [TIFF OMITTED] T3724A.406
    
    [GRAPHIC] [TIFF OMITTED] T3724A.407
    
    [GRAPHIC] [TIFF OMITTED] T3724A.408
    
    [GRAPHIC] [TIFF OMITTED] T3724A.409
    
    [GRAPHIC] [TIFF OMITTED] T3724A.410
    
    [GRAPHIC] [TIFF OMITTED] T3724A.411
    
    [GRAPHIC] [TIFF OMITTED] T3724A.412
    
    [GRAPHIC] [TIFF OMITTED] T3724A.413
    
    [GRAPHIC] [TIFF OMITTED] T3724A.414
    
    [GRAPHIC] [TIFF OMITTED] T3724A.415
    
    [GRAPHIC] [TIFF OMITTED] T3724A.416
    
    [GRAPHIC] [TIFF OMITTED] T3724A.417
    
    [GRAPHIC] [TIFF OMITTED] T3724A.418
    
    [GRAPHIC] [TIFF OMITTED] T3724A.419
    
    [GRAPHIC] [TIFF OMITTED] T3724A.420
    
    [GRAPHIC] [TIFF OMITTED] T3724A.421
    
    [GRAPHIC] [TIFF OMITTED] T3724A.422
    
    [GRAPHIC] [TIFF OMITTED] T3724A.423
    
    [GRAPHIC] [TIFF OMITTED] T3724A.424
    
    [GRAPHIC] [TIFF OMITTED] T3724A.425
    
    [GRAPHIC] [TIFF OMITTED] T3724A.426
    
    [GRAPHIC] [TIFF OMITTED] T3724A.427
    
    [GRAPHIC] [TIFF OMITTED] T3724A.428
    
    [GRAPHIC] [TIFF OMITTED] T3724A.429
    
    [GRAPHIC] [TIFF OMITTED] T3724A.430
    
    [GRAPHIC] [TIFF OMITTED] T3724A.431
    
    [GRAPHIC] [TIFF OMITTED] T3724A.432
    
    [GRAPHIC] [TIFF OMITTED] T3724A.433
    
    [GRAPHIC] [TIFF OMITTED] T3724A.434
    
    [GRAPHIC] [TIFF OMITTED] T3724A.435
    
    [GRAPHIC] [TIFF OMITTED] T3724A.436
    
    [GRAPHIC] [TIFF OMITTED] T3724A.437
    
    [GRAPHIC] [TIFF OMITTED] T3724A.438
    
    [GRAPHIC] [TIFF OMITTED] T3724A.439
    
    [GRAPHIC] [TIFF OMITTED] T3724A.440
    
    [GRAPHIC] [TIFF OMITTED] T3724A.441
    
    [GRAPHIC] [TIFF OMITTED] T3724A.442
    
    [GRAPHIC] [TIFF OMITTED] T3724A.443
    
    [GRAPHIC] [TIFF OMITTED] T3724A.444
    
    [GRAPHIC] [TIFF OMITTED] T3724A.445
    
    [GRAPHIC] [TIFF OMITTED] T3724A.446
    
    [GRAPHIC] [TIFF OMITTED] T3724A.447
    
    [GRAPHIC] [TIFF OMITTED] T3724A.448
    
    [GRAPHIC] [TIFF OMITTED] T3724A.449
    
    [GRAPHIC] [TIFF OMITTED] T3724A.450
    
    [GRAPHIC] [TIFF OMITTED] T3724A.451
    
    [GRAPHIC] [TIFF OMITTED] T3724A.452
    
    [GRAPHIC] [TIFF OMITTED] T3724A.453
    
    [GRAPHIC] [TIFF OMITTED] T3724A.454
    
    [GRAPHIC] [TIFF OMITTED] T3724A.455
    
    [GRAPHIC] [TIFF OMITTED] T3724A.456
    
    [GRAPHIC] [TIFF OMITTED] T3724A.457
    
    [GRAPHIC] [TIFF OMITTED] T3724A.458
    
    [GRAPHIC] [TIFF OMITTED] T3724A.459
    
    [GRAPHIC] [TIFF OMITTED] T3724A.460
    
    [GRAPHIC] [TIFF OMITTED] T3724A.461
    
    [GRAPHIC] [TIFF OMITTED] T3724A.462
    
    [GRAPHIC] [TIFF OMITTED] T3724A.463
    
    [GRAPHIC] [TIFF OMITTED] T3724A.464
    
    [GRAPHIC] [TIFF OMITTED] T3724A.465
    
    [GRAPHIC] [TIFF OMITTED] T3724A.466
    
    [GRAPHIC] [TIFF OMITTED] T3724A.467
    
    [GRAPHIC] [TIFF OMITTED] T3724A.468
    
    [GRAPHIC] [TIFF OMITTED] T3724A.469
    
    [GRAPHIC] [TIFF OMITTED] T3724A.470
    
    [GRAPHIC] [TIFF OMITTED] T3724A.471
    
    [GRAPHIC] [TIFF OMITTED] T3724A.472
    
    [GRAPHIC] [TIFF OMITTED] T3724A.473
    
    [GRAPHIC] [TIFF OMITTED] T3724A.474
    
    [GRAPHIC] [TIFF OMITTED] T3724A.475
    
    [GRAPHIC] [TIFF OMITTED] T3724A.476
    
    [GRAPHIC] [TIFF OMITTED] T3724A.477
    
    [GRAPHIC] [TIFF OMITTED] T3724A.478
    
    [GRAPHIC] [TIFF OMITTED] T3724A.479
    
    [GRAPHIC] [TIFF OMITTED] T3724A.480
    
    [GRAPHIC] [TIFF OMITTED] T3724A.481
    
    [GRAPHIC] [TIFF OMITTED] T3724A.482
    
    [GRAPHIC] [TIFF OMITTED] T3724A.483
    
    [GRAPHIC] [TIFF OMITTED] T3724A.484
    
    [GRAPHIC] [TIFF OMITTED] T3724A.485
    
    [GRAPHIC] [TIFF OMITTED] T3724A.486
    
    [GRAPHIC] [TIFF OMITTED] T3724A.487
    
    [GRAPHIC] [TIFF OMITTED] T3724A.488
    
    [GRAPHIC] [TIFF OMITTED] T3724A.489
    
    [GRAPHIC] [TIFF OMITTED] T3724A.490
    
    [GRAPHIC] [TIFF OMITTED] T3724A.491
    
    [GRAPHIC] [TIFF OMITTED] T3724A.492
    
    [GRAPHIC] [TIFF OMITTED] T3724A.493
    
    [GRAPHIC] [TIFF OMITTED] T3724A.494
    
    [GRAPHIC] [TIFF OMITTED] T3724A.495
    
    [GRAPHIC] [TIFF OMITTED] T3724A.496
    
    [GRAPHIC] [TIFF OMITTED] T3724A.497
    
    [GRAPHIC] [TIFF OMITTED] T3724A.498
    
    [GRAPHIC] [TIFF OMITTED] T3724A.499
    
    [GRAPHIC] [TIFF OMITTED] T3724A.500
    
    [GRAPHIC] [TIFF OMITTED] T3724A.501
    
    [GRAPHIC] [TIFF OMITTED] T3724A.502
    
    [GRAPHIC] [TIFF OMITTED] T3724A.503
    
    [GRAPHIC] [TIFF OMITTED] T3724A.504
    
    [GRAPHIC] [TIFF OMITTED] T3724A.505
    
    [GRAPHIC] [TIFF OMITTED] T3724A.506
    
    [GRAPHIC] [TIFF OMITTED] T3724A.507
    
    [GRAPHIC] [TIFF OMITTED] T3724A.508
    
    [GRAPHIC] [TIFF OMITTED] T3724A.509
    
    [GRAPHIC] [TIFF OMITTED] T3724A.510
    
    [GRAPHIC] [TIFF OMITTED] T3724A.511
    
    [GRAPHIC] [TIFF OMITTED] T3724A.512
    
    [GRAPHIC] [TIFF OMITTED] T3724A.513
    
    [GRAPHIC] [TIFF OMITTED] T3724A.514
    
    [GRAPHIC] [TIFF OMITTED] T3724A.515
    
    [GRAPHIC] [TIFF OMITTED] T3724A.516
    
    [GRAPHIC] [TIFF OMITTED] T3724A.517
    
    [GRAPHIC] [TIFF OMITTED] T3724A.518
    
    [GRAPHIC] [TIFF OMITTED] T3724A.519
    
    [GRAPHIC] [TIFF OMITTED] T3724A.520
    
    [GRAPHIC] [TIFF OMITTED] T3724A.521
    
    [GRAPHIC] [TIFF OMITTED] T3724A.522
    
    [GRAPHIC] [TIFF OMITTED] T3724A.523
    
    [GRAPHIC] [TIFF OMITTED] T3724A.524
    
    [GRAPHIC] [TIFF OMITTED] T3724A.525
    
    [GRAPHIC] [TIFF OMITTED] T3724A.526
    
    [GRAPHIC] [TIFF OMITTED] T3724A.527
    
    [GRAPHIC] [TIFF OMITTED] T3724A.528
    
    [GRAPHIC] [TIFF OMITTED] T3724A.529
    
    [GRAPHIC] [TIFF OMITTED] T3724A.530
    
    [GRAPHIC] [TIFF OMITTED] T3724A.531
    
    [GRAPHIC] [TIFF OMITTED] T3724A.532
    
    [GRAPHIC] [TIFF OMITTED] T3724A.533
    
    [GRAPHIC] [TIFF OMITTED] T3724A.534
    
    [GRAPHIC] [TIFF OMITTED] T3724A.535
    
    [GRAPHIC] [TIFF OMITTED] T3724A.536
    
    [GRAPHIC] [TIFF OMITTED] T3724A.537
    
    [GRAPHIC] [TIFF OMITTED] T3724A.538
    
    [GRAPHIC] [TIFF OMITTED] T3724A.539
    
    [GRAPHIC] [TIFF OMITTED] T3724A.540
    
    [GRAPHIC] [TIFF OMITTED] T3724A.541
    
    [GRAPHIC] [TIFF OMITTED] T3724A.542
    
    [GRAPHIC] [TIFF OMITTED] T3724A.543
    
    [GRAPHIC] [TIFF OMITTED] T3724A.544
    
    [GRAPHIC] [TIFF OMITTED] T3724A.545
    
    [GRAPHIC] [TIFF OMITTED] T3724A.546
    
    [GRAPHIC] [TIFF OMITTED] T3724A.547
    
    [GRAPHIC] [TIFF OMITTED] T3724A.548
    
    [GRAPHIC] [TIFF OMITTED] T3724A.549
    
    [GRAPHIC] [TIFF OMITTED] T3724A.550
    
    [GRAPHIC] [TIFF OMITTED] T3724A.551
    
    [GRAPHIC] [TIFF OMITTED] T3724A.552
    
    [GRAPHIC] [TIFF OMITTED] T3724A.553
    
    [GRAPHIC] [TIFF OMITTED] T3724A.554
    
    [GRAPHIC] [TIFF OMITTED] T3724A.555
    
    [GRAPHIC] [TIFF OMITTED] T3724A.556
    
    [GRAPHIC] [TIFF OMITTED] T3724A.557
    
    [GRAPHIC] [TIFF OMITTED] T3724A.558
    
    [GRAPHIC] [TIFF OMITTED] T3724A.559
    
    [GRAPHIC] [TIFF OMITTED] T3724A.560
    
    [GRAPHIC] [TIFF OMITTED] T3724A.561
    
    [GRAPHIC] [TIFF OMITTED] T3724A.562
    
    [GRAPHIC] [TIFF OMITTED] T3724A.563
    
    [GRAPHIC] [TIFF OMITTED] T3724A.564
    
    [GRAPHIC] [TIFF OMITTED] T3724A.565
    
    [GRAPHIC] [TIFF OMITTED] T3724A.566
    
    [GRAPHIC] [TIFF OMITTED] T3724A.567
    
    [GRAPHIC] [TIFF OMITTED] T3724A.568
    
    [GRAPHIC] [TIFF OMITTED] T3724A.569
    
    [GRAPHIC] [TIFF OMITTED] T3724A.570
    
    [GRAPHIC] [TIFF OMITTED] T3724A.571
    
    [GRAPHIC] [TIFF OMITTED] T3724A.572
    
    [GRAPHIC] [TIFF OMITTED] T3724A.573
    
    [GRAPHIC] [TIFF OMITTED] T3724A.574
    
    [GRAPHIC] [TIFF OMITTED] T3724A.575
    
    [GRAPHIC] [TIFF OMITTED] T3724A.576
    
    [GRAPHIC] [TIFF OMITTED] T3724A.577
    
    [GRAPHIC] [TIFF OMITTED] T3724A.578
    
    [GRAPHIC] [TIFF OMITTED] T3724A.579
    
    [GRAPHIC] [TIFF OMITTED] T3724A.580
    
    [GRAPHIC] [TIFF OMITTED] T3724A.581
    
    [GRAPHIC] [TIFF OMITTED] T3724A.582
    
    [GRAPHIC] [TIFF OMITTED] T3724A.583
    
    [GRAPHIC] [TIFF OMITTED] T3724A.584
    
    [GRAPHIC] [TIFF OMITTED] T3724A.585
    
    [GRAPHIC] [TIFF OMITTED] T3724A.586
    
    [GRAPHIC] [TIFF OMITTED] T3724A.587
    
    [GRAPHIC] [TIFF OMITTED] T3724A.588
    
    [GRAPHIC] [TIFF OMITTED] T3724A.589
    
    [GRAPHIC] [TIFF OMITTED] T3724A.590
    
    [GRAPHIC] [TIFF OMITTED] T3724A.591
    
    [GRAPHIC] [TIFF OMITTED] T3724A.592
    
    [GRAPHIC] [TIFF OMITTED] T3724A.593
    
    [GRAPHIC] [TIFF OMITTED] T3724A.594
    
    [GRAPHIC] [TIFF OMITTED] T3724A.595
    
    [GRAPHIC] [TIFF OMITTED] T3724A.596
    
    [GRAPHIC] [TIFF OMITTED] T3724A.597
    
    [GRAPHIC] [TIFF OMITTED] T3724A.598
    
    [GRAPHIC] [TIFF OMITTED] T3724A.599
    
    [GRAPHIC] [TIFF OMITTED] T3724A.600
    
    [GRAPHIC] [TIFF OMITTED] T3724A.601
    
    [GRAPHIC] [TIFF OMITTED] T3724A.602
    
    [GRAPHIC] [TIFF OMITTED] T3724A.603
    
    [GRAPHIC] [TIFF OMITTED] T3724A.604
    
    [GRAPHIC] [TIFF OMITTED] T3724A.605
    
    [GRAPHIC] [TIFF OMITTED] T3724A.606
    
    [GRAPHIC] [TIFF OMITTED] T3724A.607
    
    [GRAPHIC] [TIFF OMITTED] T3724A.608
    
    [GRAPHIC] [TIFF OMITTED] T3724A.609
    
    [GRAPHIC] [TIFF OMITTED] T3724A.610
    
    [GRAPHIC] [TIFF OMITTED] T3724A.611
    
    [GRAPHIC] [TIFF OMITTED] T3724A.612
    
    [GRAPHIC] [TIFF OMITTED] T3724A.613
    
    [GRAPHIC] [TIFF OMITTED] T3724A.614
    
    [GRAPHIC] [TIFF OMITTED] T3724A.615
    
    [GRAPHIC] [TIFF OMITTED] T3724A.616
    
    [GRAPHIC] [TIFF OMITTED] T3724A.617
    
    [GRAPHIC] [TIFF OMITTED] T3724A.618
    
    [GRAPHIC] [TIFF OMITTED] T3724A.619
    
    [GRAPHIC] [TIFF OMITTED] T3724A.620
    
    [GRAPHIC] [TIFF OMITTED] T3724A.621
    
    [GRAPHIC] [TIFF OMITTED] T3724A.622
    
    [GRAPHIC] [TIFF OMITTED] T3724A.623
    
    [GRAPHIC] [TIFF OMITTED] T3724A.624
    
    [GRAPHIC] [TIFF OMITTED] T3724A.625
    
    [GRAPHIC] [TIFF OMITTED] T3724A.626
    
    [GRAPHIC] [TIFF OMITTED] T3724A.627
    
    [GRAPHIC] [TIFF OMITTED] T3724A.628
    
    [GRAPHIC] [TIFF OMITTED] T3724A.629
    
    [GRAPHIC] [TIFF OMITTED] T3724A.630
    
    [GRAPHIC] [TIFF OMITTED] T3724A.631
    
    [GRAPHIC] [TIFF OMITTED] T3724A.632
    
    [GRAPHIC] [TIFF OMITTED] T3724A.633
    
    [GRAPHIC] [TIFF OMITTED] T3724A.634
    
    [GRAPHIC] [TIFF OMITTED] T3724A.635
    
    [GRAPHIC] [TIFF OMITTED] T3724A.636
    
    [GRAPHIC] [TIFF OMITTED] T3724A.637
    
    [GRAPHIC] [TIFF OMITTED] T3724A.638
    
    [GRAPHIC] [TIFF OMITTED] T3724A.639
    
    [GRAPHIC] [TIFF OMITTED] T3724A.640
    
    [GRAPHIC] [TIFF OMITTED] T3724A.641
    
    [GRAPHIC] [TIFF OMITTED] T3724A.642
    
    [GRAPHIC] [TIFF OMITTED] T3724A.643
    
    [GRAPHIC] [TIFF OMITTED] T3724A.644
    
    [GRAPHIC] [TIFF OMITTED] T3724A.645
    
    [GRAPHIC] [TIFF OMITTED] T3724A.646
    
    [GRAPHIC] [TIFF OMITTED] T3724A.647
    
    [GRAPHIC] [TIFF OMITTED] T3724A.648
    
    [GRAPHIC] [TIFF OMITTED] T3724A.649
    
    [GRAPHIC] [TIFF OMITTED] T3724A.650
    
    [GRAPHIC] [TIFF OMITTED] T3724A.651
    
    [GRAPHIC] [TIFF OMITTED] T3724A.652
    
    [GRAPHIC] [TIFF OMITTED] T3724A.653
    
    [GRAPHIC] [TIFF OMITTED] T3724A.654
    
    [GRAPHIC] [TIFF OMITTED] T3724A.655
    
    [GRAPHIC] [TIFF OMITTED] T3724A.656
    
    [GRAPHIC] [TIFF OMITTED] T3724A.657
    
    [GRAPHIC] [TIFF OMITTED] T3724A.658
    
    [GRAPHIC] [TIFF OMITTED] T3724A.659
    
    [GRAPHIC] [TIFF OMITTED] T3724A.660
    
    [GRAPHIC] [TIFF OMITTED] T3724A.661
    
    [GRAPHIC] [TIFF OMITTED] T3724A.662
    
    [GRAPHIC] [TIFF OMITTED] T3724A.663
    
    [GRAPHIC] [TIFF OMITTED] T3724A.664
    
    [GRAPHIC] [TIFF OMITTED] T3724A.665
    
    [GRAPHIC] [TIFF OMITTED] T3724A.666
    
    [GRAPHIC] [TIFF OMITTED] T3724A.667
    
    [GRAPHIC] [TIFF OMITTED] T3724A.668
    
    [GRAPHIC] [TIFF OMITTED] T3724A.669
    
    [GRAPHIC] [TIFF OMITTED] T3724A.670
    
    [GRAPHIC] [TIFF OMITTED] T3724A.671
    
    [GRAPHIC] [TIFF OMITTED] T3724A.672
    
    [GRAPHIC] [TIFF OMITTED] T3724A.673
    
    [GRAPHIC] [TIFF OMITTED] T3724A.674
    
    [GRAPHIC] [TIFF OMITTED] T3724A.675
    
    [GRAPHIC] [TIFF OMITTED] T3724A.676
    
    [GRAPHIC] [TIFF OMITTED] T3724A.677
    
    [GRAPHIC] [TIFF OMITTED] T3724A.678
    
    [GRAPHIC] [TIFF OMITTED] T3724A.679
    
    [GRAPHIC] [TIFF OMITTED] T3724A.680
    
    [GRAPHIC] [TIFF OMITTED] T3724A.681
    
    [GRAPHIC] [TIFF OMITTED] T3724A.682
    
    [GRAPHIC] [TIFF OMITTED] T3724A.683
    
    [GRAPHIC] [TIFF OMITTED] T3724A.684
    
    [GRAPHIC] [TIFF OMITTED] T3724A.685
    
    [GRAPHIC] [TIFF OMITTED] T3724A.686
    
    [GRAPHIC] [TIFF OMITTED] T3724A.687
    
    [GRAPHIC] [TIFF OMITTED] T3724A.688
    
    [GRAPHIC] [TIFF OMITTED] T3724A.689
    
    [GRAPHIC] [TIFF OMITTED] T3724A.690
    
    [GRAPHIC] [TIFF OMITTED] T3724A.691
    
    [GRAPHIC] [TIFF OMITTED] T3724A.692
    
    [GRAPHIC] [TIFF OMITTED] T3724A.693
    
    [GRAPHIC] [TIFF OMITTED] T3724A.694
    
    [GRAPHIC] [TIFF OMITTED] T3724A.695
    
    [GRAPHIC] [TIFF OMITTED] T3724A.696
    
    [GRAPHIC] [TIFF OMITTED] T3724A.697
    
    [GRAPHIC] [TIFF OMITTED] T3724A.698
    
    [GRAPHIC] [TIFF OMITTED] T3724A.699
    
    [GRAPHIC] [TIFF OMITTED] T3724A.700
    
    [GRAPHIC] [TIFF OMITTED] T3724A.701
    
    [GRAPHIC] [TIFF OMITTED] T3724A.702
    
    [GRAPHIC] [TIFF OMITTED] T3724A.703
    
    [GRAPHIC] [TIFF OMITTED] T3724A.704
    
    [GRAPHIC] [TIFF OMITTED] T3724A.705
    
    [GRAPHIC] [TIFF OMITTED] T3724A.706
    
    [GRAPHIC] [TIFF OMITTED] T3724A.707
    
    [GRAPHIC] [TIFF OMITTED] T3724A.708
    
    [GRAPHIC] [TIFF OMITTED] T3724A.709
    
    [GRAPHIC] [TIFF OMITTED] T3724A.710
    
    [GRAPHIC] [TIFF OMITTED] T3724A.711
    
    [GRAPHIC] [TIFF OMITTED] T3724A.712
    
    [GRAPHIC] [TIFF OMITTED] T3724A.713
    
    [GRAPHIC] [TIFF OMITTED] T3724A.714
    
    [GRAPHIC] [TIFF OMITTED] T3724A.715
    
    [GRAPHIC] [TIFF OMITTED] T3724A.716
    
    [GRAPHIC] [TIFF OMITTED] T3724A.717
    
    [GRAPHIC] [TIFF OMITTED] T3724A.718
    
    [GRAPHIC] [TIFF OMITTED] T3724A.719
    
    [GRAPHIC] [TIFF OMITTED] T3724A.720
    
    [GRAPHIC] [TIFF OMITTED] T3724A.721
    
    [GRAPHIC] [TIFF OMITTED] T3724A.722
    
    [GRAPHIC] [TIFF OMITTED] T3724A.723
    
    [GRAPHIC] [TIFF OMITTED] T3724A.724
    
    [GRAPHIC] [TIFF OMITTED] T3724A.725
    
    [GRAPHIC] [TIFF OMITTED] T3724A.726
    
    [GRAPHIC] [TIFF OMITTED] T3724A.727
    
    [GRAPHIC] [TIFF OMITTED] T3724A.728
    
    [GRAPHIC] [TIFF OMITTED] T3724A.729
    
    [GRAPHIC] [TIFF OMITTED] T3724A.730
    
    [GRAPHIC] [TIFF OMITTED] T3724A.731
    
    [GRAPHIC] [TIFF OMITTED] T3724A.732
    
    [GRAPHIC] [TIFF OMITTED] T3724A.733
    
    [GRAPHIC] [TIFF OMITTED] T3724A.734
    
    [GRAPHIC] [TIFF OMITTED] T3724A.735
    
    [GRAPHIC] [TIFF OMITTED] T3724A.736
    
    [GRAPHIC] [TIFF OMITTED] T3724A.737
    
    [GRAPHIC] [TIFF OMITTED] T3724A.738
    
    [GRAPHIC] [TIFF OMITTED] T3724A.739
    
    [GRAPHIC] [TIFF OMITTED] T3724A.740
    
    [GRAPHIC] [TIFF OMITTED] T3724A.741
    
    [GRAPHIC] [TIFF OMITTED] T3724A.742
    
    [GRAPHIC] [TIFF OMITTED] T3724A.743
    
    [GRAPHIC] [TIFF OMITTED] T3724A.744
    
    [GRAPHIC] [TIFF OMITTED] T3724A.745
    
    [GRAPHIC] [TIFF OMITTED] T3724A.746
    
    [GRAPHIC] [TIFF OMITTED] T3724A.747
    
    [GRAPHIC] [TIFF OMITTED] T3724A.748
    
    [GRAPHIC] [TIFF OMITTED] T3724A.749
    
    [GRAPHIC] [TIFF OMITTED] T3724A.750
    
    [GRAPHIC] [TIFF OMITTED] T3724A.751
    
    [GRAPHIC] [TIFF OMITTED] T3724A.752
    
    [GRAPHIC] [TIFF OMITTED] T3724A.753
    
    [GRAPHIC] [TIFF OMITTED] T3724A.754
    
    [GRAPHIC] [TIFF OMITTED] T3724A.755
    
    [GRAPHIC] [TIFF OMITTED] T3724A.756
    
    [GRAPHIC] [TIFF OMITTED] T3724A.757
    
    [GRAPHIC] [TIFF OMITTED] T3724A.758
    
    [GRAPHIC] [TIFF OMITTED] T3724A.759
    
    [GRAPHIC] [TIFF OMITTED] T3724A.760
    
    [GRAPHIC] [TIFF OMITTED] T3724A.761
    
    [GRAPHIC] [TIFF OMITTED] T3724A.762
    
    [GRAPHIC] [TIFF OMITTED] T3724A.763
    
    [GRAPHIC] [TIFF OMITTED] T3724A.764
    
    [GRAPHIC] [TIFF OMITTED] T3724A.765
    
    [GRAPHIC] [TIFF OMITTED] T3724A.766
    
    [GRAPHIC] [TIFF OMITTED] T3724A.767
    
    [GRAPHIC] [TIFF OMITTED] T3724A.768
    
    [GRAPHIC] [TIFF OMITTED] T3724A.769
    
    [GRAPHIC] [TIFF OMITTED] T3724A.770
    
    [GRAPHIC] [TIFF OMITTED] T3724A.771
    
    [GRAPHIC] [TIFF OMITTED] T3724A.772
    
    [GRAPHIC] [TIFF OMITTED] T3724A.773
    
    [GRAPHIC] [TIFF OMITTED] T3724A.774
    
    [GRAPHIC] [TIFF OMITTED] T3724A.775
    
    [GRAPHIC] [TIFF OMITTED] T3724A.776
    
    [GRAPHIC] [TIFF OMITTED] T3724A.777
    
    [GRAPHIC] [TIFF OMITTED] T3724A.778
    
    [GRAPHIC] [TIFF OMITTED] T3724A.779
    
    [GRAPHIC] [TIFF OMITTED] T3724A.780
    
    [GRAPHIC] [TIFF OMITTED] T3724A.781
    
    [GRAPHIC] [TIFF OMITTED] T3724A.782
    
    [GRAPHIC] [TIFF OMITTED] T3724A.783
    
    [GRAPHIC] [TIFF OMITTED] T3724A.784
    
    [GRAPHIC] [TIFF OMITTED] T3724A.785
    
    [GRAPHIC] [TIFF OMITTED] T3724A.786
    
    [GRAPHIC] [TIFF OMITTED] T3724A.787
    
    [GRAPHIC] [TIFF OMITTED] T3724A.788
    
    [GRAPHIC] [TIFF OMITTED] T3724A.789
    
    [GRAPHIC] [TIFF OMITTED] T3724A.790
    
    [GRAPHIC] [TIFF OMITTED] T3724A.791
    
    [GRAPHIC] [TIFF OMITTED] T3724A.792
    
    [GRAPHIC] [TIFF OMITTED] T3724A.793
    
    [GRAPHIC] [TIFF OMITTED] T3724A.794
    
    [GRAPHIC] [TIFF OMITTED] T3724A.795
    
    [GRAPHIC] [TIFF OMITTED] T3724A.796
    
    [GRAPHIC] [TIFF OMITTED] T3724A.797
    
    [GRAPHIC] [TIFF OMITTED] T3724A.798
    
    [GRAPHIC] [TIFF OMITTED] T3724A.799
    
    [GRAPHIC] [TIFF OMITTED] T3724A.800
    
    [GRAPHIC] [TIFF OMITTED] T3724A.801
    
    [GRAPHIC] [TIFF OMITTED] T3724A.802
    
    [GRAPHIC] [TIFF OMITTED] T3724A.803
    
    [GRAPHIC] [TIFF OMITTED] T3724A.804
    
    [GRAPHIC] [TIFF OMITTED] T3724A.805
    
    [GRAPHIC] [TIFF OMITTED] T3724A.806
    
    [GRAPHIC] [TIFF OMITTED] T3724A.807
    
    [GRAPHIC] [TIFF OMITTED] T3724A.808
    
    [GRAPHIC] [TIFF OMITTED] T3724A.809
    
    [GRAPHIC] [TIFF OMITTED] T3724A.810
    
    [GRAPHIC] [TIFF OMITTED] T3724A.811
    
    [GRAPHIC] [TIFF OMITTED] T3724A.812
    
    [GRAPHIC] [TIFF OMITTED] T3724A.813
    
    [GRAPHIC] [TIFF OMITTED] T3724A.814
    
    [GRAPHIC] [TIFF OMITTED] T3724A.815
    
    [GRAPHIC] [TIFF OMITTED] T3724A.816
    
    [GRAPHIC] [TIFF OMITTED] T3724A.817
    
    [GRAPHIC] [TIFF OMITTED] T3724A.818
    
    [GRAPHIC] [TIFF OMITTED] T3724A.819
    
    [GRAPHIC] [TIFF OMITTED] T3724A.820
    
    [GRAPHIC] [TIFF OMITTED] T3724A.821
    
    [GRAPHIC] [TIFF OMITTED] T3724A.822
    
    [GRAPHIC] [TIFF OMITTED] T3724A.823
    
    [GRAPHIC] [TIFF OMITTED] T3724A.824
    
    [GRAPHIC] [TIFF OMITTED] T3724A.825
    
    [GRAPHIC] [TIFF OMITTED] T3724A.826
    
    [GRAPHIC] [TIFF OMITTED] T3724A.827
    
                                            Wednesday, May 9, 2001.

                          DEPARTMENT OF ENERGY

                               WITNESSES

CAROLYN L. HUNTOON, ACTING ASSISTANT SECRETARY FOR ENVIRONMENTAL 
    MANAGEMENT
LAKE H. BARRETT, ACTING DIRECTOR, OFFICE OF CIVILIAN RADIOACTIVE WASTE 
    MANAGEMENT
    Mr. Callahan. Welcome, Dr. Huntoon, Mr. Barrett, to our 
subcommittee. We will hear this morning from Dr. Huntoon, who 
is the Acting Assistant Secretary of Environmental Management 
for the time being, and from Lake Barrett, who is the Acting 
Director of Office of Civilian Radioactive Waste Management 
program. So we welcome you to our committee, look forward to 
working with you during the next several years to make sure 
that we have adequate resources for the energy problems that 
face your department, and look forward to hearing your 
testimony today.
    Mr. Visclosky, do you have a opening statement?
    Mr. Visclosky. I have none.
    Mr. Callahan. I have none, either.
    Dr. Huntoon.

                 Opening Remarks of Dr. Carolyn Huntoon

    Dr. Huntoon. Mr. Chairman and Members of the Committee, it 
is a pleasure to appear before you today. I am here to ask you 
to support our FY '02 budget for the Environmental Management 
program in the Department of Energy.
    Fifty years of nuclear waste production enabled us to win 
the Cold War, but it also left behind a legacy of profound 
environmental contamination. I am talking about trillions of 
gallons of contaminated groundwater, millions of cubic meters 
of contaminated soil, millions of gallons of highly radioactive 
liquid waste, and thousands of contaminated buildings across 
our country.
    Although our progress in addressing these problems was 
initially slow, I believe we have turned the corner and we are 
now seeing real and tangible progress in cleanup of these 
sites. For example, we have completed cleanup of 71 of 113 
sites--that is 66 percent-- and will have completed three more 
by the end of this year. We have completed cleanup at over 
4,900 of the nearly 10,000 release sites, or 49 percent; and we 
have stabilized 57 percent of our nuclear materials residue and 
12 percent of plutonium metals and oxides.
    At the Hanford site in Washington State, we are moving 
spent nuclear fuel from the Columbia River into safe dry 
storage. At the Oak Ridge Reservation in Tennessee, we 
completed the cleanup of ``Gunite tanks'' years ahead of 
schedule, using a suite of innovative technologies. At Paducah 
in Kentucky, we completed the removal of the infamous ``Drum 
Mountain.'' At the Savannah River Site in South Carolina, we 
produced over 1,200 canisters of vitrified high-level waste. We 
have disposed of almost 1,400 cubic meters of transuranic waste 
at WIPP in New Mexico, and we are doing so well at Rocky Flats 
in Colorado that closure by 2006 is moving from a vision to a 
realistic goal.
    In short, we have accomplished a lot and we have 
accomplished it safely, but we still have much more to do. In 
FY '02 we are requesting $5.91 billion for this program. This 
may not be as much as some people would like, but the good news 
is that $5.9 billion is still a lot of money. I believe we can 
continue to make considerable progress with this funding.
    The budget continues to place the highest priorities on 
protecting the health and safety of our workers and the public 
at all the DOE sites, and continuing work to mitigate our 
highest risk. We will ensure that nuclear materials are 
properly managed and safeguarded. Maintaining compliance is a 
priority. That, given the demands on this budget, will be a 
challenge at some of our sites.
    We have given priority to several key projects that will 
reduce high risk, provide significant ``mortgage'' reduction, 
and are key to completing activities at other sites. These 
projects include keeping Rocky Flats and Fernald in Ohio on 
track to meet their accelerated closure schedules; continuing 
progress to design and construct a vitrification plant to 
immobilize the high-risk, highly radioactive waste at the 
Hanford site; vitrifying the highly radioactive waste at 
Savannah River and selecting a technology for pretreating a 
portion of that waste; almost doubling shipments of transuranic 
waste to the Waste Isolation Pilot Plant (WIPP) in New Mexico 
to support closure or compliance requirements at other sites, 
including shipments from Idaho, Rocky Flats, Savannah River, 
and Argonne National Lab; stabilizing spent nuclear fuel or 
moving it from wet storage into safer dry storage at a number 
of sites around the complex; continuing progress on disposing 
of waste and cleanup of sites; completing active cleanup at the 
Weldon Spring site in Missouri; and developing a long-term 
stewardship program to monitor and maintain remedies after 
cleanup is completed.
    The budget continues to fund development and deployment of 
new technologies that can help us reduce our costs and 
schedules. The FY '02 request also funds high-priority new 
responsibilities, including the turnover of the uranium 
enrichment plant at Portsmouth, Ohio and activities required to 
keep it in a safe and operable condition; design and 
construction of the depleted uranium hexafloride conversion 
plants at Portsmouth, Ohio and Paducah, Kentucky; and 
acceptance of some excess facilities from the National Nuclear 
Security Administration and the Office of Science for eventual 
decontamination and decommissioning.
    The Secretary has challenged every program in the 
Department to become 5 to 10 percent more efficient. In 
addition, he has challenged us to reduce the schedules and 
costs of completing cleanup. The Environmental Management 
budget reflects this challenge.
    The Secretary has asked me to initiate a top-to-bottom 
assessment of the program which will be completed by my 
successor. The goals are to strengthen our project management; 
reduce contractor overhead; employ effective contracting 
strategies; ensure we are performing work as efficiently as 
possible and in the proper sequence; and to ensure that our 
decisions are based on sound science.
    In implementing this approach, we will continue an open 
dialogue with the Federal and State regulators. The Secretary 
has invited the governors of the States which host our sites 
and EPA Administrator Whitman to work with him to find more 
efficient ways to do business and improve the compliance 
framework that governs much of the Department's work at these 
sites.
    By working together with our Federal partners and our 
contractors, with the support of this budget, we can develop 
solutions to achieve our shared environmental goals more 
efficiently. Thank you for your continued support of this 
program.
    [The prepared statement of Dr. Huntoon follows:]
    [GRAPHIC] [TIFF OMITTED] T3724A.828
    
    [GRAPHIC] [TIFF OMITTED] T3724A.829
    
    [GRAPHIC] [TIFF OMITTED] T3724A.830
    
    [GRAPHIC] [TIFF OMITTED] T3724A.831
    
    [GRAPHIC] [TIFF OMITTED] T3724A.832
    
    [GRAPHIC] [TIFF OMITTED] T3724A.833
    
    [GRAPHIC] [TIFF OMITTED] T3724A.834
    
    [GRAPHIC] [TIFF OMITTED] T3724A.835
    
    [GRAPHIC] [TIFF OMITTED] T3724A.836
    
    [GRAPHIC] [TIFF OMITTED] T3724A.837
    
    [GRAPHIC] [TIFF OMITTED] T3724A.838
    
    [GRAPHIC] [TIFF OMITTED] T3724A.839
    
    [GRAPHIC] [TIFF OMITTED] T3724A.840
    
    [GRAPHIC] [TIFF OMITTED] T3724A.841
    
    [GRAPHIC] [TIFF OMITTED] T3724A.842
    
    [GRAPHIC] [TIFF OMITTED] T3724A.843
    
    [GRAPHIC] [TIFF OMITTED] T3724A.844
    
    [GRAPHIC] [TIFF OMITTED] T3724A.845
    
    [GRAPHIC] [TIFF OMITTED] T3724A.846
    
    [GRAPHIC] [TIFF OMITTED] T3724A.847
    
    [GRAPHIC] [TIFF OMITTED] T3724A.848
    
    [GRAPHIC] [TIFF OMITTED] T3724A.849
    
    [GRAPHIC] [TIFF OMITTED] T3724A.850
    
    [GRAPHIC] [TIFF OMITTED] T3724A.851
    
    [GRAPHIC] [TIFF OMITTED] T3724A.852
    
    [GRAPHIC] [TIFF OMITTED] T3724A.853
    
    [GRAPHIC] [TIFF OMITTED] T3724A.854
    
    [GRAPHIC] [TIFF OMITTED] T3724A.855
    
    [GRAPHIC] [TIFF OMITTED] T3724A.856
    
    [GRAPHIC] [TIFF OMITTED] T3724A.857
    
    [GRAPHIC] [TIFF OMITTED] T3724A.858
    
    [GRAPHIC] [TIFF OMITTED] T3724A.859
    
    [GRAPHIC] [TIFF OMITTED] T3724A.860
    
    [GRAPHIC] [TIFF OMITTED] T3724A.861
    
    [GRAPHIC] [TIFF OMITTED] T3724A.862
    
    [GRAPHIC] [TIFF OMITTED] T3724A.863
    
    [GRAPHIC] [TIFF OMITTED] T3724A.864
    
    [GRAPHIC] [TIFF OMITTED] T3724A.865
    
    [GRAPHIC] [TIFF OMITTED] T3724A.866
    
    [GRAPHIC] [TIFF OMITTED] T3724A.867
    
    [GRAPHIC] [TIFF OMITTED] T3724A.868
    
    [GRAPHIC] [TIFF OMITTED] T3724A.869
    
    [GRAPHIC] [TIFF OMITTED] T3724A.870
    
    [GRAPHIC] [TIFF OMITTED] T3724A.871
    
    [GRAPHIC] [TIFF OMITTED] T3724A.872
    
    [GRAPHIC] [TIFF OMITTED] T3724A.873
    
    [GRAPHIC] [TIFF OMITTED] T3724A.874
    
    [GRAPHIC] [TIFF OMITTED] T3724A.875
    
    [GRAPHIC] [TIFF OMITTED] T3724A.876
    
    [GRAPHIC] [TIFF OMITTED] T3724A.877
    
    [GRAPHIC] [TIFF OMITTED] T3724A.878
    
    [GRAPHIC] [TIFF OMITTED] T3724A.879
    
    [GRAPHIC] [TIFF OMITTED] T3724A.880
    
    [GRAPHIC] [TIFF OMITTED] T3724A.881
    
    Mr. Callahan. Mr. Barrett.

                  Opening Remarks of Mr. Lake Barrett

    Mr. Barrett. Thank you very much, Mr. Chairman and Members 
of this Committee, for the opportunity to present our 2002 
budget request.
    Our budget request advances our Nation's policy for spent 
nuclear fuel and high-level waste management. The request 
presumes the Department will make an informed, science-based 
decision on further development of the Yucca Mountain site, 
later this year.
    If a decision is made under the process outlined in the 
Nuclear Waste Policy Act, we will proceed into the next phase 
of site development. The budget request begins a transition 
from the predominantly investigative science of the site 
characterization phase to the engineering and design phase, to 
prepare a complete license application for submittal to the 
Nuclear Regulatory Commission.
    Management of nuclear materials in a repository is 
important to support the continued operation of our Nation's 
commercial nuclear power plants, which provide 20 percent of 
our Nation's electricity. It is also essential for our national 
defense and international nonproliferation objectives.
    After nearly 20 years of cutting-edge science to determine 
whether a geologic repository would perform safely, we are 
close to making a decision on whether or not to proceed with 
developing the Yucca Mountain site. Our fiscal year 2002 
request is $444.9 million, a modest increase over fiscal 2001. 
In the next fiscal year, most of our resources will be applied 
toward preparing a complete license application to the Nuclear 
Regulatory Commission.
    However, science will not end should a decision be reached 
to proceed with applying for a license to build a repository. 
Our program will continue to strengthen and evaluate the 
underlying scientific basis for any future decisions regarding 
the site.
    We have allocated $355 million, about 80 percent of our 
total request, to conduct the activities at Yucca Mountain. For 
example, the core science funding will increase by 15 percent 
to a request level of $76 million. These activities will 
support our ability to model individual and combined natural 
processes necessary to assess how a repository might perform 
many thousands of years into the future.
    Design and engineering funding will increase 41 percent to 
$104 million. This substantial increase in these activities, 
which were deferred in the past due to previous year budget 
cuts, is necessary to resume, and in some cases accelerate, 
engineering and design work to develop a complete license 
application.
    For instance, we will integrate new design concepts for 
accepting and handling the different types of spent fuel and 
high-level waste that we might receive at the facility. We will 
also evaluate how a flexible repository system can integrate 
new technologies and new operational concepts as they may 
become available in future years.
    An operations and construction funding request of $35 
million is, in part, to be used to build additional thermal 
test alcoves and experimental niches to gather performance 
confirmation data in the repository emplacement block. The 
remainder will go to maintaining the surface and subsurface 
infrastructure which supports the core science activities.
    If the Yucca Mountain site is recommended and approved for 
further development, a transportation infrastructure must be 
available to move spent fuel and high-level radioactive waste 
in sufficient quantities to meet our obligations. We have 
requested $5.9 million to begin the long lead-time logistical 
and planning activities in that area.
    I have noted in my written statement some of the 
opportunities and challenges we are facing, but I will 
summarize a few here.
    If the Yucca Mountain site is ultimately recommended for 
further development, future program costs could far exceed past 
appropriations. The Administration's budget request recognizes 
these future funding challenges by affirming support for 
efforts to use the nuclear utilities' budgetary receipts for 
their intended purposes in the program.
    The program is looking at the engineering, construction, 
and operational strategies for managing potential annual cost 
increases. These strategies seek to distribute annual costs 
over the next 10 years using modular repository construction 
and operational approaches.
    The program also intends to submit its report on 
alternative means of financing and managing the Federal 
repository to Congress in June of '01, as requested by this 
Committee, and we look forward to working with this Committee 
after submission of that report.
    I am gratified that the Department's Inspector General's 
inquiry concluded that there was ``no evidence to substantiate 
concern that bias compromised the integrity of the site 
evaluation process.'' However, the report identified several 
statements that the Inspector General concluded ``could be 
viewed as suggesting a premature conclusion regarding the 
suitability of Yucca Mountain.''
    After receiving the Inspector General's findings, both 
Secretary Abraham and I communicated our firm belief to all the 
program's Federal, laboratory, and contractor employees that 
our work must be performed in a manner that reflects the 
integrity and objectivity necessary for conducting world-class 
science. We will continue to operate this program in an open 
and transparent manner worthy of public confidence and trust.
    In conclusion, we have made considerable progress despite 
enormous challenges. Our budget request supports the next step 
in the process, development of a license application for 
submittal in 2003. I urge you to consider favorably our 
appropriation request, and we will be pleased to answer any 
questions that the committee may have.
    [The prepared statement of Mr. Barrett follows:]
    [GRAPHIC] [TIFF OMITTED] T3724A.882
    
    [GRAPHIC] [TIFF OMITTED] T3724A.883
    
    [GRAPHIC] [TIFF OMITTED] T3724A.884
    
    [GRAPHIC] [TIFF OMITTED] T3724A.885
    
    [GRAPHIC] [TIFF OMITTED] T3724A.886
    
    [GRAPHIC] [TIFF OMITTED] T3724A.887
    
    [GRAPHIC] [TIFF OMITTED] T3724A.888
    
    [GRAPHIC] [TIFF OMITTED] T3724A.889
    
    [GRAPHIC] [TIFF OMITTED] T3724A.890
    
    Mr. Callahan. I am sure there will be questions. However, 
we have a journal vote that we have about 5 minutes to get to 
the floor and vote, so the committee will stand in recess until 
we get back.
    [Recess.]
    Mr. Callahan. We appreciate your testimony, and we are 
sorry for the interruption, but I guess that happens up here 
sometimes, does it not?
    In any event, Dr. Huntoon, the department's budget request 
for cleanup is $6.3 billion, a reduction of $460 million from 
last year. Now, the Secretary has initiated a new top-to-bottom 
review, and you mentioned it in your opening statement, of the 
program, and believes he can find enough efficiencies to keep 
the site cleanups on schedule.
    Can you describe this review a little bit more in detail? I 
know you touched on it during your opening statement, but----

                  Environmental Management Assessment

    Dr. Huntoon. Yes, Mr. Chairman. Secretary Abraham believes, 
as I do, that we can find efficiencies. It has been over 10 
years since we signed a lot of the agreements and set 
strategies out at many of the sites. In that period of time a 
lot of technology has been developed. We have gotten smarter at 
some of the procedures, we have gotten better at contracting, 
and yet we have not taken a complete assessment, as a top-to-
bottom review would do.
    So I think there are several things that the Secretary has 
charged us with, and I will mention a few of them. One is to 
identify better ways of doing business across the board. As I 
mentioned, we are doing it in some areas.
    One way is the application of innovative contracting 
strategies, which we have begun at some of our sites now. Rocky 
Flats is one of them, but we have put innovative contracts into 
place at several other sites. We need to keep looking for 
opportunities to use innovative contracting strategies, and 
look at all of our contracts and make sure that they have used 
innovative approaches to reduce the costs and schedules.
    We are talking about sequencing the work better and 
applying risk-based approaches. I think data quality is an 
issue. We need to look for innovative ways to meet our 
obligations that we have to the communities that our sites are 
in, and we need some approaches to talk with the regulators and 
the governors. As I mentioned, the Secretary has asked the 
governors to name people to sit down with us and have these 
discussions, and we will be doing that in the very near future.
    We divided the early part of the assessment into two parts. 
We are going to be meeting with our regulators at the various 
States where we have sites. We are also going to ask our 
contractors to tell us back at DOE what DOE is doing that is 
costing them time and delaying schedule and addings costs to 
contracts. Are there things that DOE is imposing that are 
onerous burdens on contractors?
    Mr. Callahan. What DOE sites, cleanup sites, will be out of 
compliance at the requested 2002 level of funding?

                         Compliance Activities

    Dr. Huntoon. Mr. Chairman, I am not sure exactly which 
sites are going to be out of compliance because we are still 
trying to deal with that. Our intent is to meet our compliance 
obligations.
    We are going to have to sit down and talk with the 
regulators at some of the sites, because we are going to miss 
some of the milestones. We already knew, before the budget was 
ever even proposed, that there were some milestones--well, the 
regulators knew it, too--there were milestones that we were not 
going to make.
    For example, this summer we were supposed to start 
construction on the vitrification plant in Washington State, 
and everyone knew that that milestone was not going to be met. 
So there are milestones like that, that we are going to have to 
sit down and talk with the regulators about, and see if we can 
adjust our planning and our work schedules. We intend to meet 
our agreements.
    Mr. Callahan. Well, there is nearly a half a billion 
dollars, your request is a half a billion dollars lower than 
this fiscal year. And you do not know at this point which sites 
will not be in compliance at this budget level in 2002?
    Dr. Huntoon. We have an idea, Mr. Chairman, on several of 
them, because there are out-year compliance agreements that 
have to do with environmental restoration, and since that was 
the lowest priority in the budget that was formed, those areas 
will be the ones that we will have the most trouble meeting. We 
will have to sit down and talk with our regulators about them. 
We intend to clean up and meet our obligations; it is just the 
timing on them.
    Mr. Callahan. Why do you not just provide us a list of 
additional funds required, then, to stay in full compliance?
    Dr. Huntoon. Okay.
    Mr. Callahan. And at the same time show us where funds 
might be an indication that you may not be in compliance. You 
know, we are not a policy committee; we are a money committee.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T3724A.891
    
    Dr. Huntoon. I understand.

                     FY2002 Compliance Requirements

    Mr. Callahan. And we do not want to make policy. We just 
want to provide you with adequate money. At the same time, we 
have some responsibility. It is unusual that an agency comes 
with this reduction request and tells us that they may not be 
in compliance. It appears to me that the agency would be saying 
to the Congress, ``Give us enough money to stay in 
compliance.'' But, anyway, I guess the system is that.

                    Site Characterization Activities

    Let us jump over to Yucca Mountain, and just talk about 
this to both of you, I guess, to find out where we are. You 
know, we see an indication of some missing links in the track. 
The train is barreling down that track. Nevada is doing 
everything they can to stop the train.
    Where are we now on Yucca Mountain, and can we make the 
deadlines, which are sometime later this year, to proceed on 
with this study? Is there an indication that we are moving in 
the right direction? Where are we on Yucca Mountain at this 
point? And also respond as to what the water problem could 
present, with the State of Nevada probably rejecting the permit 
to supply us with the water needs. Where are we on Yucca 
Mountain?
    Mr. Barrett. What we are doing at the moment is 
strengthening the scientific and technical basis for any future 
decisions. The next major decisions will be those of the 
Secretary of Energy, under the law, and we are strengthening 
the technical and scientific basis for those decisions. That is 
our major focus right now, and we are doing that.
    We believe that, if the work turns out like we expect it 
to--of course, it is still not complete--we should have a 
sufficient basis to present to the decisionmakers, and under 
the Act that would be the----
    Mr. Callahan. When did we first begin to study Yucca 
Mountain?
    Mr. Barrett. The first scientific studies in that areas 
were in the '70s. The Act was passed in January of 1983, and 
under the Act we followed those procedures, so we have been 
working there over 20 years.
    Mr. Callahan. How much money have we spent to date, 
approximately?
    Mr. Barrett. About $4 billion in the Yucca Mountain area, 
and that would include monies to the State, but about $4 
billion.
    Mr. Callahan. And how much money is it going to take? When 
do you think the study will be complete?
    Mr. Barrett. Well, under the Act, there are various steps 
and decisions. The next major decision would be, is the 
Department going to recommend the site to the President, and 
then will the President make the recommendation to the Congress 
under the Act.
    Mr. Callahan. Based on your knowledge of the research, are 
you going to recommend to the President that he accept the 
site, based on preliminary indications?
    Mr. Barrett. The science is looking promising, but we do 
not have it all assembled yet, but that is our working----
    Mr. Callahan. How long do you have to assemble it?
    Mr. Barrett. We are in the process of putting that together 
now, following the steps under the Act. So we must follow those 
processes, and our working schedule is to assemble that----

                    Schedule For Site Recommendation

    Mr. Callahan. The process is, it must be submitted this 
calendar year, though, correct? To the President?
    Mr. Barrett. The law does not say that, but that has been 
our goal for the past 11 years.
    Mr. Callahan. Are you going to be able to meet that goal?
    Mr. Barrett. We are working to do that. It is our goal 
and----
    Mr. Callahan. Yes, but when do you think you will have 
sufficient data to make a recommendation to the President?
    Mr. Barrett. This year we are preparing the information 
that we think will be sufficient. However, there are many other 
external folks, like the Nuclear Regulatory Commission, who 
must provide information. But, from our point of view, we are 
proceeding to assemble the scientific basis and our working 
schedule is to try to achieve it this year.
    Mr. Callahan. Do you think you would be able to submit a 
license application in time to support opening of the 
repository in 2010?
    Mr. Barrett. Our 2002 budget request before this committee 
is predicated on that. So if the science goes----
    Mr. Callahan. What was your 1983 budget request predicated 
on?
    Mr. Barrett. 1983?
    Mr. Callahan. Yes.
    Mr. Barrett. I would have to go back.
    Mr. Callahan. When you first started.
    Mr. Barrett. Well, the original Act had a goal of January 
1998 for a repository. I think that as soon as the Act was 
passed most people who looked at the process that was spelled 
out in the Act, felt that it was not realistic that a 
repository could open in 1998.
    The schedule changed in 1989, to the 2010 repository date, 
and there was debate in Congress about whether or not to have 
interim storage as there has been over the last couple of 
years. So the repository date has been 2010 since November 
1989.
    Mr. Callahan. So $4 billion in 20 years, and you still are 
not sure that you can submit to the President a recommendation 
by the end of this year?
    Mr. Barrett. ``Sure'' is a strong term. I cannot say I am 
sure. We believe that is achievable and that is our working 
goal, but we cannot prejudge the scientific work.
    Mr. Callahan. Well, it is getting hard to comprehend. Now, 
how far do we go? What is your contingency plan if Nevada is 
successful in denying the water permit?

                          Nevada Water Permits

    Mr. Barrett. Well, there are different parts. If the site 
is determined to be unsuitable, either on technical grounds or 
political grounds, under the Act, then we are to report back to 
Congress within six months on a different path.
    Mr. Callahan. Can you continue the study without Nevada's 
permit?
    Mr. Barrett. That is the general process.
    Mr. Callahan. Without the water?
    Mr. Barrett. Now, regarding the water permits, following 
State law on water permits, we have applied and we have water 
permits until April of 2002, which is next April. The State has 
passed a law that Yucca Mountain is not in Nevada's public 
interest, and therefore the State Engineer has refused to 
extend our water permits per our request over several years for 
that period.
    So we have taken that to court, in both Federal and State 
court, and that is now in litigation. We will have to wait to 
see how that comes out. If we do not have water at the site, 
and if we have no other ability to obtain water, and the State 
believes we would not, then we would basically have to stop the 
scientific activities at the site. We hope that will not be the 
case.
    Mr. Callahan. And what is the contingency plan if they are 
successful in stopping it? What do you do? Do you continue to 
store the waste at the sites it is being stored now? Do you go 
to alternative sources? Do you begin another 30-year study?
    Mr. Barrett. If we are blocked from getting water and we 
cannot continue the work at Yucca Mountain, then we would have 
to come back to Congress and, through the judicial system and 
through the legislative system, see how this Nation will go 
forward. If we cannot proceed with Yucca Mountain, then the 
material would have to remain where it is, unless this Nation 
adopts another path forward.
    Mr. Callahan. Well, we do not have an alternative plan, 
though. I mean, we are just moving forward with this one site, 
disposal site. Is that correct?
    Mr. Barrett. That is the law, and we can only follow the 
law.
    Mr. Callahan. And when do you think the litigation in the 
courts, when will that be decided by the courts? Do you have 
any idea when the cases are----
    Mr. Barrett. On the water permits, the State water permits?
    Mr. Callahan. Yes.
    Mr. Barrett. I cannot predict State and Federal court 
actions, so, no, sir, I do not.
    Mr. Callahan. Well, what would you guess? I mean, would you 
think it would take five years or two years or two months?
    Mr. Barrett. It will not be two months, is my understanding 
from the lawyers. It will take a substantial amount of time for 
that to be settled, and I do not know what the conclusion will 
be. It is a concern that we all have.
    Mr. Callahan. Assuming that they win, what do we do then?
    Mr. Barrett. If they win, and if we do not have water at 
Yucca Mountain, we cannot build the facility.
    Mr. Callahan. All right. Then what do we do?
    Mr. Barrett. Then we would have to come back to Congress 
and the Nation would have to develop another course of action 
on how we are going to responsibly manage our high-level waste 
and spent fuel.
    Mr. Callahan. Some States might welcome this type of 
economy, if there is a good possibility that you can get the 
Federal Government to come in and spend $5 or $6 billion, 
pumping it into your economy, and then file suit, say, ``Well, 
you can't have the water.'' You know, a lot of States might 
like that $5 billion, if they are optimistic that they can stop 
it anytime they want.
    Anyway, Mr. Edwards.
    Mr. Edwards. Thank you, Mr. Chairman.

                Efficiencies in Environmental Management

    Dr. Huntoon, I have all the respect in the world for 
efforts to wring out efficiencies in government and think 
creatively, but I tend to think the cheapest way to suggest 
budget cuts in this process, and we have all seen this, is to 
say we are going to stop waste, fraud, and abuse. It sounds 
very courageous.
    Now, you have been Assistant Secretary for Environmental 
Management from 1999 to 2001. I assume you did not have any 
category that said ``inefficiencies, waste, fraud, and abuse,'' 
did you?
    Dr. Huntoon. No, sir.
    Mr. Edwards. And I assume part of your responsibility 
during that time period was to try to find efficiencies, to 
spend the taypayers' dollars more efficiently. Is that correct?
    Dr. Huntoon. That is right.
    Mr. Edwards. Let me do this. You know, I think we all know 
what is happening here. OMB has directed DOE to reduce its 
budgets. OMB has the right to do that.
    I would respect the process a little bit more if we had 
people testifying that said, ``Look, we are going to cut our 
budget, and this is what it is going to cost us.'' Instead we 
get testimony, not just from you today but others, where we are 
going to bring out unidentified efficiencies that are going to 
save this huge amount of money.
    I would have more respect for the process if we had done 
the efficiency reviews and said, ``Okay, here is the 
identification of $460 million in waste, fraud, abuse, and 
inefficiencies.'' But to identify that we know there is $460 
million in inefficiencies there we are going to correct, before 
you have even carried out the review, really raises credibility 
questions in my mind.
    But let me just ask it in this way. I am going to just 
assume that OMB has directed the Department of Energy to reduce 
its budget, for whatever reasons. Let me ask it this way, so as 
not to put you on the spot.
    Let us assume you are going to find, through this study, 
$460 million in waste, fraud, abuse, inefficiencies, and 
creative ways to manage and contract out. I hope you will. I 
will applaud you if you do that. Let us assume you do that.

                    Environmental Management Funding

    What would you do with an additional $460 million, if we 
could keep your budget at last year's level, keeping in mind 
that still does not cover the cost of employee pay raises? What 
would you do with an extra $460 million in your budget?
    Dr. Huntoon. Well, Congressman, there are several areas 
that we would deal with, I think primarily making sure that our 
highest risk efforts were completely funded. We have put 
challenges on several of those activities, at Savannah River 
and Washington State.
    I would also look at putting money back into our science 
and technology programs, because I believe we have gained 
through the last few years from the science and technology 
efforts we funded many years ago, that are just now developing 
some technologies that are useful for us.
    And I would work very closely with our environmental 
restoration, which are our lowest risk endeavors that we are 
not able to fund completely. I would work to get those funded 
more completely. We have some new technologies to try in those 
areas, and I would like to have the opportunity to apply those.
    Mr. Edwards. I appreciate that honest answer. Could you 
have your staff spend a couple of hours, just try to, just in 
broad numbers, with some specificity as to which sites, give to 
the committee an answer to my question: How would you spend an 
additional $460 million if you had it?
    [The information follows:]

                   Priorities for Additional Funding

    The current President's budget places the highest priority 
on protecting the health and safety of our workers and the 
public and continuing work to mitigate high risks. Maintaining 
compliance is another priority, but will be challenging at a 
number of sites and require us to find efficiencies and work 
with our regulators to ensure that we are pursuing the most 
effective solutions to cleanup and compliance needs as well as 
the most appropriate sequencing of work.
    If the Office of Environmental Management FY 2002 budget 
were increased by $460 million, there are several activities 
for which funding would be increased. First, we would fund 
cross-cutting items that would help meet commitments or 
complete work at specific sites. For example, we would examine 
the funding of additional TRUPACT's at the Waste Isolation 
Pilot Plant (WIPP) to support a greater number of shipments 
from Rocky Flats and Idaho. We would be in a better position to 
fund additional, high payoff science and technology efforts in 
the following categories: new basic research, the subsurface 
initiative at the Idaho National Engineering and Environmental 
Laboratory (INEEL), work with industry on new starts, and fully 
utilize the university system within the Department. In 
addition, we would be in a position to fund work that would 
help mitigate potential compliance challenges, such as shipment 
of the 3100 cubic meters of Transuranic waste from INEEL to 
WIPP. Finally, we would fund work that would support 
accelerated closure of sites, or portion of sites, such as the 
Hanford Site Columbia River Corridor Cleanup program. There are 
several other priorities that would be addressed, resulting in 
long term savings to the Department and the American taypayer.

    Dr. Huntoon. Yes, sir.
    Mr. Edwards. Thank you very much. Thank you both for your 
service.
    Thank you, Mr. Chairman.
    Mr. Callahan. Mr. Frelinghuysen.

                Site Characterization Schedule and Costs

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Barrett, good to see you again. I want to get back to 
some of the chairman's questions relative to the Yucca 
Mountain. I am not quite sure of the timetable. I get from 
reading your statement there is maybe, perhaps a higher level 
of optimism that actually some decisions are going to be 
reached in the near future.
    You say, on page 2, ``Since the enactment of the Nuclear 
Waste Policy Act in 1982, our Nation has made a substantial 
investment in permanent geologic disposal. Almost $4 billion 
has been committed to the scientific and technical work for a 
geologic repository.'' And you go on to say, ``After nearly 20 
years of cutting-edge science, our policymakers are very close 
to making a science-based decision.''
    Is that an accurate statement? Are we very close? Your 
testimony is somewhat replete with, and it goes down, further 
down on that same page, ``Of these funds, more than 65 percent 
are devoted directly towards regaining momentum for license 
application activities.'' I mean, is something occurring here 
that has not been occurring over the last eight years? Is 
momentum building for a decision to be reached?
    Mr. Barrett. There are several parts to your question, sir. 
Let me try to parse it a bit.
    This budget is predicated on a decision that would be made 
about going forward with Yucca Mountain or not, and going to 
the license application phase. What we wished to be doing in 
our previous budget requests was to be preparing the site 
recommendation and preparing the engineering and science for a 
license application to the Nuclear Regulatory Commission, which 
is a very substantial task and the next major step.
    Due to the budget reductions we have had over the last 
several years, over $140 million, which is a lot for our small 
program, we have had to defer a lot of that engineering and 
design work that we know we need to do regarding how to build 
the facilities and address the preclosure issues, not the 
thousands of years projections into the future. We have had to 
defer that work. So this year's budget would allow us to catch 
up on a lot of that work that had to be deferred, and that 
would be the acceleration part.
    Regarding the decisions, we are putting together the 
scientific basis and sound science. We believe, based on what 
we have done to date, that we can do that, but there are other 
decisions by other groups that are not in our control, for 
example, standards are being developed by the regulatory 
agencies, and then there are decisions that must be made by the 
Secretary. He must be satisfied with the science. The President 
must also be satisfied. And then there is a political process. 
There are probably going to be legal processes. The State of 
Nevada has said that it will take various litigative measures, 
as well.
    So we believe we have momentum in the program to complete 
the science and present this to the decisionmakers, and we are 
putting that together. So I am optimistic about it, but this is 
not a done thing yet.

                            SITE SUITABILITY

    Mr. Frelinghuysen. In your opinion, is there any scientific 
or technical reason to think that a satisfactory geological 
repository cannot be built and maintained?
    Mr. Barrett. I believe we can do that, but the standards 
have not yet been developed, and there are many other issues 
beyond just the straight technical aspect of it. I personally 
believe that we can assemble the scientific information to 
support an adequate geologic repository, but we have not done 
that yet, and we have to follow the processes.
    Mr. Frelinghuysen. But we have spent $4 billion, and it 
certainly is in our national interest to have a single 
repository. The taxpayers might say that that level of 
financial commitment on their part should produce something, as 
well as obviously those that have contributed to those costs, 
those that are in fact suing, suing us. Is that right?
    Mr. Barrett. Yes, sir, and we have done a lot. But this has 
never been done before, ever, so we are the first ones in the 
world to do this. This is a large endeavor, it is a very 
important decision, and we want to be very careful and be sure 
that we have the sound science and the basis for these fairly 
major decisions.

                          DRAFT EPA STANDARDS

    Mr. Frelinghuysen. Have you made a final decision on 
whether to adopt the draft health and safety standards 
submitted by the EPA?
    Mr. Barrett. Well, those are in process. We will comply 
with the final standards from the Nuclear Regulatory Commission 
which will be based on the Environmental Protection Agency 
standards. So there is not an option here. We will comply with 
those standards whatever they are.
    Mr. Frelinghuysen. What is the timetable?
    Mr. Barrett. Both of those regulatory agencies are working 
on those standards very actively, but I can't predict when that 
will be. I hope it will be fairly soon.

                         SPENT FUEL IN STORAGE

    Mr. Frelinghuysen. It is my understanding, correct me if I 
am wrong, that spent fuel storage pools, there are such pools 
at 70 nuclear power plants in our country, and that these 
continue to fill up.
    Mr. Barrett. Yes, sir.
    Mr. Frelinghuysen. Nuclear power is going to continue to be 
generated. Do you know if there are any plans in place for new 
storage capacity at these sites? Obviously we are not going to 
reach any conclusion in the near future on Yucca Mountain.
    Mr. Barrett. Yes, sir. Each nuclear utility has had to make 
provisions for our delay. The contracts provided for us to 
start moving fuel on January 31, 1998. Under the constraints of 
the Act, we could not do so.
    So utilities have had to make provisions for either 
expansion of their pools or using dry storage to accommodate 
the fuel, to allow them to continue to produce electricity in 
this country. So, yes, they have had to do that, and we are 
proceeding as quickly as we can under the constraints within 
the law.

                               LITIGATION

    Mr. Frelinghuysen. Could you comment briefly on the 
litigation issue in the latter part of your testimony? The U.S. 
Circuit Court of Appeals ruled in August of last year that 
nuclear power companies can sue you?
    Mr. Barrett. Yes, it did. There are two major areas of 
lawsuits. Basically, there are 17 different lawsuits in the 
Federal Court of Claims, where various utilities have taken us 
to court for damages over our obligation to start moving fuel 
in January of 1998, which we were unable to honor. Those are 
winding their way through the legal system in a very 
complicated way.
    We have engaged with all the contract holders to try to 
address the issue of being late and the additional impacts that 
that has had upon utilities, and we reached an agreement and a 
contract modification with one reactor site, PECO, which is now 
part of the Exelon Group. But that was an adjustment of charge, 
which was the only way we could do that under the contract, the 
only degree of freedom we had. Other utilities have taken the 
government to court in the 11th Circuit in Alabama, alleging 
that the Department did not have the authority to adjust 
charges because it would reduce the money flowing into the 
Nuclear Waste Fund. So that is also being litigated.
    So those are the two major types of lawsuits that we are 
having to deal with at the moment.
    Mr. Frelinghuysen. You are in court, but are you also 
negotiating?
    Mr. Barrett. It was our plan to try to have other 
agreements like the PECO agreement. Since that is now being 
litigated, we felt it was best to delay that until we have some 
guidance from the courts. So we are not actively negotiating 
with any utilities at this moment, along the lines of the PECO 
settlement.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Callahan. Mr. Visclosky.

                      FY 2002 FUNDING REQUIREMENTS

    Mr. Visclosky. Thank you, Mr. Chairman.
    The chairman and others have talked about Yucca Mountain, 
and I guess I would want to ask it a different way. Your budget 
request was for $445 million, and as I understand the process, 
there is going to be a site recommendation. The President then 
needs to make a decision. Nevada has an opportunity to veto it, 
and then I would anticipate you will or not have congressional 
action, and I think I am correct in that assumption.
    I also noticed in the answers you didn't give a date or a 
month or a quarter of the year in which the site recommendation 
would be made to the President, and I am not going to ask you 
for one. But my question is, as we continue to see slippage in 
this schedule, will you be able to use the full $445 million 
next year?
    Mr. Barrett. I believe so, sir.
    Mr. Visclosky. Why?
    Mr. Barrett. Because there is a tremendous amount of 
engineering and design work for the surface facilities, for 
what we call the preclosure phase. We have had to defer that 
work. We have been wishing to do that work now for several 
years.
    We need to do that catch-up work to design those surface 
facilities which will be required by the Nuclear Regulatory 
Commission, and all the safety analyses for the license 
application. So what has happened is, we have had to slip the 
license application date to 2003. It used to be 2002. We had to 
do that because given the '99, 2000, and 2001 budget 
reductions, we could not hold to that date any longer.
    So if there is, let us say, a delay in the site 
recommendation decision, for whatever reason, we do need to 
first of all continue to strengthen the technical basis, if 
that is the reason for delaying the site recommendation, to try 
to get to a clear decision, a clear national decision either to 
proceed with Yucca Mountain or not on scientific grounds, and 
we need to reach that decision. And then, if the decision is to 
go forward, we need to prepare the deferred work on all the 
designs of those facilities. These are complicated, billion-
dollar facilities.
    Mr. Visclosky. So those items would be separate from that 
decisionmaking process and would have to be completed in any 
event?
    Mr. Barrett. Yes, sir.

                         TRANSPORTATION SAFETY

    Mr. Visclosky. Okay. I represent a district that is at the 
southern tip of Lake Michigan, and if you want to go around 
Lake Michigan any way but through the air, you have to travel 
physically through the First Congressional District.
    And between 1964 and 1997 it is my understanding you had 
2,426 highway and 301 rail shipments of spent nuclear fuel in 
the U.S. From '57 to '99, Naval Reactors Program shipped 719 
cask loads. And since 1999, over 100 shipments of transuranic 
waste have been made to the WIPP facility.
    How has our record been as far as transportation? Because I 
am sure mine is not the only district where it would be an 
issue. And in a sense I am wondering, as we look forward to the 
use of Yucca Mountain, we will traverse many States and many 
congressional districts getting the material there. Is there a 
weak link that we are not paying enough attention to, as far as 
then some day transporting the waste, that we should be paying 
more attention to?
    Mr. Barrett. The transportation record, both in the United 
States and worldwide, is exemplary and outstanding from a 
safety point of view. From a risk point of view and a safety 
point of view, there is not much to compare to that. So from a 
technical safety point of view, I do not think there is much of 
an issue here.
    However, from a public perception point of view and a 
public interest point of view, it is a significant matter. It 
is a significant matter to every political jurisdiction that 
might have nuclear material transported through it.
    So we have plans. It is in the Nuclear Waste Policy Act to 
work with State, county, and local governments and support 
them, both financially and with technical assistance, to 
accommodate those shipments and deal with the shipments. So we 
know this will be a major item.
    What we have had to do with past budget cuts is defer that 
work, again to concentrate on the primary decision: Is the 
mountain suitable for recommendation to the President or not? 
In the 2002 budget request, we are basically doubling the 
transportation budget to $6 million--it is less than $3 million 
today--to plan those logistics and to work with all the 
jurisdictions to prepare for transportation.
    Mr. Visclosky. I appreciate knowing that. Obviously you 
have other fish to fry here, but I do not think it is too soon, 
and I do not think people can be aggressive enough or 
forthright enough, because we have had a number of 
controversies in my district, unrelated obviously to this 
program, but not handled well from a public relations 
standpoint. It is going to be unpopular, and I would encourage 
people to go into this with a positive and affirmative 
attitude, to intervene early as far as education.

                    ENVIRONMENTAL MANAGEMENT FUNDING

    As far as the environmental management budget, we have a 
reduction of $354 million, and I understand again some 
questions have been asked. My question really is, besides just 
the reduction off of the current year level, the budget also 
includes new responsibilities for the environmental management 
program: $125 million more for the Portsmouth plant in Ohio, 
the transfer of uranium programs from a different part of DOE.
    Given new responsibilities over current service levels, 
what is the real reduction, if I could, in this year's 
environmental management budget?
    Dr. Huntoon. Well, Congressman, I cannot add it up right 
now for you, but we did have the addition of the new work in 
our program that had previously been in the nuclear energy 
program, so that would be maybe a couple hundred thousand 
dollars. I do not have my----
    Mr. Visclosky. Give that to us for the record.
    Dr. Huntoon. We will get it for you for the record, but 
these programs are funded. We are undertaking these new 
programs, in the earliest planning stages, to meet our 
obligations at Portsmouth as well as the uranium programs. So, 
yes, those are additional. That is additional work to our 
program, and I will get you the exact numbers.
    [The information follows:]

        Actual Reduction in the Environmental Management Budget

    The Environmental Management FY 2002 budget request is 
$5.912 billion, a reduction of $355 million from the FY 2001 
budget. There are numerous projects and accounts that have 
changed from FY 2001 to FY 2002. For example, the FY 2002 
budget contains projects with scope increases, such as the $125 
million increase for Portsmouth and the $123 million increase 
for the Waste Treatment Project at Hanford. However, other 
projects have had scope decreases including the uranium/thorium 
account, which decreased by $70 million.

    Mr. Visclosky. Because I just want to make sure the record 
is established, because I do think you have a very important 
program here. I would admit to you that prior to becoming the 
ranking member of this subcommittee, even as a member of the 
subcommittee, this was kind of an amorphous issue that was 
going to be there forever, and so it was an easy pot of money 
to go after for other programs.
    My attitude has substantially changed, not only because of 
the force of litigation, but I think public responsibilities 
here. So I do think it is important that there be a public 
record as to what the implications of the budget are.
    And for the record, if I could, but if I could just read 
these, I would appreciate also if you could characterize for us 
the percentage reduction in soil and groundwater cleanup that 
this year's proposed budget would mean; also the same 
percentage for contaminated building destruction; as well as 
the impact as far as the DOE's plans to accept approximately 
twice as much transuranic waste for next year.
    And I thank you, Mr. Chairman.
    Thank you.
    Dr. Huntoon. Thank you.
    Mr. Callahan. Mr. Wamp?
    Mr. Wamp. Thank you, Mr. Chairman.
    Dr. Huntoon, I want to first thank you for sticking with 
these responsibilities from one administration to the next. It 
has been difficult enough, over the last six and a half years 
since I have been around, to keep an Assistant Secretary for 
Environmental Management on the job.
    I think it is true that there have been more days in the 
last six and a half years with an Acting Assistant Secretary 
for Environmental Management than there have been with a 
permanent Assistant Secretary for Environmental Management. And 
God bless Al Alm's soul, when we went from a 70-year goal to a 
10-year goal and then back into midair with really no goal, 
this position and these responsibilities have been somewhat up 
in the air ever since then.
    And so we do need some permanency and we need some 
stability. We do need the top-to-bottom review, but I want to 
identify myself with the comments of the chairman and Mr. 
Visclosky and Mr. Edwards, as well, to try to get to the finite 
point of determining, versus some arbitrary figure--whether it 
is an increase, a decrease, level funding, those are all 
basically arbitrary--I need the finite number on what it takes 
to meet the compliance agreements and what the schedule is in 
this administration to come to that outcome.

            SCHEDULE FOR ENVIRONMENTAL MANAGEMENT ASSESSMENT

    For instance, I understand there is a meeting scheduled or 
there will be, between Secretary Abraham, Administrator 
Whitman, and the governors of the States that have sites in 
their States. And I would like to know what is the time frame 
of that meeting, when that expectation is, and then what is the 
goal for completing the top-to-bottom review, and how will it 
coincide with this subcommittee's responsibilities to mark a 
bill up sometime over the next 70 days.
    Dr. Huntoon. Yes, sir, Congressman Wamp. We are developing 
that schedule right now and trying to arrange the meetings that 
are going to occur, so I suspect in the next month or so we 
will have some of those meetings, and we will get back to you 
on the exact dates because the dates have not been set for 
those meetings.
    The top-to-bottom assessment I think is going to take some 
time, but we are hoping to get some initial reports to the 
Secretary in June, and then I believe that the new Under 
Secretary and my successor will both be in place, and we will 
be able to assess the data that we are now collecting for them 
so they can make recommendations to Secretary Abraham about 
where we might do business in a different way, in a more 
efficient way, and gain some resources out of the review.
    Mr. Wamp. The top-to-bottom review over in DOD under 
Rumsfeld I think is expected to generate a possible 
supplemental request at some time during the year for the 
military. Do you anticipate that if this top-to-bottom review 
of environmental management and the needs and the reforms that 
are necessary, once those are identified, is there a 
possibility of a supplemental request?
    Let me ask this additional question. The reforms 
recommended, if there is a gap between those reforms and 
meeting the compliance agreements, will you come back to us in 
a timely manner for an additional request for the funding so 
that we can, as the chairman said, meet the minimum levels of 
funding necessary to meet the compliance agreements?
    Regardless of the reforms, we have got it coming at us from 
both sides. You know, we need the reforms to take place, but 
the compliance agreements are not going to go away just because 
we are waiting for the reforms.
    Dr. Huntoon. I understand that. One of the dangers in going 
and asking questions is, as you know, when you do not know the 
answers, they could come out either way. We are going to be 
looking for efficiencies, but we might however find areas where 
we do not find efficiencies, in fact we may find things that 
cost more money. When you ask questions, you get answers you 
cannot predict. So I am not going to sit here and tell you that 
we are not going to find areas where more money might be 
needed.
    But our plan is to look for efficiencies by looking for 
roadblocks that DOE through the years has put into place so 
that contractors cannot operate as efficiently as they would 
like. We hear that often, I am sure you all have heard that if 
DOE would get out of the way, the contractors could do a better 
job. Well, we are going to ask them to be specific with us, see 
what they are talking about. Those are the kinds of things that 
we hope will get the efficiencies that we are looking for.

                    POTENTIAL COMPLIANCE LITIGATION

    Mr. Wamp. How many lawyers are at DOE right now that would 
have to be put to work in the litigation that would ensue with 
the States if these compliance agreements are not met, if we do 
not adequately fund that? I mean, I know everybody in the room 
is laughing. How many lawyers are there? How many lawyers are 
we talking about here?
    Dr. Huntoon. Well, I was going to say too many, but then I 
am afraid I will get in trouble if I say that. I don't know how 
many.
    [Laughter.]
    Mr. Callahan. Let the record say that it is not too few, 
though, is it?
    [Laughter.]
    Dr. Huntoon. You know, my son-in-law is a lawyer, so I have 
to be careful.
    There are a lot of lawyers over there, and I am sure they 
will be busy. I do not know the number, but I can get that 
number for you.
    Mr. Wamp. As one member of the subcommittee, I would hope 
that you keep us out of as much litigation as possible. With 
the budget request and with our ultimate spending levels, I 
hope we can come to agreement on this, because I think there is 
bipartisan support for that on the subcommittee.
    Dr. Huntoon. I could not agree more with you. We do not 
want to go to litigation on these issues, and in the majority 
of the cases I do not think that is an issue. We need to sit 
down--and we have done this in some cases, by the way--with our 
regulators, with the EPA, with the State people, with the 
people that live in the areas around the complex, and talk 
about whether or not are we approaching these things in the 
right way.
    We have had good luck doing that at Rocky Flats. The 
community has come together, and the regulators have come 
together with the contractor and DOE. We have made some 
decisions to let the contractor schedule their work as best 
they can to get it accomplished, as opposed to according to 
milestones, as an example. And we need to go sit down around 
the complex and do that with our regulators.
    Mr. Wamp. One thing in closing that Mr. Visclosky will 
appreciate. For instance, in Oak Ridge, there is nothing that 
creates more concern in our community than compliance 
agreements not being met and environmental management 
responsibilities not being met, especially on the heels of us 
identifying and coming to grips with the fact that some of our 
workers were exposed to nuclear materials as the Cold War 
legacy built up, and now we had to come up with a program to 
compensate those workers. And that, coupled with environmental 
funding cuts, it is a back-to-back problem in communities where 
these sites exist.
    And I want to thank Jeanne Wilson on our majority side, 
from our staff perspective, for really taking a personal 
interest in these programs and the environmental 
responsibilities that go with this subcommittee's actions, and 
being a real professional throughout the years. And I yield 
back.
    Mr. Callahan. Mr. Pastor.
    Mr. Pastor. Thank you, Mr. Chairman.
    Good morning. I will probably concentrate on the Moab site, 
but as I was sitting here and realizing that we are not going 
to cut the ribbon at Yucca Mountain soon, I thought I would ask 
this question.

              POTENTIAL FOR FUEL REPROCESSING IN THE U.S.

    In Europe we have facilities that have taken the spent fuel 
and reprocessed it, and about three-fourths of them are pretty 
inert, and the remainder is recycled. Now, is that a possible 
alternative that we need to look at? What are the problems, pro 
and con?
    Mr. Barrett. The fuel cycle in the United States is a 
little different from that in Western Europe. Basically, France 
and Britain have invested in a reprocessing plant, where the 
reactors in those countries and also other overseas countries, 
such as in Germany and Japan, send fuel there to be 
reprocessed, and high-level waste is turned into glass, and 
plutonium is separated and can be recycled into mixed oxide 
fuel.
    The United States chose not to pursue reprocessing back in 
the '70s. There were political issues as well as economic 
issues here in the United States. So you have basically 
different systems, but both systems still produce high-level 
waste that must be responsibly managed and placed somewhere.
    Mr. Pastor. Right.
    Mr. Barrett. So, the end result is the same, and there are 
repository programs, some faster, some slower, in Europe, and 
France has a program similar to what we have in the United 
States. But that does not solve the problem. You still need a 
repository, whether you have reprocessing or not.
    Mr. Pastor. Well, in some cases on the site where they 
reprocess these spent fuels, they are able to store them 
because the amount diminishes in size quite a bit.
    Mr. Barrett. Yes.
    Mr. Pastor. But let me ask this question to your response. 
Is the technology there? I mean, we are talking about 
technology that was used 20 years ago, that was developed 20 
years ago. Has the technology advanced itself, where the type 
of fuel we use here could be recycled and reprocessed to make 
it inert and to continue to recycle it?
    Mr. Barrett. Yes, the reprocessing technologies have 
advanced, and there are many more advanced technologies than 
what is available today in Britain and France, which copied our 
Savannah River and Hanford reprocessing here in the United 
States, which were developed back in the '40s. But you still 
have a repository you have to deal with.
    In the United States we do not have an interim storage 
facility. Overseas those reprocessing plants act like interim 
storage facilities because the fuel is sent there and it 
relieves the pressure on each of the individual reactor sites. 
But we don't have that in this country.
    Mr. Pastor. Well, I know that, because in Palo Verde we are 
running out of space.
    Mr. Barrett. Yes, sir.
    Mr. Pastor. And so we have to find a solution. Yucca 
Mountain is one solution we looked at. But we have been at it 
now for, what, 10 years? At least I have been on this committee 
for 10 years, and we have been discussing it.
    And so I said, well, if that is not going to happen, we are 
not going to cut the ribbon at Yucca Mountain, is there another 
alternative? And the alternative would be, how do you make that 
radioactive spent fuel inert, as much as you can, and then 
recycle what is left?
    Mr. Barrett. It is not really an alternative. You still 
need a repository, and you still have residue from 
reprocessing, so it is not an alternative to Yucca Mountain. It 
is another step.
    Mr. Pastor. Yes, I agree with you, but what I am telling 
you, right now we have acres of rods under water in Arizona, 
and I would think that a logical solution would be, take as 
many of those rods and reprocess them somewhere and make as 
much of it inert, which you reduce from say 100 tons to 75 tons 
are now inert that you have to store, but it is easier to store 
75 tons as compared to 100.
    I know you are going to have to deposit it somewhere, but 
if Yucca Mountain is not going to be the site, maybe in Phoenix 
at Palo Verde we could take the 75 tons of inert material, as 
much inert as it is, and store that there, you know. But I 
think we should start looking out of the box.
    Mr. Barrett. It is complicated and a big national policy 
decision to go to reprocessing, even with advanced 
technologies, but it is a possibility, and it certainly could 
assist. But it will never replace a repository, nor is it an 
alternative to one.

                               MOAB SITE

    Mr. Pastor. My other interest, Mr. Chairman, is the 
Colorado River. We receive water downstream from the Colorado 
River, and we are very concerned about the Moab site, as well 
as the Californians. Have you detected any radioactive material 
in the water south of the site?
    Dr. Huntoon. No, sir, we have not detected any material 
from the site in the water. What we are concerned about is that 
over time, leaching of the material will occur at the Moab site 
and will get into the river. We have not detected 
radioactivity.
    Mr. Pastor. Last year we programmed, I think, $2 million to 
start looking at the Moab site activities. Are we going to 
continue with that reprogramming of the $2 million, or where 
is----
    Dr. Huntoon. The reprogramming was submitted by the last 
Administration, and I think the current Secretary is sending a 
letter. It is my understanding we are sending a letter up to 
support that reprogramming, so it can proceed, to have the 
money to do the initial studies that we need to do.
    Mr. Pastor. How much money did you request in this year's 
budget?
    Dr. Huntoon. There was none requested this year because we 
need to do the planning for the work on this. There is some 
money that we have available to do surveillance out of our 
Grand Junction office. When this reprogramming comes through, 
we will use it for the planning so we can come forward and ask 
for the right amount of money to remediate the site.
    Mr. Pastor. What do you think the Federal role is going to 
be in this? Are we just going to study it? Are we going to go 
in and clean it up? Where do you think we will be eventually?
    Dr. Huntoon. Well, it is our intent, if approved, when we 
get the reprogramming done, to put a plan in place and go in 
and remediate the area. It is, as you know, about the size of a 
football field, and quite a few tons of tailings that need to 
be moved from there. That is going to take several years to do. 
But that would be the current plan, if approved.
    Mr. Pastor. I will yield back, Mr. Chairman. Thank you very 
much.
    Mr. Callahan. Mrs. Emerson.
    Mrs. Emerson. Thank you all very much. A lot of my 
questions have already been asked, but let me just turn to a 
couple of things, if I might.

                        HAZARDOUS WASTE TRAINING

    Dr. Huntoon, when you talk about safety first, as you do in 
your prepared testimony, I know that the Department of Energy 
has funded programs in the past to provide training for its 
workers so that they can participate, and/or for contract 
workers to participate in the cleanup of hazardous waste sites. 
I think the budget last year was about $8 million, if I recall 
correctly, and this year the budget request is just for $1 
million.
    And it occurs to me, with all the work yet to do, that a $7 
million cut is fairly drastic, considering the fact that this 
is very hard work and certainly you get burned out, I don't 
mean that literally, but burned out very easily on that. Can 
you explain to me why that cut has been made?
    Dr. Huntoon. Well, as you know, we had some tough choices 
to make in getting the budget together with the numbers that we 
had. The reduction you are talking about I think is in the 
hazwoper area, where we decreased it from $8 to $1 million 
request.
    That is not the only training funding in Environmental 
Management. Just about every contract and every site has 
ongoing training. This was a particular kind of training that 
had required facilities and that sort of thing. We are hoping 
we will be able to continue that, and as people need to send 
their workers for that training, they will be able to 
supplement it with money from their programs.
    Mrs. Emerson. So, in other words, you are saying that 
perhaps you can make up the deficit by redirecting monies for 
other training to that specific----
    Dr. Huntoon. Well, I think that is an assessment that needs 
to be made, because I know a lot of training is going on. Every 
site has training going on. The hazwoper training is a 
particular kind, and a very good training, and so I think they 
are just going to have to make some assessments on that.
    Mrs. Emerson. So will you do it as you go along, or how 
will we really know workers are receiving the appropriate 
training they need to do this work?
    Dr. Huntoon. Well, I can tell you workers will receive the 
appropriate training because that is required to be able to do 
the work.
    Mrs. Emerson. Okay.
    Dr. Huntoon. I think the assessments that we are doing over 
the rest of this spring and summer are going to help us in 
aligning our training facilities and the money that we are 
putting into them. We are making sure that they are adequately 
funded and that the workers are subject to the right training, 
as part of an assessment that has got to go on.
    Mrs. Emerson. Okay.
    Mr. Visclosky. Would the gentlewoman yield for a second?
    Mrs. Emerson. Yes.
    Mr. Visclosky. I would just want to emphasize that I 
appreciate your line of questioning and do support you in it. I 
am very concerned about this.
    Mrs. Emerson. Yes, and considering the fact that I have 
many constituents who have worked at your Paducah facility and 
are having problems now, I am very concerned about the training 
and the need to do appropriate training and rigorous training. 
And I realize that a lot of people have been trained over the 
years, but I cannot imagine the longevity on this type of job 
would be particularly great.
    Dr. Huntoon. Well, and the training needs to be refreshed, 
too.
    Mrs. Emerson. Right.
    Dr. Huntoon. It is not something that you just get one 
time. It is an ongoing thing during a person's career in this 
field.

               PACE OF PROGRESS IN NUCLEAR WASTE DISPOSAL

    Mrs. Emerson. Let me ask you one more question, if I could, 
and it really has to do with a nuclear plant in my State of 
Missouri, and that is the Callaway plant. Since about 1983 our 
consumers have committed about $169 million into the Federal 
Nuclear Waste Fund so that they would be able to help finance 
nuclear waste management beginning back in 1998, but nothing 
has happened since that time.
    And I suppose I am asking for some words of comfort, if you 
will, for my Missouri consumers with regard to the electricity 
from nuclear power plants and what is perhaps a perceived 
failure on the part of the government to dispose of their 
waste. What do I tell them?
    Mr. Barrett. I believe you could tell them that Secretary 
Abraham cares very much about this program, and we are 
proceeding as fast as we can under the processes prescribed by 
law. So we are proceeding to make these decisions as quickly as 
we can.
    Mrs. Emerson. So I cannot tell them a specific date when 
the truck is coming. Is that right?
    Mr. Barrett. I could not give you a date, ma'am.
    Mrs. Emerson. Okay. Well, I would be very anxious to learn 
about this. And I believe, to be honest with you, that we are 
having a little bit of difficulty with one particular person at 
DOE, and the whole truck route, et cetera.
    But I would certainly appreciate it if you all could look 
into this for me and get back to me, because it is of great 
concern. And even though I do not represent that particular 
district, it is very close to mine and I certainly have 
constituents who use the power generated from that plant. Thank 
you.
    Thanks, Mr. Chairman.
    Mr. Callahan. Mr. Clyburn.
    Mr. Clyburn. Thank you, Mr. Chairman.
    I thank both of you for being here. I think I recall 
earlier that one of my colleagues mentioned the length of time 
or the amount of time that we have had the Acting Assistant 
Secretaries as opposed to Assistant Secretaries. I want to say, 
doctor, that that is not always a negative, because I think 
that you have served almost three years as Assistant Secretary 
and you are now in an acting capacity because of the nature of 
the game that we are all involved in here. But I think this is 
a real positive here for you to be able to stay on and help 
with the transition, and I think I congratulate you for that.

                          SAVANNAH RIVER SITE

    When Secretary Abraham was here some time ago, I raised 
with him my concerns about the safety issues at the Savannah 
River site. Of course, there are a couple of thousand jobs, as 
well. But this budget cut in the environmental management area 
seems to be somewhat of a threat to safety, to me.
    And I would like some ideas from you as to how we could go 
about, with this administration, fulfilling the kinds of, if 
not commitments, certainly plans that you had a year ago for 
the Savannah River plant, and what this budget cut is going to 
do to those plans, and maybe something about what are the 
alternatives. Are you going to postpone something, are you 
going to cancel something, or what is it that we can expect to 
maintain safety in an area that is very, very highly populated?
    Dr. Huntoon. Well, I would like to say that, as I said in 
my opening remarks, I have emphasized safety in the 
environment, safety for the workers as well as the people in 
the communities, as our number one priority to our middle 
management in the period of time that I have been in this 
office, and I still think that it has to remain our first 
concern. So the safety of the workers and the processes that we 
do will remain the number one priority, and we have funded all 
of the safety in that area.
    The things that we are going to have challenges on at 
Savannah River are the lower priority environmental restoration 
activities. We are not going to be able to proceed as rapidly 
as we wanted to in some of those areas. We are not going to be 
able to do decommissioning and decontamination of some of the 
facilities so that we can close them as rapidly as we wanted 
to. We need to do that across the complex, not only to get rid 
of them but to reduce the cost of maintaining facilities. So 
that has been something that we want to do. We are going to 
have to postpone that under the current budget.
    But we are accomplishing quite a bit down there, and I 
think the high-level waste that we are processing and the 
canisters that we have made for storage and all shows that we 
are making a lot of progress down there. That is a very 
difficult procedure, as you know, the vitrification, but we are 
doing that, and I think that is to be commended.
    The other thing is, we made our first shipment out of 
Savannah River, to the Waste Isolation Pilot Plant in New 
Mexico on the 8th, which was what, yesterday?
    Mr. Clyburn. Yesterday.
    Dr. Huntoon. Yesterday the first truck load of TRU waste 
left Savannah River, and that was a real milestone, as you 
know, to open that southern corridor and get that shipment out 
of there. I think that was a promise we had made to the people 
of South Carolina, that we would not just keep bringing stuff 
in there, that we would try to get some of it out, and so this 
is the first shipment of that.
    We also are going to continue the work on the spent fuel 
and everything else that we had committed to do. The Defense 
Board knows we are doing this. We are working with the two 
canyons, to process materials that were on schedule to be 
processed, dangerous materials that need to be dealt with. That 
is all being done.
    And, as I mentioned, the things that are not being done 
were the lower priority things, but things that we still feel 
strongly about. We are just going to have to take some 
challenges and look for efficient ways to do them.
    Mr. Clyburn. Do I understand from that answer that you are 
certain that these innovative technologies at Savannah River 
have significant payoffs? Is that----
    Dr. Huntoon. Yes.
    Mr. Clyburn. That is the extent of it?
    Dr. Huntoon. Well, the innovative technologies have been 
paying off for us down there. I think some of the work with the 
groundwater and the diversions that they have put in and all 
have really proven to be good, and of course we still have some 
time to go on those to make sure. But I think they have been 
using innovative technologies, and particularly in the 
restoration area, and a lot of those will continue. We just 
will not be able to start many new ones.
    Mr. Clyburn. Thank you, Mr. Chairman.
    Mr. Callahan. Mr. Doolittle.

                   NUCLEAR FUEL REPROCESSING OVERSEAS

    Mr. Doolittle. Thank you, Mr. Chairman.
    Mr. Barrett or Dr. Huntoon, whichever one of you cares to 
answer, I just want to follow up on Mr. Pastor's question. I 
understand that France reprocesses 85 percent of its nuclear 
material. That would be a great cost reduction, I should think. 
I would hope that we might embark more seriously upon our 
nuclear program now for energy production in this country, and 
I just would like to ask, is it not time to revisit the 
decision that was made in the '70s not to allow reprocessing of 
this fuel?
    Mr. Barrett. I believe that with Mr. Cheney's report coming 
out soon, there might be some national discussion about that.
    Mr. Doolittle. Well, I am encouraged to hear that, because 
I was noticing at one of these facilities, maybe it was 
Hanford, there is like 2,000 tons, I think, of spent nuclear 
fuel, and an 85 percent reprocessing of that would be a 
substantial erosion of that backlog.
    Mr. Barrett. It is a very complicated issue, but it is 
possible.
    Mr. Doolittle. Well, of course it is possible, because 
there are nations doing it. And yes, it is a complicated issue, 
but it is an issue that I would hope that we would look at. I 
mean, it is not like it is some bizarre theoretical 
possibility. It is done all the time in some countries, right?
    Mr. Barrett. Well, the 2,200 tons of fuel at Hanford was 
weapons production fuel, so that is complicated. That is not 
power plant----
    Mr. Doolittle. So you are speaking of that specifically? 
Okay.
    Mr. Barrett. Yes. That particular fuel is rather special, 
given nonproliferation considerations globally. But, in 
general, recycling or reprocessing of power reactor fuel is a 
possibility. It is a matter of economics and the price of 
uranium and the future projections on nuclear energy and those 
sorts of things. So, yes, it has a very complicated economic 
and policy aspect to it, but it is certainly one that I expect 
will be discussed in this country.
    Mr. Doolittle. And the power reactor fuel does not lend 
itself to the production of weapons?
    Mr. Barrett. If you recycle fuel from present day power 
reactors, as opposed to advanced technologies decades in the 
future, the process produces plutonium that is called reactor 
grade plutonium. It is weapons capable. It is not as usable as, 
say, weapons-grade plutonium, but nonetheless, there are 
nonproliferation concerns about separated reactor grade 
plutonium.
    Mr. Doolittle. Okay. Those are the concerns that were 
present when they made the decision in the '70s. Is that right?
    Mr. Barrett. Initially, it was global nonproliferation, but 
then economics kicked in during the Reagan Administration, so 
it is a combination of policies and economics on reprocessing.

                      WASTE TREATMENT AND DISPOSAL

    Mr. Doolittle. Okay. I just picked up--I do not know very 
much about this, but then I figure I will learn as I sit here 
in this committee--this idea of vitrification. Is that a 
relatively recent process that some of these materials have 
been subjected to?
    Dr. Huntoon. I do not know the exact history of when 
vitrification started. We have been doing it for a number of 
years. It is a process whereby high-level waste can be made 
into a safe form for storage by making it glass, putting it 
into glass and pouring it into cylinders, and we are doing 
that.
    We have done it quite successfully up at West Valley in New 
York. We are doing it very successfully right now at Savannah 
River. And the plant that will be built in the next five or six 
years out in Washington State will have that as the main way to 
make that waste in a safe form, where it can then be stored.
    Mr. Doolittle. So in storage there is two issues. You sort 
of do what you can to stabilize it. I guess vitrification would 
be that. And then you put it someplace. Is that right?
    Dr. Huntoon. That is right.
    Mr. Doolittle. Now, in the WIPP facility, do you vitrify 
the material before it goes in there?
    Dr. Huntoon. No. The WIPP facility has transuranic waste, 
and that is waste that contains plutonium and higher 
contamination. That waste, how we prepare that waste to go down 
to WIPP is very much prescribed by the State of New Mexico and 
the EPA, as they have required us to examine the waste, to know 
exactly what goes in each can. We do that, make measurements, 
gas measurements in the head space of the tank, quite a few 
permit-prescribed procedures.
    That waste can be as little as a plastic wrap that someone 
used on a table. It can be boots that were walked in. The 
transuranic waste has contaminated the materials. It can be 
dirt, if you will. So it really varies in what it is.
    Mr. Doolittle. But it could be plutonium, too?
    Dr. Huntoon. Very low, the lower levels.
    Mr. Doolittle. Okay, so the WIPP is for the lower level 
stuff?
    Dr. Huntoon. That is right.
    Mr. Doolittle. And Yucca Mountain, what is that intended 
for?
    Mr. Barrett. Yucca Mountain is for the higher level.
    Mr. Doolittle. That is the higher level?
    Mr. Barrett. That is correct. That would be the spent fuel 
or the glass. If the fuel from a reactor had been processed, as 
much of the fuel at Savannah River and Hanford was reprocessed 
for national security reasons since the 1940s, and in West 
Valley, New York, as Dr. Huntoon mentioned, which was a 
commercial reprocessing plant that operated in the '60s and 
'70s and was closed in the mid-1970s. The residue that was left 
over, gets turned into glass, or vitrified. Either of those 
materials, spent nuclear fuel or high-level waste, would come 
to Yucca Mountain, which would be a high-level waste facility.
    Mr. Doolittle. So the vitrification process is used, is 
applied to the higher grade, more serious material. Is that 
right?
    Dr. Huntoon. It is applied to waste materials. It is liquid 
waste----
    Mr. Doolittle. The actual waste itself, as opposed to----
    Dr. Huntoon. It is liquid, that is right. It is liquid 
waste that came out of the processing in these very large 
chemical processing facilities to get the plutonium.
    Mr. Doolittle. And right now, I guess, don't the nuclear 
plants just store all of this material there on site? Is that 
how it works?
    Dr. Huntoon. The high-level waste is in DOE facilities. It 
is----
    Mr. Doolittle. Oh, so they ship it to a DOE facility?
    Dr. Huntoon. No, it is waste that was created at these 
facilities.
    Mr. Doolittle. Right, okay, the high-level waste. But the 
nuclear power plant waste from the existing plants is stored on 
site there?
    Mr. Barrett. It is stored at each of the 70-odd nuclear 
power plant sites until the Federal Government can create a 
facility to discharge its obligation. So, yes, it is stored 
until we are ready to take it.
    Mr. Doolittle. So that facility could either be a 
reprocessing one, if that is the way we decide to go, or would 
it conceivably end up in either Yucca Mountain, if it is ever 
built, or in WIPP?
    Mr. Barrett. Well, again, under the statutes, we do not 
have a central storage facility in the United States, and that 
is a matter of United States policy. So, at Yucca Mountain, we 
are seeing if that site will be suitable for a geologic 
repository. We do not have an interim storage facility for the 
commercial nuclear power waste, so it remains on site until we 
create a place for it.
    Regarding the WIPP, that is by policy, by law is for 
transuranic waste, which has a lower level of toxicity than the 
high-level waste. That is for the defense materials, and that 
is only as a matter of law. But it is salt, which is a medium 
that could be used for high-level waste, but it is not.

                              GLOVE BOXES

    Mr. Doolittle. I read about plasma arc cutting as a way to 
cut up buildings, I guess, at I think it is Rocky Flats, into 
glove box size reductions. A glove box I think of as being the 
thing in the car where you throw stuff into. What do you mean 
by a glove box?
    Dr. Huntoon. The glove boxes are contained mechanisms to 
protect the worker and the environment from the radiation. If 
you would think about having your hands fitting into gloves so 
that you can work inside a box, and the insides of these boxes 
are all contaminated, and that is how the work was done across 
the complex to assemble weapons or disassemble them, or sort 
procedures, chemicals as they came in or what have you, and 
they are all very contaminated.
    Mr. Doolittle. So those would be about, I do not know, like 
give me a rough dimension of a glove box.
    Dr. Huntoon. Some of them are the size of this table, or 
larger.
    Mr. Doolittle. Okay, and this plasma arc cutting business, 
is that some advanced way to cut through----
    Dr. Huntoon. That was one of the technology advances that 
we used, because they have to be cut in pieces that can then go 
into the containers that go to the Waste Isolation Plant down 
in New Mexico. And so in order to get these in sizes that can 
be managed, because they are so large, they were being cut. Of 
course the workers had to cut them with special garments on and 
all, so they would not get contaminated. The plasma arc does it 
very rapidly, and so it has reduced greatly the amount of time 
it takes to process those.
    Mr. Doolittle. Now, do those garments then go to WIPP as 
well?
    Dr. Huntoon. Yes.
    Mr. Doolittle. So every time----
    Dr. Huntoon. When something is contaminated with 
transuranic waste, that is where it goes.
    Mr. Doolittle. Okay. Well, thank you very much.
    Dr. Huntoon. You are welcome.
    Mr. Callahan. All Members will have--we are expected to do 
it in a timely fashion--time to submit questions. I will have 
15 pages of them myself, of course. [Laughter.]

                           FUNDING FOR STATES

    But in the interim here, briefly, how much money are we 
spending in the WIPP program that Congressman Doolittle was 
talking about? And even more specifically, how much in New 
Mexico, and for projects other than those directly related to 
the facility, such as transportation or highways?
    Dr. Huntoon. Mr. Chairman, the WIPP budget for 2002 is $165 
million, and I believe $20 million of that goes to the State.
    Mr. Callahan. $20 million to do whatever they want to do 
with it, or----
    Dr. Huntoon. Well, they are providing support by highway 
support and police and safety and that sort of thing, to make 
sure that the shipments are coming in correctly.
    Mr. Callahan. Along the same lines, I know that we were 
giving money to the State of Nevada, that we found out they 
were using actually to lobby against the Yucca Mountain 
project. And then we stopped it in 2000. We reinstated it 
partially in 2001. And who is monitoring that? What are they 
doing? How much money are we giving to Nevada? Or now I guess 
it goes through their emergency management program.
    Mr. Barrett. In 2001 it is $2.5 million.
    Mr. Callahan. So you gave them $2.5 million?
    Mr. Barrett. Correct.
    Mr. Callahan. Which is a contribution that no other State 
gets for their emergency management operation.
    Mr. Barrett. Well, the purpose of those funds is to perform 
scientific oversight of this program, so it is directed toward 
that. They cannot----
    Mr. Callahan. Has anyone audited that to see how it has 
been----
    Mr. Barrett. Yes, sir. That is done under the Uniform 
Federal Auditing Act, and yes, audits are performed. An audit 
was performed in '99. A small amount of funding was provided in 
'99. I think it was $250,000.
    Mr. Callahan. So essentially what we did, we told Nevada we 
were going to stop giving them the money we were giving them 
because they were using it for lobbying activities against the 
project. So now we are funding their emergency management 
organization to the tune of $2.5 million, when the government 
of Nevada now is able to go to the legislature and say, ``Now 
that we have taken care of emergency management needs, 
something that would be our obligation under normal 
circumstances, it frees up money. You give it to me for a 
special project, whereby I can lobby against Yucca Mountain.'' 
Is that right? Is that a correct assessment?
    Mr. Barrett. I cannot assess----
    Mr. Callahan. I understand that, but we discovered that 
they were misusing, in our opinion, the monies we were giving 
them, to lobby against the project, so we cut it out. And then 
we went back now and we have given them $2.5 million and said, 
``This is money for Yucca Mountain, so you can take money that 
you are spending on something else and put it over here and 
lobby against the program.'' I mean the Yucca Mountain program.
    Mr. Barrett. The money that is provided under the law is to 
be used for oversight of Yucca Mountain, under the Yucca 
Mountain program. That is independently audited by the Unified 
Federal Auditing team, which, I believe is the part of the HHS 
that audits all the Federal grants that go to Nevada, be it 
schools or whatever. So it is audited. I do not know if 2000 
has been audited or not. I doubt that 2001 has. But there are 
certifications required from the State and audits will be done.
    Mr. Callahan. There was not much money in 2000, I do not 
think.
    Mr. Barrett. I think it was very small. My recollection is 
it was something like $500,000, a very small amount, but in 
2001 it is $2.5 million.

                    ALTERNATIVE TRANSPORTATION PLANS

    Mr. Callahan. How about the transportation problems? You 
also anticipate the roadblock. That is not a pun, but a 
transportation problem, an alternative transportation route. Do 
we have any contingency plan for a transportation route to 
eliminate the traffic from the City of Las Vegas?
    Mr. Barrett. If we build the facility at Yucca Mountain, it 
will require a fairly major transportation infrastructure 
within the State of Nevada. Our preference for transportation 
of the spent fuel would be by rail, but there is no rail line 
at the Yucca Mountain site now. We would like a rail line to be 
built, or potentially a heavy haul road like they use in France 
instead of rail, to move nominal----
    Mr. Callahan. Is your Department prepared to make the 
necessary transportation decisions rather than leave them to 
the State of Nevada?
    Mr. Barrett. If it turns out that Yucca Mountain under law 
is designated the site, we would hope to have cooperation and 
work with the State of Nevada to select a route that works for 
both parties, and not make it unilateral from one or the other. 
We will have to cross that bridge when we get there.
    But before a recommendation is made and a policy decision 
is made, I think it is premature to get into detail on routing. 
We have evaluated five different routes in our environmental 
impact statement, and if the site is duly designated under law 
I believe we can work that out at that time with the State of 
Nevada.
    Mr. Callahan. You know, I could go on, but since I am going 
to have to submit 15 pages anyway, I might as well submit all 
the rest of my questions. I don't know if the committee thinks 
we have time to finish this before the vote or not.
    Mr. Edwards. I have no questions.
    Mr. Callahan. You have no questions. Any questions?
    Mr. Frelinghuysen. No questions.
    Mr. Callahan. Well, let me just encourage you to submit 
your questions, and encourage you all to submit your responses 
in a timely fashion. We anticipate that all of the pages of the 
budget document will be available today for us to vote on, and 
that we will have an indication of our monies available, that 
the 302(b) allocations will be forthcoming in a timely fashion, 
and we are going to probably begin the process of writing our 
bill.
    But I just want to assure you both that your request for a 
reduction in monies for your agency is guaranteed to be at 
least that much. So with that, we thank you for coming and 
thank you for your messages.
    Mr. Barrett. Thank you, sir.
    Dr. Huntoon. Thank you.
    [The questions and answers for the record follow:]
    [GRAPHIC] [TIFF OMITTED] T3724A.892
    
    [GRAPHIC] [TIFF OMITTED] T3724A.893
    
    [GRAPHIC] [TIFF OMITTED] T3724A.894
    
    [GRAPHIC] [TIFF OMITTED] T3724A.895
    
    [GRAPHIC] [TIFF OMITTED] T3724A.896
    
    [GRAPHIC] [TIFF OMITTED] T3724A.897
    
    [GRAPHIC] [TIFF OMITTED] T3724A.898
    
    [GRAPHIC] [TIFF OMITTED] T3724A.899
    
    [GRAPHIC] [TIFF OMITTED] T3724A.900
    
    [GRAPHIC] [TIFF OMITTED] T3724A.901
    
    [GRAPHIC] [TIFF OMITTED] T3724A.902
    
    [GRAPHIC] [TIFF OMITTED] T3724A.903
    
    [GRAPHIC] [TIFF OMITTED] T3724A.904
    
    [GRAPHIC] [TIFF OMITTED] T3724A.905
    
    [GRAPHIC] [TIFF OMITTED] T3724A.906
    
    [GRAPHIC] [TIFF OMITTED] T3724A.907
    
    [GRAPHIC] [TIFF OMITTED] T3724A.908
    
    [GRAPHIC] [TIFF OMITTED] T3724A.909
    
    [GRAPHIC] [TIFF OMITTED] T3724A.910
    
    [GRAPHIC] [TIFF OMITTED] T3724A.911
    
    [GRAPHIC] [TIFF OMITTED] T3724A.912
    
    [GRAPHIC] [TIFF OMITTED] T3724A.913
    
    [GRAPHIC] [TIFF OMITTED] T3724A.914
    
    [GRAPHIC] [TIFF OMITTED] T3724A.915
    
    [GRAPHIC] [TIFF OMITTED] T3724A.916
    
    [GRAPHIC] [TIFF OMITTED] T3724A.917
    
    [GRAPHIC] [TIFF OMITTED] T3724A.918
    
    [GRAPHIC] [TIFF OMITTED] T3724A.919
    
    [GRAPHIC] [TIFF OMITTED] T3724A.920
    
    [GRAPHIC] [TIFF OMITTED] T3724A.921
    
    [GRAPHIC] [TIFF OMITTED] T3724A.922
    
    [GRAPHIC] [TIFF OMITTED] T3724A.923
    
    [GRAPHIC] [TIFF OMITTED] T3724A.924
    
    [GRAPHIC] [TIFF OMITTED] T3724A.925
    
    [GRAPHIC] [TIFF OMITTED] T3724A.926
    
    [GRAPHIC] [TIFF OMITTED] T3724A.927
    
    [GRAPHIC] [TIFF OMITTED] T3724A.928
    
    [GRAPHIC] [TIFF OMITTED] T3724A.929
    
    [GRAPHIC] [TIFF OMITTED] T3724A.930
    
    [GRAPHIC] [TIFF OMITTED] T3724A.931
    
    [GRAPHIC] [TIFF OMITTED] T3724A.932
    
    [GRAPHIC] [TIFF OMITTED] T3724A.933
    
    [GRAPHIC] [TIFF OMITTED] T3724A.934
    
    [GRAPHIC] [TIFF OMITTED] T3724A.935
    
    [GRAPHIC] [TIFF OMITTED] T3724A.936
    
    [GRAPHIC] [TIFF OMITTED] T3724A.937
    
    [GRAPHIC] [TIFF OMITTED] T3724A.938
    
    [GRAPHIC] [TIFF OMITTED] T3724A.939
    
    [GRAPHIC] [TIFF OMITTED] T3724A.940
    
    [GRAPHIC] [TIFF OMITTED] T3724A.941
    
    [GRAPHIC] [TIFF OMITTED] T3724A.942
    
    [GRAPHIC] [TIFF OMITTED] T3724A.943
    
    [GRAPHIC] [TIFF OMITTED] T3724A.944
    
    [GRAPHIC] [TIFF OMITTED] T3724A.945
    
    [GRAPHIC] [TIFF OMITTED] T3724A.946
    
    [GRAPHIC] [TIFF OMITTED] T3724A.947
    
    [GRAPHIC] [TIFF OMITTED] T3724A.948
    
    [GRAPHIC] [TIFF OMITTED] T3724A.949
    
    [GRAPHIC] [TIFF OMITTED] T3724A.950
    
    [GRAPHIC] [TIFF OMITTED] T3724A.951
    
    [GRAPHIC] [TIFF OMITTED] T3724A.952
    
    [GRAPHIC] [TIFF OMITTED] T3724A.953
    
    [GRAPHIC] [TIFF OMITTED] T3724A.954
    
    [GRAPHIC] [TIFF OMITTED] T3724A.955
    
    [GRAPHIC] [TIFF OMITTED] T3724A.956
    
    [GRAPHIC] [TIFF OMITTED] T3724A.957
    
    [GRAPHIC] [TIFF OMITTED] T3724A.958
    
    [GRAPHIC] [TIFF OMITTED] T3724A.959
    
    [GRAPHIC] [TIFF OMITTED] T3724A.960
    
    [GRAPHIC] [TIFF OMITTED] T3724A.961
    
    [GRAPHIC] [TIFF OMITTED] T3724A.962
    
    [GRAPHIC] [TIFF OMITTED] T3724A.963
    
    [GRAPHIC] [TIFF OMITTED] T3724A.964
    
    [GRAPHIC] [TIFF OMITTED] T3724A.965
    
    [GRAPHIC] [TIFF OMITTED] T3724A.966
    
    [GRAPHIC] [TIFF OMITTED] T3724A.967
    
    [GRAPHIC] [TIFF OMITTED] T3724A.968
    
    [GRAPHIC] [TIFF OMITTED] T3724A.969
    
    [GRAPHIC] [TIFF OMITTED] T3724A.970
    
    [GRAPHIC] [TIFF OMITTED] T3724A.971
    
    [GRAPHIC] [TIFF OMITTED] T3724A.972
    
    [GRAPHIC] [TIFF OMITTED] T3724A.973
    
    [GRAPHIC] [TIFF OMITTED] T3724A.974
    
    [GRAPHIC] [TIFF OMITTED] T3724A.975
    
    [GRAPHIC] [TIFF OMITTED] T3724A.976
    
    [GRAPHIC] [TIFF OMITTED] T3724A.977
    
    [GRAPHIC] [TIFF OMITTED] T3724A.978
    
    [GRAPHIC] [TIFF OMITTED] T3724A.979
    
    [GRAPHIC] [TIFF OMITTED] T3724A.980
    
    [GRAPHIC] [TIFF OMITTED] T3724A.981
    
    [GRAPHIC] [TIFF OMITTED] T3724A.982
    
    [GRAPHIC] [TIFF OMITTED] T3724A.983
    
    [GRAPHIC] [TIFF OMITTED] T3724A.984
    
    [GRAPHIC] [TIFF OMITTED] T3724A.985
    
    [GRAPHIC] [TIFF OMITTED] T3724A.986
    
    [GRAPHIC] [TIFF OMITTED] T3724A.987
    
    [GRAPHIC] [TIFF OMITTED] T3724A.988
    
    [GRAPHIC] [TIFF OMITTED] T3724A.989
    
    [GRAPHIC] [TIFF OMITTED] T3724A.990
    
    [GRAPHIC] [TIFF OMITTED] T3724A.991
    
    [GRAPHIC] [TIFF OMITTED] T3724A.992
    
    [GRAPHIC] [TIFF OMITTED] T3724A.993
    
    [GRAPHIC] [TIFF OMITTED] T3724A.994
    
    [GRAPHIC] [TIFF OMITTED] T3724A.995
    
    [GRAPHIC] [TIFF OMITTED] T3724A.996
    
    [GRAPHIC] [TIFF OMITTED] T3724A.997
    
    [GRAPHIC] [TIFF OMITTED] T3724A.998
    
    [GRAPHIC] [TIFF OMITTED] T3724A.999
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.001
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.002
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.003
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.004
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.005
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.006
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.007
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.008
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.009
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.010
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.011
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.012
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.013
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.014
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.015
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.016
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.017
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.018
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.019
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.020
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.021
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.022
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.023
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.024
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.025
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.026
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.027
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.028
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.029
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.030
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.031
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.032
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.033
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.034
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.035
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.036
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.037
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.038
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.039
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.040
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.041
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.042
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.043
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.044
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.045
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.046
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.047
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.048
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.049
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.050
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.051
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.052
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.053
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.054
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.055
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.056
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.057
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.058
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.059
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.060
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.061
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.062
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.063
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.064
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.065
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.066
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.067
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.068
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.069
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.070
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.071
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.072
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.073
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.074
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.075
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.076
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.077
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.078
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.079
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.080
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.081
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.082
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.083
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.084
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.085
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.086
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.087
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.088
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.089
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.090
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.091
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.092
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.093
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.094
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.095
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.096
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.097
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.098
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.099
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.100
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.101
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.102
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.103
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.104
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.105
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.106
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.107
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.108
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.109
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.110
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.111
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.112
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.113
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.114
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.115
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.116
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.117
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.118
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.119
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.120
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.121
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.122
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.123
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.124
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.125
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.126
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.127
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.128
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.129
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.130
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.131
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.132
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.133
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.134
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.135
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.136
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.137
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.138
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.139
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.140
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.141
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.142
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.143
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.144
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.145
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.146
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.147
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.148
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.149
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.150
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.151
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.152
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.153
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.154
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.155
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.156
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.157
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.158
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.159
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.160
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.161
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.162
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.163
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.164
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.165
    
    [GRAPHIC] [TIFF OMITTED] T3724A1.166
    


                           W I T N E S S E S

                              ----------                              
Baker, Kenneth...................................................     1
Barrett, L. H....................................................   869
Bowman, Adm. F. L................................................     1
Gioconda, Brig. Gen. T. F........................................     1
Gordon, Gen. J. A................................................     1
Huntoon, C. L....................................................   869


                               I N D E X

                              ----------                              

                    Atomic Energy Defense Activities

                                                                   Page
Accident Investigations..........................................   397
Advanced Accelerator Applications..............................309, 310
Annual Reports...................................................   565
ASCI.............................................................   112
ATLAS Status...................................................103, 479
Atomic Museum....................................................   131
ATSDR and CDC Health Studies Report FY2001-2006..................   338
AVLIS and Atomic Museum..........................................   131
Baker-Cutler Nonproliferation Report.............................    77
Bombers..........................................................   478
Chemical/Biological Agent Nonproliferation.......................    94
Chief Information Officer........................................   215
Computer Incident Advisory Capability............................   294
Construction Project Accomplishments.............................   121
Contractor Employee Reductions by Site...........................   460
Contractor Employment by Site....................................   411
Contractor Employment............................................   125
Contractor Travel..............................................122, 123
Critical Infrastructure Protection...............................   301
Critical Skills..................................................   100
Cruise Missiles..................................................   473
Cyber Security Architecture Guidelines...........................   216
Cyber Security Funding Crosscut..................................   295
Cyber Security Oversight Program Coordination....................   336
Cyber Security..................................................80, 110
Declassification of Information..................................   297
Defense Nuclear Facilities Safety Board, FY 2002 Budget Request..   761
Defense Nuclear Facilities Safety Board, FY 2002 Performance Plan   789
Defense Nuclear Nonproliferation.................................   138
Direct Program Funds Use.........................................   408
DOE Clearance....................................................   210
Economic Development Initiatives.................................   416
Emergency Operations...........................................136, 195
Emergency Response...............................................   133
Employment Impacts...............................................    78
Energy Employees Compensations Initiative........................   402
Environment, Safety and Health Crosscut Funding..................   360
Environment, Safety and Health Employees and Contractors (DOE-
  wide)..........................................................   390
Environment, Safety and Health Employees and Contractors (ES&H 
  Office)........................................................   394
Environment, Safety and Health Responsibilities..................   118
Environmental Monitoring/Disposal of Radioactive Wastes from 
  Naval Nuclear Ships............................................   566
Fissile Materials Disposition....................................   161
Fissile Materials--Inventory of Surplus Weapons..................   167
Five Year Budget.................................................     4
FY 2002 Budget Request.......................................6, 54, 483
Gas Turbine Modular High Temperature Reactor Technology..........   169
Health Studies by Site...........................................   337
Inactive Warheads Costs..........................................    71
Inactive Warheads................................................    69
Independent Oversight and Performance Assurance Reports..........   330
Inertial Confinement Fusion......................................   114
Infrastructure and Excess Facilities...........................105, 107
Infrastructure Initiative........................................     4
Infrastructure...............................................68, 73, 75
Initiative for Proliferation Prevention........................155, 158
International Nuclear Safety Centers Funding.....................   183
International Nuclear Safety.....................................   178
Laboratories and the Private Sector..............................    93
Laboratory and Production Plant Morale...........................    92
Laboratory Contract Extensions...................................   139
Laboratory Directed Research and Development..............116, 486, 490
Laboratory In-House and Outside Work.............................   126
Long-Term Environmental Stewardship..............................   108
Los Alamos Hard Drives...........................................    80
Low Yield Weapons................................................    71
Marshall Islands Medical Programs................................   372
Marshall Islands.................................................   371
Material Protection, Control and Accounting......................   154
Morale...........................................................     3
National Ignition Facility..................4, 82, 89, 91, 92, 115, 480
Naval Reactors..........................................55, 68, 90, 483
Naval Reactors Cleanroom Technology Facility.....................   191
Naval Reactors Inactivation of Land-Based Reactors...............   192
Naval Reactors' DOE Facilities Occupational Radiation Exposure...   679
New CVNX Design..................................................    55
New Nuclear Bomb(s)..............................................   471
NNSA Mission Issues..............................................     2
NNSA Organization................................................ 2, 99
NNSA--Concerns...................................................    66
Non-Nuclear Facilities...........................................   387
Nonproliferation and Verification Research and Development.......   171
Nonproliferation and Verification Research and Development 
  Competition....................................................   193
Non-Self Regulating Visits.......................................   389
Nuclear Cites Initiative.........................................   155
Nuclear Explosion Monitoring.....................................   193
Nuclear Industrial Base..........................................   187
Nuclear Material Threats.........................................    90
Nuclear Nonproliferation.........................................    76
Nuclear Plant Operators: Recruiting and Retention of.............   188
Nuclear Testing..................................................    83
Nuclear Threat Initiative Organization...........................   138
Nuclear Warheads: W-80, W-76, B-61........................473, 476, 478
Nuclear Weapons Council..........................................     4
Nuclear Weapons Program..........................................    99
Occupational Radiation Exposure from Naval Nuclear Propulsion 
  Plants.........................................................   628
Occupational Safety, Health and Occupational Medicine Report.....   729
OSHA Memorandum of Understanding.................................   375
Oversight Reports................................................   362
Oversight Visits.................................................   366
Pakistani Nuclear Testing........................................    86
Performance Measures.............................................   127
Pit Production...................................................    96
Plutonium Pits...................................................    90
Polygraph Program................................................   306
Polygraph Testing at the Weapons Laboratories....................    97
Portsmouth and Paducah Employment................................   466
Portsmouth and Paducah Funding...................................   464
Prioritized Projects List........................................   106
Program Direction..............................................184, 304
Pulsed Power Facility............................................   479
Reduced Enrichment for Research and Test Reactors................   174
Reimbursable Work................................................   132
Reportable Incidents.............................................   399
Rocky Flats Nuclear Materials Shipment...........................   117
Russia/Newly Independent States Funding from DOE.................   151
Russian Navy MPC&A...........................................85, 88, 94
Russian Nuclear Weapons Laboratories.............................   137
Russian Submarines...............................................   186
Russian Weapons Scientists.......................................    81
Safeguard and Security Funding...................................   198
Safety Lock Procurement..........................................   197
Savannah River Canyons--NNSA Use.................................   109
Schedule for Inactivation of Land-Based Reactor Plans............   192
Section 3161 Costs...............................................   409
Security at the National Laboratories............................    78
Security.........................................................3, 195
Security Affairs Staffing........................................   304
Security Clearances..............................................   210
Severance Benefits and Associated Costs..........................   404
Soviet-Designed Reactor Plant Upgrade Cost.......................   180
Soviet-Designed Reactor Program--U.S. Funding....................   182
Statement--Oral--Admiral Bowman..................................    54
Statement--Oral--General Gordon..................................     1
Statement--Written--Admiral Bowman...............................    57
Statement--Written--General Gordon...............................     8
Stockpile Size...................................................    75
Stockpile Stewardship Budget.....................................    83
Stockpile Stewardship............................................82, 91
Strategic Defense Review......................................5, 71, 74
Supplemental Budget Request......................................    76
Test Readiness..................................................88, 104
Threats..........................................................   196
Tonopah Test Range--Cost.........................................   102
Travel to Russia and Other FSU Countries.........................   142
Trident Submarine................................................   476
Underground Nuclear Testing......................................   469
United States versus Russian Nuclear Arsenal.....................   101
University of California Contract................................    87
US/DPRK Agreed Framework.........................................    86
Voluntary Protection Program (VPP)...............................  1142
Work Force Transition and Economic Development Funding...........   414
Y-12 Facility....................................................   468

                   Office of Environmental Management

ATLAS Uranium Mill Tailings Site in Moab, UT.....................  1040
Biography--Dr. Carolyn Huntoon...................................   872
Civilian Low-Level Radioactive Waste Disposal....................  1161
Cleanup Pace.................................................1184, 1186
Compliance Activities............................................   938
Compliance Funding...............................................   939
Compliance Requirements--FY 2002...............................940, 964
Defense Facilities Closure Project...............................  1024
Depleted Uranium Hexafluoride Conversion Project.................  1148
Document Storage Cost and Preservation...........................  1169
Environmental Management Actual Budget Reduction.................   949
Environmental Management Advisory Board Recommendations..........  1044
Environmental Management Assessment Schedule.....................   950
Environmental Management Assessment..............................   937
Environmental Management Efficiencies............................   943
Environmental Management Funding.........................943, 949, 1191
Environmental Managem964, 976, 1043, 1095, 1162, 1166, 1188, 1190, 1192
Excess Facilities................................................  1016
Federal Workforce................................................  1200
Fernald..........................................................  1214
Fines and Penalties..............................................  1105
Foreign Research Reactor Fuel....................................   990
Gaseous Diffusion Plants Decommissioning.........................  1007
Glove Boxes......................................................   960
Hanford Cleanup Cost.............................................  1170
Hanford Management Contract Enterprise Companies.................   980
Hanford On-site Analytical Laboratory Capabilities...............   983
Hanford Program Status...........................................  1205
Hanford Site--Funding Level for FY 2002 Budget...................  1206
Hanford Site--Lifecycle Costs....................................  1207
Hanford Spent Nuclear Fuel.......................................   979
Hazardous Waste Training.........................................   954
Historically Black Colleges and Universities--Funding............  1096
Idaho--Calcining Facility........................................  1003
Idaho--Remote Treatment Facility.................................  1004
Iowa Army Ammunition Plant.......................................  1006
Lawrence Berkeley Laboratory--Reduction of Research and 
  Development Work...............................................  1226
Lawrence Livermore Funding.......................................  1225
Litigation--Potential Compliance.................................   951
Long-Term Stewardship............................................  1017
Los Alamos Land Transfer Program.................................   968
Low-Level Radioactive Waste Disposal.........974, 975, 1001, 1161, 1216
Low-Level Waste..................................................   999
Materials in Inventory...........................................  1032
Moab Site in Utah.................................954, 1040, 1198, 1222
Moratorium on Recycling Contaminated Materials...................  1000
Nevada Test Site--Waste Disposal.................................   978
New York--West Valley Demonstration Project......................  1033
Oak Ridge--Cleanup of East Tennessee Technology Park.............   985
Oak Ridge--Decommissioning of Gaseous Diffusion Plant............  1007
Oak Ridge--Status of Incineration Work...........................   984
Ohio--1997 Audit Report DOE/IG-0496..............................  1042
Ohio--Cleanup at Mound...........................................  1031
Ohio--Completion Date and Cost...................................  1030
Ohio--Schedule Slippages and Cost Overruns.......................  1028
Oversight Funding................................................  1043
Paducah and Portsmouth--Funding in FY 2000, FY 2001 & FY 2002....  1010
Paducah and Portsmouth--Gaseous Diffusion Plant..................  1009
Paducah and Portsmouth--Uranium Hexafluoride Plants Funding......  1012
Paducah and Portsmouth--Uranium Hexafluoride Plants..............  1011
Paducah--Cleanup.................................................  1145
Paducah--Delays in Completion....................................  1153
Paducah--Ground Water Contamination..............................  1150
Paducah--Lifecycle Cost..........................................  1146
Paducah--Technology Deployment...................................  1152
Performance Measures.............................................   967
Priorities for Additional funding................................   944
Privatization Efforts.........................................965, 1165
Program Taxes....................................................  1107
Recycling of Scrap Metals........................................   999
Richland On-Site Analytical Lab Capabilities.....................   983
Rocky Flats--Closure Contract Status.............................  1202
Safety and Health/Safeguards and Security Costs..................  1100
Savannah River Site......................................956, 986, 1208
Savannah River--Canyon Operations................................   988
Savannah River--In Tank Precipitation Project....................   986
Savannah River--Americium/cesium project.........................   987
Spent Nuclear Fuel Project Status................................   979
Staffing.........................................................   972
State Funding....................................................   961
Statement--Oral--Dr. Carolyn Huntoon.............................   869
Statement--Written--Dr. Carolyn Huntoon..........................   873
Training.........................................................   973
Uranium/Thorium Reimbursement Program Cost.......................  1013
Uranium/Thorium Reimbursements for FY 2002--Status...............  1015
Waste Isolation Pilot Plant (WIPP)..................991, 996, 998, 1171
Waste Management Needs at Sites Managed by the Office of Nuclear 
  Energy.........................................................  1005
Waste Treatment and Disposal...................................959, 978
West Valley--Cleanup..........................................978, 1033
West Valley--Cost Increases and Schedule Increases...............  1035
West Valley--Cost Increases and Schedule Slippages...............  1034
West Valley--DOE and New York State Discussions--Status..........   977
West Valley--Imposition of Sales Tax.............................  1039
West Valley--Minimum Safe Cleanup Actions........................  1038
West Valley--Scope and Cost-Sharing Changes......................  1036
West Valley--Strategy for Closure................................  1037
Worker Training..................................................   973

            Office of Civilian Radioactive Waste Management

Accelerator Transmutation of Waste...............................  1138
Adequacy of One-Mill Fee after Settlement of Utility Lawsuits....  1134
Alternative Transportation Plans.................................   962
Biography--Mr. Lake Barrett......................................   928
Civilian Low-Level Radioactive Waste Disposal....................  1161
Decision to Recommend Yucca Mountain to the DOE Secretary........  1168
EPA Draft Standards..............................................   946
EPA Health and Safety Standards..................................  1156
External Oversight of the Repository Program.....................  1122
Fee Adequacy Assessment..........................................  1134
Funding Requirements..........................................947, 1137
Inspector General Review.........................................  1117
Legal Ruling Based on Failure of DOE to Accept Spent Nuclear Fuel  1160
License Application Submission in 2003...........................  1172
License Application..........................................1172, 1175
Litigation Related to Delay in Accepting Commercial Spent Fuel...  1183
Litigation....................................................946, 1160
National Transportation Infrastructure...........................  1179
Nevada State Funding.............................................  1123
Nevada Water Permits..........................................941, 1118
Nevada--Misuse of Federal Funds..................................  1124
Nuclear Fuel Reprocessing Overseas...............................   958
Nuclear Regulatory Commission................................1175, 1178
Nuclear Utilities Budgetary Receipts.............................  1181
Nuclear Waste Disposal Pace of Progress..........................   956
Nuclear Waste Fund--Current Balance..............................  1132
Nuclear Waste Fund--Total Amount of Fees Paid....................  1133
Nuclear Waste Technical Review Board.........................1119, 1121
Outyear Funding Requirements to meet 2010 Operational Date.......  1176
Project Management...............................................  1140
Radiation Standards for Yucca Mountain...........................  1129
Reprocessing in the U.S..........................................   952
Research and Development Role of DOE Laboratories................  1124
Scientific and Technical Reasons for not Construc1154, 1155, 1157, 1158
Science and Engineering Technology Assessment Review.............  1116
Site Characterization Activities.................................   940
Site Characterization Schedule and Costs.........................   944
Site Recommendation...............................941, 1115, 1168, 1174
Site Suitability.................................................   945
South Carolina Consortium Grant..................................  1221
Spent Fuel in Storage.........................................946, 1159
Spent Nuclear Fuel Transportation................................  1182
Staffing Reductions--Federal and Contractor......................   972
Statement--Oral--Lake Barrett....................................   926
Statement--Written--Mr. Lake Barrett.............................   929
Storage Capacity at Nuclear Sites................................  1159
Strategies for Addressing Long-Term Funding Shortfalls...........  1136
Thermal Operating Mode Design Decision...........................  1120
Transportation Activities........................................  1127
Transportation of High-Level Waste through the State of Nevada...  1125
Transportation Planning Outside of Nevada........................  1126
Transportation Route across the Nellis Range.....................  1128
Transportation Safety............................................   948
Waste Package Designs............................................  1137
Water Permit..................................................941, 1118
Yucca Mountain.......940, 944, 1115, 1117, 1122, 1129, 1168, 1173, 1177

                                <greek-d>

</pre></body></html>
